No. ______
In the

Supreme Court of the United States
__________________
JONNA CORPORATION,
dba Premier Recycling Company,
Petitioner,
v.
CITY OF SUNNYVALE,
__________________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
JOHN DOUGLAS MOORE
Counsel of Record
1999 Harrison St., 18th Fl.
Oakland, CA 94612
(510) 893-6300
jmoore@recyclelaw.com
Counsel for Petitioner

May 23, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
The questions presented in this Petition are:
1. Did Petitioner Premier Recycling adequately
plead its Declaratory Judgment claim alleging a
violation of 42 U.S.C. Section 1983, pursuant to
FCRP 8; and
2. Did Respondent City of Sunnyvale’s application
of the California Supreme Court’s decision in
Waste Management of the Desert violate
Petitioner’s established property rights in an
unconstitutional manner?

ii
PARTIES TO THE PROCEEDING
Petitioner Jonna Corporation dba Premier Recycling
was the appellant in the court below. Respondent City
of Sunnyvale, California, was the appellee in the court
below. Jonna Corporation has no parents or
subsidiaries and is not publically held.
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29, Jonna Corporation has no
parent corporation and is not a publically held
corporation.

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 3
REASONS FOR GRANTING THE PETITION . . . . 4
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. THE CIRCUIT SPLIT ABOUT PLEADING A
CLAIM UNDER SECTION 1983 . . . . . . . . . . . . . 9
A. Petitioner’s Operative Pleading . . . . . . . . . . . 9
B. The Court rulings for which review is
sought. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
C. Applicable rules for pleading a Substantive
Due Process violation . . . . . . . . . . . . . . . . . . 11
D. Conflict among the Ninth, Fifth and Seventh
Circuits. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iv
II. THE COURT SHOULD SETTLE AN
IMPORTANT QUESTION OF LAW
CONCERNING THE APPLICATION OF STOP
THE BEACH . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
A. Stop the Beach and its Progeny . . . . . . . . . . 18
B. How the California Supreme Court impaired
established property rights . . . . . . . . . . . . . . 22
C. The Established Property Rights Set Forth in
the 1989 Legislation . . . . . . . . . . . . . . . . . . . 22
D. Compare the 1989 Legislation to the 1989
Supreme Court Interpretation . . . . . . . . . . . 27
E. Rules Of Statutory Interpretation . . . . . . . . 29
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38
APPENDIX
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(February 22, 2019) . . . . . . . . . . . App. 1
Appendix B Order Granting Motion to Dismiss the
First Amended Complaint in the
United States District Court Northern
District of California, San Jose Division
(November 9, 2017). . . . . . . . . . . . App. 5
Appendix C Order Granting City of Sunnyvale’s
Motion to Dismiss in the United
States District Court Northern
District of California, San Jose Division
(June 16, 2017) . . . . . . . . . . . . . . App. 36

v
Appendix D Cal. Pub. Res. Code. . . . . . . . . . . App. 79
§ 40000-40004 . . . . . . . . . . . . App. 79
§ 40050-40063 . . . . . . . . . . . . App. 84
§ 40100-40201 . . . . . . . . . . . App. 104
§ 41780-41786 . . . . . . . . . . . App. 126
Appendix E First
Amended
Complaint for
Declaratory Judgment and Injunctive
Relief (28 U.S.C. Section 2201) in the
United States District Court Northern
District of California, San Jose Division
(July 16, 2017). . . . . . . . . . . . . . App. 152

vi
TABLE OF AUTHORITIES
CASES
Asbell v. Kansas,
209 U.S. 251 (1908). . . . . . . . . . . . . . . . . . . . . . . 32
Bell Atlantic Corp. v. Twombly,
550 U.S. 544 (2007). . . . . . . . . . . . . . . . . . . . 11, 14
Bilsky v. Kappos,
561 U.S. 593 (2010). . . . . . . . . . . . . . . . . . . . . . . 29
Brownlee v. Conine,
957 F.2d 353 (7th Cir. 1992). . . . . . . . . . . . . 13, 14
C & A Carbone v. Town of Clarkstown,
511 U.S. 383 (1994). . . . . . . . . . . . . . . . . . . . . . . . 4
California Reduction Co. v. Sanitary Reduction
Works, 199 U.S. 306 (1905). . . . . . . . . . . . . . . 5, 37
Consumer Product Safety Comm’n v. GTE
Sylvania, Inc., 447 U.S. 102 (1980) . . . . . . . . . . 29
Evangelatos v. Superior Court,
44 Cal. 3d 1188 (1988) . . . . . . . . . . . . . . . . . . . . 28
Exxon Mobil Corp. v. Alapattah Svcs.,
545 U.S. 546 (2005). . . . . . . . . . . . . . . . . . . . . . . 29
GE Capital Corp. v. Posey,
415 F.3d 391 (5th Cir. 2005). . . . . . . . . . . . . . . . 14
Harris v. Appellate Division of Superior Court,
14 Cal.App. 5th (2017) . . . . . . . . . . . . . . . . . . . . 30
Jackson v. Marion County,
66 F.3d 151 (7th Cir. 1995) . . . . . . . . . . . . . . . . 13

vii
McGary v. City of Portland,
386 F.3d 1259 (9th Cir. 2004). . . . . . . . . . . . . . . 13
MedImmune, Inc. v. Genentech, Inc.,
549 U.S. 118 (2007). . . . . . . . . . . . . . . . . . . . . . . 12
Medrano v. Caliber Homes Loans, Inc.,
2014 U.S. Dist. LEXIS 177576 (CD CA 2014) . . 14
Northern Natural Gas Co. v. ONEOK Field
Servs. Co., L.L.C., 296 Kan. 906 (2013) . . . . . . . 20
PVM Redwood Co. v. United States,
686 F.2d 1327 (9th Cir. 1982). . . . . . . . . . . . . . . 18
Philadelphia v. New Jersey,
437 U.S. 617 (1978). . . . . . . . . . . . . . . . . . . . . 4, 31
Pruneyard Shopping Ctr. v. Robins,
447 U.S. 74 (1980). . . . . . . . . . . . . . . . . . . . . . . . 21
Rossa v. D.L. Falk Construction, Inc.,
53 Cal. 4th 387 (2014). . . . . . . . . . . . . . . . . . . . . 30
Shanks v. Dressel,
540 F.3d 1082 (9th Cir. 2008). . . . . . . . . . . . . . . 11
Shinnecock Indian Nation v. United States,
112 Fed. Cl. 369 (2013) . . . . . . . . . . . . . . . . . . . . 20
Steffel v. Thompson,
415 U.S. 452 (1974). . . . . . . . . . . . . . . . . . . . . . . 11
Stenberg v. Carhart,
530 U.S. 914 (2000). . . . . . . . . . . . . . . . . . . . . . . 29

viii
Stop the Beach Renourishment, Inc. v. Fla. Dep’t
of Envtl. Prot.,
560 U.S. 702 (2010). . . . . . . . . . . . . . . . . . . passim
Thunder Props. v. Treadway,
2016 U.S. Dist. LEXIS 43818 (D NV 2016) . . . . 20
United Haulers Ass’n v. Oneida-Herkimer Solid
Waste Mgmt. Auth., 550 U.S. 330 (2007) . . . . . . . 5
United States v. Millis,
621 F.3d 914 (9th Cir. 2014). . . . . . . . . . . . . . . . 28
Waste Management of the Desert v. Palm Springs
Recycling Center,
7 Cal.4th 478 (1994) . . . . . . . . . . . . . . . . . . passim
Watson v. Lake County,
No. 5:09-cv-399, 2011 U.S. Dist. LEXIS 162352,
2011 WL 13175635 (M.D. Fla. Feb. 23,
2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Webb’s Fabulous Pharms. v. Beckwith,
449 U.S. 155 (1980). . . . . . . . . . . . . . . . . . . . . 4, 21
Weigel v. Maryland,
950 F. Supp. 2d 811 (D MD 2013) . . . . . . . . . . . 20
Yamaguchi v. United States Dep’t of the Air Force,
109 F.3d 1475 (9th Cir. 1997). . . . . . . . . . . . . . . 12
Yates v. United States,
135 S. Ct. 1074 (2015). . . . . . . . . . . . . . . . . . . . . 30
In re Zhizhuzza,
147 Cal. 328 (1905) . . . . . . . . . . . . . . . . . . . . . . . 37

ix
CONSTITUTION AND STATUTES
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . 2, 3
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 1367 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
28 U.S.C. § 2201 . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 11
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . 2, 3, 9, 13, 17
Cal. Green Building Standards Code § 5.408.1.1 . . . 8
Cal. Public Resources Code § 40000 et seq.. . . . . 3, 31
Cal. Public Resources Code § 40000 . 6, 24, 31, 32, 33
Cal. Public Resources Code § 40001 . . . . . . 31, 33, 37
Cal. Public Resources Code § 40004 . . . . . . . . . . . . 31
Cal. Public Resources Code § 40051 . . . . . . . . . 23, 25
Cal. Public Resources Code § 40059 . . . . . . . . passim
Cal. Public Resources Code § 40180 . . . 25, 31, 32, 33
Cal. Public Resources Code § 40191 . . . . . . . . . 25, 28
Cal. Public Resources Code § 41780 . . . . . . . . . . . . 23
Sunnyvale Municipal Code § 16.043.20. . . . . . . . . . . 8
RULES
Fed. R. Civ. P. 8 . . . . . . . . . . . . . . . . . . . . . . . 2, 13, 38

x
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . 2, 13
Sup. Ct. R. 10 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
OTHER AUTHORITIES
https://www.merriam-webster.com/dictionary/
discard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
Melosi, Garbage in the Streets (University of
Pittsburg Press 2005) . . . . . . . . . . . . . . . . . . . . . . 5

1
PETITION FOR WRIT OF CERTIORARI
Jonna Corporation dba Premier Recycling (“Premier
Recycling”) respectfully petitions this Court for a Writ
of Certiorari to review the Judgment of the United
States Court of Appeal for the Ninth Circuit in this
case.
OPINIONS BELOW
The opinion of the Ninth Circuit Court of Appeals is
reported at Jonna Corp. v. City of Sunnyvale (9th Cir.
2018) 754 Fed. Appx. 592, 2019 U.S. App. LEXIS 5221,
86 Env’t Rep. Cas. (BNA) 3924 and is reproduced in the
appendix.
The opinion of the United States District Court
dismissing Petitioner’s First Amended Complaint is
reported at Jonna Corp. v. City of Sunnyvale (ND CA
2017) 2017 U.S. Dist. LEXIS 186348 and is reproduced
in the appendix. The opinion of the United States
District Court dismissing Petitioner’s Complaint with
leave to amend is reported at Jonna Corp. v. City of
Sunnyvale, 2017 U.S. Dist. LEXIS 93353 and is
reproduced in the appendix.
JURISDICTION
The Judgment of the Ninth Circuit was filed on
February 22, 2019. The jurisdiction of this Court is
invoked pursuant to 28 U.S.C. Section 1254(1). No
notifications pursuant to Rule 29.4 are required.

2
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Clause One of the Fourteenth Amendment to the
Constitution, which provides that “(no) State (shall)
deprive any person of life, liberty, or property, without
due process of law.”
Federal Rule of Civil Procedure 8(a), which requires
that a pleading contain “…a short and plain statement
of the claim showing that the pleader is entitled to
relief.”
Federal Rule of Civil Procedure 12(b)(6), which
allows a Court to dismiss an action if the Complaint
“(fails) to state a claim upon which relief can be
granted.”
28 U.S.C. Section 2201, which provides that
In a case of actual controversy within its
jurisdiction…any court of the United States,
upon the filing of an appropriate pleading, may
declare the rights and other legal relations of
any interested party seeking such declaration,
whether or not further relief is or could be
sought. Any such declaration shall have the
force and effect of a final judgment or decree and
shall be reviewable as such.
42 U.S.C. Section 1983 which states that:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of

3
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress….”
Pertinent provisions of California’s Integrated
Waste Management Act, Public Resources Code Section
40000 et seq., which are reproduced in the appendix.
STATEMENT OF THE CASE
Premier Recycling filed a Complaint in the United
States District Court for the Northern District of
California alleging a claim under the Declaratory
Judgment Act, 28 U.S.C. Sec. 2201. The question
presented was whether Respondent City of Sunnyvale,
California violated the civil rights of Premier Recycling
under 42 U.S.C. Sec. 1983 and specifically violated
Plaintiff’s rights under the Fourteenth Amendment of
the United States Constitution, and California Public
Resources Code (Section 40059). The District Court had
subject matter jurisdiction under 28 U.S.C. Sec. 1331.
The District Court also had supplemental jurisdiction
to consider claims arising under California state law
pursuant to 28 U.S.C. Sec. 1367.
The appeal to the Ninth Circuit was from a final
judgment of the District Court that resolved all claims
of all parties. That Court had jurisdiction under 28
U.S.C. Section 1291.

4
REASONS FOR GRANTING THE PETITION
Rule 10 Application
This Petition seeks to resolve a conflict among the
Circuits about the adequacy of pleading a claim under
the Declaratory Judgment Act and the Civil Rights Act.
This Petition also seeks to resolve an important
question of law about whether, and under what
circumstances a state Supreme Court decision may be
found unconstitutional under Webb’s Fabulous Pharms.
v. Beckwith, 449 U.S. 155 (1980) and Stop the Beach
Renourishment, Inc. v. Fla. Dep’t of Envtl. Prot., 560
U.S. 702 (2010), if it eliminates established property
rights, and what remedies, if any, are available.
INTRODUCTION
This Petition also addresses an issue never before
addressed by this Court. In this Court’s jurisprudence,
“garbage” or, in today’s lingo, “solid waste”, was
addressed as something noxious and a public health
hazard1, as well as an “article of commerce”.2 Today
much of what used to be “garbage” is in fact reclaimed
through reuse, recycling, and composting, a result
endorsed by federal, state, and local legislatively-stated
policy. By removing materials from what used to be
called the “waste stream” before they became garbage
and turning these recovered materials into new, useful,
products, a lot of the public health issues about garbage

1

Philadelphia v. New Jersey, 437 U.S. 617 (1978)

2

C & A Carbone v. Town of Clarkstown, 511 U.S. 383 (1994)

5
collection have been reduced.3 In the context of conflict
between 1989 California legislation and a 1994 state
Supreme Court decision that changed established
property rights, Premier Recycling requests that this
Court revisit its 1905 holding in California Reduction
Co. v. Sanitary Reduction Works, 199 U.S. 306 (1905)
and decide whether police power justifies economic
regulation over the collection of recyclable materials, as
opposed to garbage.
This case addresses the competition for the
materials in the garbage between traditional garbage
collectors that landfill the material, pitted against
modern public policy and recyclers, such as Premier
Recycling that support these public policies; and what
is the constitutional limit of government impairment of
the property rights of businesses that collect what used
to be garbage but today is recycled. In 1994, the
California Supreme Court interpreted a 1989
California statute defining “solid waste” inconsistently
with the legislative intent and in a manner that
impaired existing property rights. Waste Management
of the Desert v. Palm Springs Recycling Center, 7
Cal.4th 478 (1994).
In what was then prompted by concern over
diminishing landfill capacity and the environmental
harm inflicted by landfills, the California legislature
3

For an historical review of the connection between the discovery
that germs cause disease and the local government mandate to
regulate safe garbage collection see Melosi, Garbage in the Streets
(University of Pittsburg Press 2005), cited by this Court in United
Haulers Ass’n v. Oneida-Herkimer Solid Waste Mgmt. Auth., 550
U.S. 330, 334 (2007).

6
passed laws in 1989 establishing strong and clear
policies favoring resource recovery, such as reuse,
recycling, and composting, and against landfilling4;
finding that landfills were harmful to the environment
and promoted overuse of finite virgin resources. This
legislation placed the burden of reducing material
going to landfill (called “diversion”) upon local
government. The legislation permitted local
governments to continue a practice of discharging their
health and safety obligations for garbage (now called
“solid waste”) collection by franchising collection rights
to private parties but required that an “exclusive
franchise” be limited only to those situations where
public health and safety required. 5
In a lawsuit between an exclusive franchisee and a
local recycling business, the state Supreme Court in
Waste Management of the Desert was asked to decide
the outer limit of a permissible exclusive solid waste
franchise under the new legislation. The intermediate
state Court of Appeal reversed a Judgment for
permanent injunction in favor of the exclusive
franchisee and its two city clients on the ground, inter
alia, that the franchisee’s interpretation of “solid
waste” under the new law was an unconstitutional and
excessive exercise of police power.6 The state Supreme
Court reversed the Court of Appeal decision without
analyzing the constitutional issue underlying the Court
of Appeal decision. Instead, the state Supreme Court
re-wrote the legislative definition of “solid waste” in a
4

Public Resources Code Section 40000(b)-(e)

5

PRC Section 40059

6

20 Cal.App.4th 586, 602-604 (1992)

7
manner inconsistent with the stated legislative intent
and the rights established in this legislation.
The state Supreme Court ruled that “solid waste” is
something the owner no longer wants and pays
someone to dispose.7 This definition has nothing to do
with whether the material goes to landfill or not. The
reasoning of the Court is poorly grounded. If someone
wanted to buy garbage, it could escape regulation for
the collection of garbage because the fact of purchase
makes it not garbage. Conversely, no matter what the
intrinsic value of the unwanted material (e.g. an old
faded Andy Warhol print), if someone disposed of it by
mailing it to a family member, say via Fedex (which
charges a fee to transport the material), the franchisee
could sue Fedex for interfering with the franchise.
Premier Recycling collects what is called
construction and demolition debris, or C&D, which is
the mixed wood, metal, drywall, cardboard, carpet,
asphalt, and concrete that is discarded at any
commercial building construction site. In many cities
adjacent to Sunnyvale, Premier Recycling is allowed to
and does charge the construction site owner/generator
a service fee to collect the C&D, which offsets the
vehicle and labor cost of collection. Many local
jurisdictions, including Sunnyvale, require a building
contractor to affirm the recycling of a fixed percentage
7

At p. 478 the Court states its rule: “The proper rule is this: If the
owner of property disposes of it for compensation--in common
parlance, sells it--it is not waste because it has not been discarded.
The owner is not required under the Act to transfer this property
to the exclusive franchisee. But, consistent with the purpose of the
Act, an owner cannot discard property as he sees fit. Discarding
the property renders the property waste and subjects it to the Act.

8
of the nonhazardous C&D generated as a condition to
obtain a building permit.8 LEED certification of
buildings likewise requires recycling of building
materials.9 Premier Recycling transports the C&D it
collects to the state-permitted recycling facility it owns
in San Jose, CA, where it sorts the material into its
constituent parts and, for the most part, sells the
sorted materials to a company that will use them to
make a new product; exactly the stated legislative goal
of recycling.
Sunnyvale, unlike adjacent cities such as San
Jose10, granted an exclusive garbage collection
franchise that bars competitive fee for service collection
of C&D. Sunnyvale itself owns a C&D recycling facility
that competes with Premier Recycling.11 Sunnyvale did
not comply with state law (Public Resources Code
Section 40059) because it never found that public
health and safety required the granting an exclusive
garbage collection franchise. The exclusivity aspect of
the franchise was concealed from the public; the issue
was never raised in a public hearing before Sunnyvale’s
City Council. Instead, City staff made the decision to
make the franchise exclusive behind the scenes and
closed doors.
8

See Sunnyvale Municipal Code Section 16.043.20 which adopts
the California Green Building Standards Code. Section 5.408.1.1
of that code requires the contractor to recycle or salvage 65% of all
nonhazardous waste generated.
9

California Green Building Standards Code. Section 5.408.1.1

10

Sunnyvale is in Santa Clara County. San Jose is the county seat
and the largest city within the county.
11

https://sunnyvale.ca.gov/property/recycling/getrid/center.htm

9
Premier Recycling did not have standing to
challenge the Waste Management of the Desert
precedent until Sunnyvale took formal action to
prevent Premier Recycling from collecting C&D for a
fee within the city. This occurred in 2017 when the
underlying action was filed. This action was filed in
federal court because no state lower court could refuse
to follow the Waste Management of the Desert
precedent.
I. THE CIRCUIT SPLIT ABOUT PLEADING A
CLAIM UNDER SECTION 1983
A. Petitioner’s Operative Pleading
Petitioner’s First Amended Complaint (this
operative pleading is reproduced in the appendix)
asserts a claim under the federal Declaratory
Judgment Act. The Declaratory Judgment claim
asserts a violation of the federal Civil Rights Act, 42
U.S.C. Section 1983. After reciting the background
cited above, Premier Recycling alleges that Sunnyvale
violated the Substantive Due Process Clause of the
Fourteenth Amendment and California Public
Resources Code (“PRC”) Section 40059 at FAC by
arbitrary and capricious application of Waste
Management of the Desert (App. 162-63).
B. The Court rulings for which review is
sought
The District Court first dismissed Petitioner’s
Complaint on the ground that it alleged insufficient
facts, as opposed to conclusory allegations, that
Sunnyvale had committed egregious conduct to support
its Substantive Due Process claim and then granted

10
leave to amend.12 After Premier Recycling amended its
Complaint, the District Court still found the allegations
too conclusory. The District Court stated (at *30-32):
“Despite the instant Court’s previous ruling that
Plaintiff must allege egregious government
action to state a substantive due process claim,
ECF No. 29 at 13-16, Plaintiff pleaded only
conclusory allegations that the California
Supreme Court’s decision was arbitrary. See
FAC ¶ 36. Plaintiff’s Opposition similarly
contains no specific allegations of egregious
government action beyond labeling the Waste
Management [*31] decision “egregious” and
“irrational.” Opp. at 2-4, 13-14, 17.
By failing to set forth any facts in the FAC to
show egregious government action, Plaintiff has
“fail[ed] to cure deficiencies by amendments
previously allowed.” Carvalho, 629 F.3d 876,
892-93. As a result, it is within the Court’s
discretion to find that further amendments
would be futile and to decline to allow further
amendments. Moreover, Plaintiff failed in its
Opposition to identify any facts that it could add
if given leave to amend yet another time. This
failure reinforces the Court’s conclusion that
allowing further amendments would be futile.”
The Ninth Circuit affirmed this viewpoint, stating
that Premier Recycling”…pleaded no facts to support
its allegations that the decision was ‘constitutionally
12

Jonna Corp. v. City of Sunnyvale, 2017 U.S. Dist. LEXIS 186348
at *4-6.

11
arbitrary.’” citing Shanks v. Dressel, 540 F.3d 1082,
1089 (9th Cir. 2008). But the Shanks Court affirmed a
grant of summary judgment, it made no determination
of the adequacy of pleading a Substantive Due Process
violation. The Shanks Court held that “Because
Spokane’s conduct did not deprive Logan Neighborhood
of a constitutionally cognizable property interest, we
affirm the district court’s entry of summary judgment
in favor of the city.” (op. p.1087)
C. Applicable rules for pleading a Substantive
Due Process violation
A complaint is sufficient if it gives the defendant
“fair notice” of what… the claim is and the grounds
upon which it rests.” Bell Atlantic Corp. v. Twombly,
550 U.S. 544, 555 (2007).
In determining the sufficiency, allegations of
material fact are deemed true “in the light most
favorable to the pleader.” Scheuer v. Rhodes, 416 U.S.
232, 236 (1974). The Scheuer Court stated: “Indeed it
may appear on the face of the pleadings that a recovery
is very remote and unlikely but that is not the test.”
Twenty-three years later, Bell Atlantic held that the
claim must be “plausible.”
Premier Recycling brought action under the
Declaratory Judgment Act, 28 U.S.C. Section 2201.
Congress intended the declaratory judgment procedure
to act as an alternative to injunctive relief and to be
utilized to test the constitutionality of state statutes.
Steffel v. Thompson, 415 U.S. 452, 466-468 (1974). To
fall within the Act’s ambit, the case of actual
controversy” (must be):

12
“definite and concrete, touching the legal
relations of parties having adverse legal
interests,’ . . . ‘real and substantial’ and ‘admi[t]
of specific relief through a decree of a conclusive
character, as distinguished from an opinion
advising what the law would be upon a
hypothetical state of facts.’” MedImmune, Inc. v.
Genentech, Inc., 549 U.S. 118, 127 (2007).
D. Conflict among the Ninth, Fifth and
Seventh Circuits
The Ninth Circuit’s pleading standards are set forth
in Yamaguchi v. United States Dep’t of the Air Force
109 F.3d 1475, 1481 (9th Cir. 1997). Yamaguchi states
that “Our system of notice pleading ‘does not require a
claimant to set out in detail the facts upon which he
bases his claim.’” (citation omitted) Instead, according
to the Court,
“all the Rules require is ‘a short and plain
statement of the claim’ that will give the
defendant fair notice of what the plaintiff’s claim
is and the grounds upon which it rests.” Id.
(footnote omitted) (quoting Fed.R.Civ.P. 8(a)(2)).
“[A] complaint should not be dismissed for
failure to state a claim unless it appears beyond
doubt that the plaintiff can prove no set of facts
in support of his claim which would entitle him
to relief.” Id. at 45-46 (footnote omitted)
(emphasis added). Thus, these liberal pleading
rules only require that the averments of the
complaint sufficiently establish a basis for
judgment against the defendant. Danning v.
Lavine, 572 F.2d 1386, 1388-89 (9th Cir. 1978).

13
This standard is similar to the one adopted by the
Seventh Circuit in Jackson v. Marion County, 66 F.3d
151, 153 (7th Cir. 1995) that under FRCP 8, as applied
to a claim arising under 42 U.S.C. Section 1983, like
this one, that “…a plaintiff in a suit in federal court
need not plead facts; he can plead conclusions.”
And because this case raises some novel issues, it is
noteworthy that motions to dismiss under FRCP
12(b)(6) are “especially disfavored” when the complaint
sets forth a novel legal theory that “can best be
assessed after factual development.” McGary v. City of
Portland, 386 F.3d 1259, 1270 (9th Cir. 2004).
In reversing a District Court decision to dismiss two
Section 1983 cases because they were “conclusory,
stale, and lacking in a factual basis”, Judge Posner of
the Seventh Circuit applied FRCP 8 in Brownlee v.
Conine, 957 F.2d 353, 354 (7th Cir. 1992) and held
that
The Federal Rules of Civil Procedure
establish a system of notice pleading rather than
of fact pleading, Fed. R. Civ. P. 8; Elliott v.
Thomas, 937 F.2d 338, 345 (7th Cir. 1991), so
the happenstance that a complaint is
“conclusory,” whatever exactly that overused
lawyers’ cliche means, does not automatically
condemn it. All the complaint need do to
withstand a motion to dismiss for failure to state
a claim is “outline or adumbrate” a violation of
the statute or constitutional provision upon
which the plaintiff relies, Sutliff, Inc. v. Donovan

14
Cos., 727 F.2d 648, 654 (7th Cir. 1984), and
connect the violation to the named defendants.
The Fifth Circuit went further in GE Capital Corp.
v. Posey, 415 F.3d 391, fn.6 (5th Cir. 2005) that “…the
mere fact that allegations can be characterized as
‘conclusional’ will not, alone, suffice to make them
insufficient” citing the Seventh Circuit in Brownlee.
This Court cited the Seventh Circuit decision in
Brownlee favorably in Bell Atlantic supra at 550 U.S.
544, 590.
Only one Court within the Ninth Circuit, Medrano
v. Caliber Homes Loans, Inc., 2014 U.S. Dist. LEXIS
177576 at *19-20 (CD CA 2014), has cited Brownlee,
and this Central District Court’s interpretation of
Brownlee is also at odds with both the District Court’s
ruling in this case which the Ninth Circuit affirmed.
The Medrano Court stated:
“What is the relevant difference between a
conclusory allegation on one hand, and a
sufficient allegation on the other? The
distinction can be a hard one to draw in formal
terms. See Brownlee v. Conine, 957 F.2d 353,
354 (7th Cir. 1992) (referring to the term
“conclusory,” in the context of pleading, as an ill
defined, “overused lawyers’ cliché”); see
generally 5 Charles Alan Wright, et al., Federal
Practice & Procedure § 1218 (3d ed.) (noting that
“years of frustrating experience” show that it is
“difficult, if not impossible, to draw meaningful
and consistent distinctions between or among
‘evidence,’ ‘facts,’ and ‘conclusions’” — concepts
that “tend[] to merge to form a continuum [with]

15
no readily apparent dividing markers . . . to
separate them”). Better instead to approach the
distinction in practical terms. To be effective, a
plaintiff’s complaint need only offer a set of facts
that put a defendant on notice of a legal wrong
the plaintiff alleges plausibly that the defendant
committed. See Twombly, 550 U.S. at 556-57
(holding that factual allegations must be enough
to raise a claim above a speculative level, and to
a plausible one); Skaff v. Meridien N. Am.
Beverly Hills, LLC, 506 F.3d 832, 841 (9th Cir.
2007) (noting that “the purpose of a complaint”
is “to give the defendant fair notice of the factual
basis of the claim”). (some record citations
omitted)
In this action, the District Court found that
Petitioner’s initial complaint did not meet FRCP 8’s
requirements because it failed to allege that
Sunnyvale’s action was “arbitrary or capricious” and
granted leave to amend to do so. (op. at * 46)
Petitioner’s FAC cured this asserted pleading defect
by alleging that Sunnyvale’s actions were “arbitrary
and capricious in each of Para. 22, 26, 27, and the
prayer for relief in the FAC (App. 164, 166-67).
Paragraphs 3-24 (App. 153-166) of the FAC allege
factually why the actions were arbitrary and capricious
and bearing no rational relation to any legitimate
government interest.
Premier Recycling submits that alleging an action
is arbitrary and capricious is itself a factual allegation.
Both words are adjectives. Adjectives modify nouns.
Conclusions are judgments, not nouns. In any event,

16
the FAC states the action was arbitrary and capricious
because:
Premier Recycling applied for a permit to haul C&D
for a fee under an Ordinance that allowed the issuance
of multiple permits and Sunnyvale denied a permit
because it had determined to allow only one hauler.
(App. 161)
Sunnyvale failed to perform the statutory condition
precedent (PRC Sec. 40059) to awarding an exclusive
solid waste franchise (App. 163))
Sunnyvale permits self-haul of C&D (App. 159-160)
while banning fee for service hauling of C&D, making
a rational public health and safety argument difficult;
Premier Recycling does not collect material within
the scope of Sunnyvale’s exclusive franchise; (App. 15759)
Premier Recycling alleged:
1. Premier Recycling applied for a license from
Sunnyvale to collect mixed C&D in the city for a
fee, accepting for that purpose that Sunnyvale’s
Ordinance required such a license. FAC Para.
17, App. 161;
2. Sunnyvale denied Petitioner’s license
application on the ground that Sunnyvale had
only one licensed collector of what the city
termed solid waste, even though Sunnyvale’s
Ordinance contemplates multiple licensees. FAC
Para. 18, App. 161-162;

17
3. Sunnyvale’s refusal to issue a license to Premier
Recycling deprived Premier Recycling of a
property interest under color of law in violation
of 42 U.S.C. Section 1983. FAC, Para. 26, App.
166-167);
4. Sunnyvale’s decision to have only one
licensee to collect what it terms “solid waste”
violated PRC Section 40059. FAC Para. 29,
App. 167;
5. Petitioner’s established property interests such
as lost contracts and business relationships were
impaired by the state Supreme Court decision,
Waste Management of the Desert, FAC, Paras, 30
and 33, App. 167-168;
6. The Waste Management of the Desert decision as
applied by Sunnyvale in denying a license to
Premier Recycling violates the 14th Amendment
because it is “so arbitrary that a rational basis
for the action cannot even be conceived post hoc.
FAC Para. 36, App. 169.
The facts alleged, not the conclusions, are that
Premier Recycling applied for, and was refused by,
Sunnyvale, a license as a disposal service operator.
That is the act under color of law that Premier
Recycling alleges. Premier Recycling alleges that this
denial caused it harm. Premier Recycling alleges that
the act of denying issuance of a permit denied Premier
Recycling rights arising both from the Constitution and
from state statute13, PRC Section 40059. Petitioner’s
13

Section 1983 states that relief may be provided to “Every person
who, under color of any statute, ordinance, regulation, custom, or

18
FAC enumerates which civil rights were violated under
color of law.
II. THE COURT SHOULD SETTLE AN
IMPORTANT QUESTION OF LAW
CONCERNING THE APPLICATION OF STOP
THE BEACH
A. Stop the Beach and its Progeny
In Stop the Beach Renourishment, Inc. v. Fla. Dep’t
of Envtl. Prot., 560 U.S. 702 (2010), four justices of this
Court, led by Justice Scalia found that an action of a
state Supreme Court that changed established property
rights could violate the Fifth Amendment Takings
Clause. Two of the remaining four14 justices, Justices
Kennedy and Sotomayor, stated that it was
unnecessary to decide the issue but that in theory,
should a state Supreme Court eliminate an established
property right, there would be a constitutional
violation. Justice Kennedy wrote: “If a judicial decision,
as opposed to an act of the executive or legislature
eliminates an established property right, the judgment
could be satisfied as a deprivation of property without
due process of law and that the Due Process Clause, in
both its substantive and procedural aspects is a central
limitation upon the exercise of judicial power.” (op
p. 735)
Premier Recycling withdrew its Takings Clause
claim due to the precedent of PVM Redwood Co. v.
usage, of any State” is deprived of “any rights, privileges, or
immunities secured by the Constitution and laws….”
14

Justice Stevens did not take part in the opinion. See op. p. 733)

19
United States, 686 F.2d 1327 (9th Cir. 1982). Premier
Recycling seeks review of the dismissal of its
Substantive Due Process claim.
The Ninth Circuit did not reference Stop the Beach
in its opinion in this case. The District Court opinion
states that a claim such as in Stop the Beach would
“…appear to raise “difficult procedural concerns” such
as ‘abstention and Rooker-Feldman, notice and
immunity’ that would be inherent in asking a federal
court to review a state court decision.”
But Justice Scalia pointedly stated that RookerFeldman did not preclude Takings Clause
responsibility (op p.727-728)
Justice Scalia rebuts the District Court’s concern by
stating:
There is no textual justification for saying
that the existence or the scope of a State’s power
to expropriate private property without just
compensation varies according to the branch of
government effecting the expropriation. Nor
does common sense recommend such a principle.
It would be absurd to allow a State to do by
judicial decree what the Takings Clause forbids
it to do by legislative fiat.15

15

Justice Scalia’s assessment was that the Takings clause, unlike
the ex post facto clauses, “is not limited to a specific branch of
government.” (op. p. 713-714). Likewise the Fourteenth
Amendment Due Process clause is not limited to a specific branch
of government.

20
The District Court also stated (at *17) that the “The
plurality disagreed with Justice Kennedy’s substantive
due process approach”, This is true.
But the District Court also cites (at *17) Watson v.
Lake County, No. 5:09-cv-399, 2011 U.S. Dist. LEXIS
162352, 2011 WL 13175635, at *6 n.2 (M.D. Fla. Feb.
23, 2011) for the proposition that “Notwithstanding the
fact that [Justice Kennedy’s] opinion has no
precedential value, it was also roundly criticized by a
plurality of the other justices. This Court refused to
apply such an unsettled rule to this case.”
Watson says no such thing. The cited portion of
Watson states that “Plaintiffs do not allege that an
unconstitutional taking has occurred, and therefore the
Supreme Court’s analysis is inapplicable here.”
At least two Courts have declined to follow Stop the
Beach because it was a plurality opinion that has “no
precedential value.” See Shinnecock Indian Nation v.
United States, 112 Fed. Cl. 369, 385 (2013); Northern
Natural Gas Co. v. ONEOK Field Servs. Co., L.L.C.,
296 Kan. 906, 935 (2013).
One District Court within the Ninth Circuit
accepted as true that courts could make a “taking”, but
found that in the particular case the Nevada Supreme
Court had not done so. Thunder Props. v. Treadway,
2016 U.S. Dist. LEXIS 43818 at *9 (D NV 2016).
Likewise, one of the cases cited by the District Court
held that the possibility existed, but not in that
particular case. Weigel v. Maryland, 950 F. Supp. 2d
811, 837-838 (D MD 2013).

21
These Courts all disregarded the two Supreme
Court cases cited by Justice Scalia to support his
opinion in Stop the Beach, Pruneyard Shopping Ctr. v.
Robins, 447 U.S. 74, 76 (1980) and Webb’s Fabulous
Pharms. v. Beckwith, 449 U.S. 155 (1980).
Neither Pruneyard nor Webb’s was a plurality
decision. Webb’s was a unanimous decision. In
Pruneyard this Court considered the issue (op. p.79)
Before this Court, appellants contend that their
constitutionally established rights under the
Fourteenth Amendment to exclude appellees
from adverse use of appellants’ private property
cannot be denied by invocation of a state
constitutional provision or by judicial
reconstruction of a State’s laws of private
property. We postponed consideration of the
question of jurisdiction until the hearing of the
case on the merits.
The Pruneyard Court declined to find that the state
Supreme Court had ruled unconstitutionally. (op. p.88)
While Pruneyard was primarily a First Amendment
case, none of the justices disagreed with the premise
that a state Supreme Court might make an
unconstitutional ruling.
In Webb’s, a unanimous Court held that a Florida
county ordinance affirmed by the state Supreme Court
in fact violated the Takings Clause and reversed the
state Supreme Court decision. (op. p.164-65)
Premier Recycling of course was not a party to the
Waste Management of the Desert case being reviewed,
like the plaintiff was in Webb’s. Premier Recycling had

22
no standing to challenge the efficacy of that decision
until Premier Recycling had been injured by that
decision- here when Sunnyvale applied Waste
Management of the Desert to preclude Premier
Recycling from exercising a property right it enjoyed
before that case was decided. Premier Recycling did
not sue the state Supreme Court, nor did it have to.
According to Justice Scalia in Stop the Beach, “Where
the claimant was not a party to the original suit, he
would be able to challenge in federal court the taking
effected by the state supreme-court opinion to the same
extent that he would be able to challenge in federal
court a legislative or executive taking previously
approved by a state supreme-court opinion.”
B. How the California Supreme Court
impaired established property rights
In Justice Scalia’s formulation (op p.730) one
compares the property rights of a party before and after
the subject state Supreme Court decision. Premier
Recycling thus compares the legislature’s
comprehensive pro-recycling statutory scheme of 1989
against the state Supreme Court’s 1994 pro-garbage
interpretation. The state court did not even follow this
Court’s precedent or its own state law for the
interpretation of a statute.
C. The Established Property Rights Set Forth
in the 1989 Legislation
In 1989, California passed a landmark Integrated
Waste Management Act (“Act’) which completely recast
the relationship between recyclable materials/
commodities, and solid waste. The Legislature also

23
commanded that, upon the threat of $10,000/day fines,
each local government must reduce the amount of
material going to landfill by 50% by year 2000. See
PRC Section 41780. The legislature stated
unequivocally in PRC Section 40051 its policy goals:
In implementing this division, the board and
local agencies shall do both of the following:
(a) Promote the following waste management
practices in order of priority:
(1) Source reduction.
(2) Recycling and composting.
(3) Environmentally safe transformationi and
environmentally safe land disposal, at the
discretion of the city or county.
(b) Maximize the use of all feasible source
reduction, recycling, and composting options in
order to reduce the amount of solid waste that
must be disposed of by transformation and land
disposal…..
In other words, after first reducing the amount of
post-consumer discards, local agencies of the state
must first apply methods of resource recovery to the
post-consumer discards such as reuse, re-processing,
and composting. Unless and until these post-consumer
discards had passed through the available recovery
processes, the discards do not become solid waste,
which is the residue after this “order of priority” is
followed. In the industry parlance, “nothing is waste
until it is wasted.”
The policy behind this legislative direction that
landfills are environmentally harmful and that virgin

24
resources need to be conserved is also made clear in
PRC Section 40000 which states in part:
The Legislature hereby finds and declares all of
the following:
***
(b) Over 90 percent of California’s solid waste
currently is disposed of in landfills, some of
which pose a threat to groundwater, air
quality, and public health.
***
(e) The reduction, recycling, or reuse of solid
waste generated in the state will, in addition to
preserving landfill capacity in California, serve
to conserve water, energy, and other
natural resources within this state, and to
protect the state’s environment.” (emphasis
added)
Specifically as it relates to the activity of Premier
Recycling recovering recyclable commodities at
construction job sites, hauling the mixed C&D to its
permitted facility, then selling the sorted materials and
placing them back in commerce, the Legislature stated
in PRC Section 40001(e):
The Legislature further declares that market
development is the key to successful and
cost-effective implementation of
the…diversion requirements required pursuant
to Section 41780, and that the state must take a
leadership role, …in encouraging the expansion

25
of markets for recycled products by working
cooperatively with the public, private, and
nonprofit sectors. (emphasis added)
The Act defines “Recycle” in PRC Sec. 40180 as
… the process of collecting, sorting, cleansing,
treating, and reconstituting materials that
would otherwise become solid waste, and
returning them to the economic mainstream in
the form of raw material for new, reused, or
reconstituted products which meet the quality
standards necessary to be used in the
marketplace. “Recycling” does not include
transformation16, as defined in Section 40201 or
EMSW conversion.
If the verb “to recycle” means “collecting, sorting…,
and reconstituting materials that would otherwise
become solid waste”, then the results of that process
logically are “recyclable materials.” The key phrase in
Section 40180 is “that otherwise would become
solid waste.” This is consistent with the legislativelycommanded “order of priority” in PRC Section 40051
supra that recycling or composting options must be
used on materials before they become solid waste.
The Act defines “solid waste” in PRC Section
40191(a)17 to mean:
Except as provided in subdivision (b), “solid
waste” means all putrescible and nonputrescible
16
17

i.e. incineration

Section 40191(b) contains exclusions to this definition not
relevant to this case.

26
solid, semisolid, and liquid wastes, including
garbage, trash, refuse, paper, rubbish, ashes,
industrial wastes, demolition and construction
wastes, abandoned vehicles and parts thereof,
discarded home and industrial appliances,
dewatered, treated, or chemically fixed sewage
sludge which is not hazardous waste, manure,
vegetable or animal solid and semisolid wastes,
and other discarded solid and semisolid wastes.
Although the Waste Management of the Desert Court
interpreted this statutory definition, it never stated
that the definition was so ambiguous that it required
interpretation.
An exclusive franchise may be granted for the
collection of solid waste only if “the public health,
safety, and well-being so require.” PRC Section
40059(a)(2). Section 40059 implies that the
governmental agency, here Sunnyvale, awarding the
franchise, make some finding, in open session that the
public health, safety, and well-being to Sunnyvale’s
citizens require the grant of an exclusive franchise.
The Act does not provide for the franchising of
collection of recyclable materials, i.e. what Plaintiff
collects.
The record before the District Court does not reveal
any finding by Sunnyvale that the public health, safety,
and well-being require an exclusive franchise of solid
waste.

27
D. Compare the 1989 Legislation to the 1989
Supreme Court Interpretation
In 1994 the California Supreme Court was
confronted with where the line should be drawn
between recyclable materials and solid waste, having
assumed, without stating so, that the definition of
“solid waste” in PRC Section 40091 was ambiguous.
Waste Management of the Desert v. Palm Springs
Recycling Center, 7 Cal.4th 478 (1994).
The city of Rancho Mirage granted a franchise and
passed a conforming ordinance granting to Waste
Management of the Desert (WMD) the exclusive right
to “collect, receive, transport, segregate, recycle, and
dispose of residential and commercial refuse” of the
type customarily deposited by residents and
businesses in collection containers or areas for pickup
and disposal.
This ordinance is similar to the one challenged in
this case. Palm Springs Recycling Center was a
business that collected recyclable materials from
commercial accounts in Rancho Mirage. WMD and the
city sued to enjoin this activity.
The trial court issued a preliminary injunction and
then a Judgment in favor of WMD and City
permanently enjoining Palm Springs Recycling Center
“from placing bins or other receptacles within the City
for the purpose of collecting recyclable materials and
from collecting or removing recyclable materials from
within the City.” The trial court did not attempt to
distinguish recyclable materials from solid waste.

28
The Court of Appeal reversed at 20 Cal.App.4th
586 (1992), holding that the materials collected by
Palm Springs Recycling Center were not “discarded”
and therefore not within the definition of solid waste in
PRC Section 40191. The Court of Appeal also found
that the City’s actions were an unconstitutional
exercise of its police power- the issue presented in this
case.
In reversing the Court of Appeal, the state Supreme
Court also focused on the term “discarded” because the
definition of solid waste under Section 40191 has a
residual category of “other discarded” solid and
semisolid waste. The Court did not cite any legislative
history of the Act in interpreting the meaning of
“discard”. Nor did it cite any of the policies of the Act,
such as are quoted supra. The Court did not even follow
its own precedent for resolving statutory ambiguities
first by examining “…the language and purposes of the
statutory schemes as a whole.”Evangelatos v. Superior
Court, 44 Cal. 3d 1188, 1202 (1988).
The Court instead focused on its own, selective,
dictionary definition of “discard” and then legislated it
as the definition of solid waste. The more common
dictionary definition of “discard” is “to get rid of as
unwanted or useless.” The Ninth Circuit used this
same definition of “discard” (to get rid of as unwanted
or useless) in United States v. Millis, 621 F.3d 914, 917
(9th Cir. 2014) (purified water in a bottle was not
“garbage”). The Waste Management of the Desert court
used something else of the Court’s own making.

29
E. Rules Of Statutory Interpretation
The starting point for interpretation of a statute “is
the language of the statute itself. Absent a clearly
expressed legislative intention to the contrary, that
language must ordinarily be regarded as conclusive.”
Consumer Product Safety Comm’n v. GTE Sylvania,
Inc., 447 U.S. 102, 108 (1980).
“When a statute includes an explicit definition, (the
Court) must follow that definition, even if it varies from
that term’s ordinary meaning.” Stenberg v. Carhart,
530 U.S. 914, 942 (2000).
“(The) established rule of statutory interpretation
cannot be overcome by judicial speculation as to the
subjective intent of various legislators in enacting the
(legislation).” Bilsky v. Kappos, 561 U.S. 593, 608
(2010).
“In order to determine the scope of (a statute), (the
Court) must examine the statute’s text in light of
context, structure, and related statutory provisions.”
Exxon Mobil Corp. v. Alapattah Svcs., 545 U.S. 546,
558 (2005).
California state law
interpretation is similar.

governing

statutory

“It is well settled that the primary goal when
interpreting a statute or rule is to determine the
drafters’ intent in order to give effect to the rule’s
purpose. “‘The court begins with the language used.
[Citation.] The court attempts to give effect to the
usual, ordinary import of the language and to avoid
making any language mere surplusage. [Citations.]

30
“The words must be construed in context in light of the
nature and obvious purpose of the statute where they
appear. …” Harris v. Appellate Division of Superior
Court, 14 Cal.App. 5th 142, 148 (2017) citing Rossa v.
D.L. Falk Construction, Inc., 53 Cal. 4th 387, 397
(2014).
While California and Federal courts, including the
Harris Court, employ the dictionary at times in
construing ambiguous statutes, this Court cautioned
about dictionary use in Yates v. United States 135
S. Ct. 1074, 1081-1082 (2015)
Whether a statutory term is unambiguous,
however, does not turn solely on dictionary
definitions of its component words. Rather,
“[t]he plainness or ambiguity of statutory
language is determine [not only] by reference to
the language itself, [but as well by] the specific
context in which that language is used, and the
broader context of the statute as a whole.”
Robinson v. Shell Oil Co., 519 U.S. 337, 341, 117
S. Ct. 843, 136 L. Ed. 2d 808 (1997). See also
Deal v. United States, 508 U.S. 129, 132, 113
S. Ct. 1993, 124 L. Ed. 2d 44 (1993) (it is a
“fundamental principle of statutory construction
(and, indeed, of language itself) that the
meaning of a word cannot be determined in
isolation, but must be drawn from the context in
which it is used”). Ordinarily, a word’s usage
accords with its dictionary definition. In law as
in life, however, the same words, placed in
different contexts, sometimes mean different
things.

31
In this case, the Waste Management of the Desert
Court also added into these definitions an economic
component that results in a changed “policy” that is the
opposite of what the Legislature intended and the
rights that the Legislature created.
The Court in Waste Management of the Desert did
not refer to any of the language in the landmark
statutory scheme that declares its purpose, such as
PRC Sections 40001, 40004, and 40180. The Court did
not mention the mandated hierarchy of materials
handling stated in PRC Section 40180. The Court did
not cite the definition of “recycle” in PRC Section
40051.The Court explicitly did not consider any
constitutional issue in its construction of the terms
“solid waste” and “discard”. (op. at p. 490) Thus, the
Court did not follow, or even observe, the statutory
rules of construction endorsed by either this Court or
itself. The stated policies of the statutes considered by
the Court18 explicitly state a different purpose than the
Court’s own speculative interpretation.
By enacting PRC Section 40000 et seq., the state
Legislature decided and declared that there was too
much garbage, i.e. the garbage that historically has
been regulated by local government.19
18

See Public Resources Code Sections 40000-40001, 40004, and
40180.
19

Although this Court has held that “solid waste” is an article of
commerce for purposes of applying the Commerce Clause, it has
never defined what “solid waste” means for this purpose. See
Philadelphia v. New Jersey (1978) 437 US 617, 622-623. Writing in
dissent, Justice (later Chief Justice) Rehnquist expressed the view
that garbage was the equivalent of “germ-infected rags or diseased

32
To counteract the environmental harm of landfills
and incineration and the wasting of virgin resources
declared by the Legislature, the state Legislature made
clear that recycling was preferred over landfilling (PRC
Sec. 40000(e) and that the act of recycling was defined
to be (PRC Sec. 40180)
… the process of collecting, sorting, cleansing,
treating, and reconstituting materials that
would otherwise become solid waste, and
returning them to the economic mainstream in
the form of raw material for new, reused, or
reconstituted products…. (emphasis added)
Instead of focusing on whether “discarded” material
was in fact recycled, and entitled to statutory
preference, the Court in Waste Management of the
Desert added an economic component to the meaning of
discarding and recycling, that the dividing line of waste
v. recyclable was whether or not someone bought it
from the owner.
The Court revealed its focus on garbage, not
recycling. First, the Court stated, (at p. 485)
The Act’s very title, the California Integrated
Waste Management Act of 1989, and its
repeated references to “solid waste,” “solid waste
handling,” “recycling of solid wastes,” and the
like strongly indicate the Legislature was
concerned with just what it said--waste--and

meat”, citing Asbell v. Kansas, 209 U.S. 251 (1908), which upheld
a Kansas statute banning the import of cattle unless first
inspected at the border.

33
not with materials of economic value to
their owner. (emphasis added)
That is not a rational construction of what the
Legislature said and the Court cites no such language
of intent. The repeated references in the legislation to
“waste” are in the context of declaring it to be a noxious
substance that must be reduced and recycled. PRC
Section 40000(d) and (e). The legislation expressly
does concern “materials of economic value to their
owner.” (PRC Secs. 40001(e), 40180).
The entire point of the 1989 legislation was to
create a hierarchy of materials handling so that,
before they become “waste”, discarded (i.e. unwanted
by the owner/generator) materials are first processed
for reuse, recycling, and composting to encourage
market development of the businesses performing the
reclamation of materials. The Legislature determined
that recycling involved processing materials “that
otherwise would become solid waste” and that the
Legislature intended to put these reconstituted
products back into use “in the market.” PRC Section
40180.
The Court then opined that (at p.485)
The commonly understood meaning of “waste” is
something discarded “as worthless or useless.”
(Amer. Heritage Dict. (1985) p. 1365, col. 1; 19
Oxford English Dict. (2d ed. 1989), p. 958, col. 1.)
The Court continued to explain its definition in
economic terms (p. 485).

34
“If the owner sells his property--that is, receives
value for it--the property cannot be said to be worthless
or useless in an economic sense and is thus not waste
from the owner’s perspective.”
But the American Heritage Dictionary online
edition today offers two relevant definitions of “waste”,
neither of which are what the Court used20. Today’s
definition is either: a) “An unusable or unwanted
substance or material…” or b) “garbage; trash”.
According to this same dictionary, “garbage” is
synonymous with “trash” and “trash” means, “a.
Worthless or discarded material or objects”
But the Legislature never said that waste or value
is judged from the owner’s perspective. The mixed C&D
collected by Premier Recycling is not worthless or
useless or “unwanted”; it is sorted and then sold to
manufacturers of reconstituted products, exactly what
the legislation was designed to promote. The
Legislature did not state where, in the post-consumer
supply chain, the discards must realize “value”. The
legislation commands that post-consumer discards be
put through reclamation processes before the discards
are deemed “waste”. At the end of this process, when
no one wants the discard, and its end destination is
the landfill, only then does the material becomes
“waste”, as the Legislature intended that term to mean.

20

Illustrating a problem of using dictionary definitions; the edition
cited by the Court is no longer in print or readily available.

35
What Premier Recycling collects is not “worthless”,
or “useless”, or “unwanted”. It sells the sorted C&D to
a buyer who values, uses, and wants it. The mixed
C&D has a value to the owner/generator that hires
Premier Recycling to collect it. Creating a test of
whether the owner “sells” the discards is not what the
Legislature intended and does not reflect marketplace
reality. The evidence may show that Premier Recycling
charges a lower collection fee than the franchised
hauler because Petitioner’s collection costs are offset by
the sale of the sorted materials. This gives “value” to
the owner/generator. The mixed C&D has value at the
instant Premier Recycling collects it and never loses
that value.
The Court continued its interpretation of the
legislation by stating, “Discard” means “to throw
away.”. (p.468).
Today’s Merriam-Webster online definition21 of the
term adds the phrase, “…to get rid of something as
worthless or useless” Logically, nothing becomes either
solid waste or recyclable until the owner no longer
wants it. If unwanted material goes to a landfill it is
wasted and waste is disfavored as a matter of policy; if
material is recycled it is favored by policy and must
mean that the material has worth to someone postconsumer.
But the real rationale for the Court’s decision may
be inferred from its criticism of the Court of Appeal and
its reasoning to reverse the court of Appeal:

21

https://www.merriam-webster.com/dictionary/discard

36
“The Court of Appeal also relied heavily on
this statutory definition of “waste” in concluding
that “only discarded waste materials become
solid waste subject to ‘handling’ “ under the Act.
Plaintiffs22 object to this approach, contending it
would eviscerate the Act because owners could
discard all their property--recyclable and
otherwise--as they see fit and thereby render an
exclusive solid waste handling franchise a
nullity as a practical matter. In other words, the
Court of Appeal opinion might be read to mean
that a property owner could decide unilaterally
with whom he will discard his waste. If three
competing waste handlers (the exclusive
franchisee and two others) placed their
respective receptacles at the owner’s
curbside, he could put his waste into
whichever container he chooses. Perhaps
the Court of Appeal did not intend that result,
but its opinion might be read as suggesting as
much and, if so, we believe this result would be
inconsistent with the Act’s apparent intent. If,
however, the concept of being discarded is
properly understood, this perceived problem is
easily avoided.” (emphasis added)
The boldfaced portion of this “parade of horribles”
makes no mention of recyclable materials, it discusses
“waste.” “Waste” is something that results from a
failure to reuse, recycle, or compost the material. A
recycled material is not waste. To be recycled,
22

Plaintiffs in the case were the franchised garbage hauler and the
public entities involved.

37
something must be “recyclable”. When the Court is
concerned about “competing waste collectors” it must
not mean the collection of recyclable materials, unless
the Court actually is equating the two things, itself at
variance with the legislative intent. That might have
been the regulatory intent in 190523 but not how it
unconstitutionally “changed course” in 1989.
The 1989 legislative intent is to reduce waste, not
eliminate competition for the materials that the owner
does not want. And the Legislature provided discretion
to local agencies to grant exclusive “waste” collection
franchises only if the public health and safety so
require; exactly the discretion that Sunnyvale did not
exercise in this case. Sunnyvale has unchallenged
statutory power to have only one “waste” collector and
avoid the Court’s concern that multiple waste collectors
might undermine a city’s power to want exclusivity in
its waste collection system. But Sunnyvale did not
exercise this power for any reason that the Legislature
intended.
The 1989 legislation prefers that materials be
recycled. The legislation does not dictate who must
collect the recyclable material. So if there are “multiple
collectors of recyclable material” within a jurisdiction,
this is market capitalism of the type the legislation
states that it wanted to promote. PRC Section 40001(e).
23

Both this Court’s and the state court’s jurisprudence on the need
for garbage franchising is from 1905, not long after the germ
theory of disease was accepted and the United States still suffered
plague and cholera outbreaks. See California Reduction Co. v.
Sanitary Reduction Works, 126 F. 29 (9th Cir. 1903) cert granted
199 U.S. 306 (1905); In re Zhizhuzza 147 Cal. 328, 329 (1905).

38
What the 1994 Waste Management of the Desert
Court may have intended is a reflection of judicial
history recognizing that if waste is not handled safely
and collected regularly it can become a health hazard,
a view that Premier Recycling shares. The Court may
have thought that allowing multiple “waste” collectors
within a jurisdiction might impair a local government’s
obligations to regulate safe waste collection and
disposal, a view which Premier Recycling does not
contest.
The 1994 “change of course” by the Court from the
1989 legislation is its imposition of an economic
component of value to the owner into a definition of
“waste”, which the legislation views as a residual
category of materials, left over after all reclamation
options are exhausted. The 1989 legislation
contemplates this undeniable truth; if post-consumer
material goes to a landfill or to an incinerator, it is
“waste(d)”; if post-consumer material is reclaimed and
put back into the stream of commerce (no matter who
in the supply chain values it) then it was recycled,
which is the intent of the legislation.
CONCLUSION
Petitioner’s action was designed to test the
constitutional limit of local regulation of the fee for
service collection of nonhazardous recyclable material
like wood, metal, and cardboard. Petitioner alleged its
claim with as much factual detail as possible to comply
with the notice pleading requirements of FRCP 8.
Without intervention by this Court, there is no hope
in California to level the economic playing field for

39
collectors of recyclable materials that are meeting
California’s policy goals.24
Respectfully submitted,
John Douglas Moore
Counsel of Record
1999 Harrison St., 18th Fl.
Oakland, CA 94612
(510) 893-6300
jmoore@recyclelaw.com
Counsel for Petitioner

24

Garbage franchises traditionally have reimbursed the franchisee
for all of its costs plus added profit. The franchisee is paid by
ratepayers. Sometimes the franchisee will lease land and
equipment from an affiliated entity and pass on these “costs” at far
above market rates. A savvy franchisee gifted with this type of
contract will invest some of its profit back into re-election
campaigns of the elected officials who voted to award it. Likewise
the garbage collection lobby effectively blocks change at the state
level. This system would be tested factually in court should this
Petition be granted.

APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(February 22, 2019) . . . . . . . . . . . App. 1
Appendix B Order Granting Motion to Dismiss the
First Amended Complaint in the
United States District Court Northern
District of California, San Jose Division
(November 9, 2017). . . . . . . . . . . . App. 5
Appendix C Order Granting City of Sunnyvale’s
Motion to Dismiss in the United
States District Court Northern
District of California, San Jose Division
(June 16, 2017) . . . . . . . . . . . . . . App. 36
Appendix D Cal. Pub. Res. Code. . . . . . . . . . . App. 79
§ 40000-40004 . . . . . . . . . . . . App. 79
§ 40050-40063 . . . . . . . . . . . . App. 84
§ 40100-40201 . . . . . . . . . . . App. 104
§ 41780-41786 . . . . . . . . . . . App. 126
Appendix E First
Amended
Complaint for
Declaratory Judgment and Injunctive
Relief (28 U.S.C. Section 2201) in the
United States District Court Northern
District of California, San Jose Division
(July 16, 2017). . . . . . . . . . . . . . App. 152

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-17459
D.C. No. 17-cv-00956-LHK-HRL
[Filed February 22, 2019]
________________________________
JONNA CORPORATION, DBA
)
Premier Recycling Company
)
)
Plaintiff-Appellant, )
)
v.
)
)
CITY OF SUNNYVALE,
)
)
Defendant-Appellee. )
________________________________ )
MEMORANDUM*
Appeal from the United States District Court
for the Northern District of California
Lucy H. Koh, District Judge, Presiding

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Submitted February 15, 2019**
San Francisco, California
Before: SCHROEDER and RAWLINSON, Circuit
Judges, and LASNIK,*** District Judge.
Jonna Corporation, dba Premier Recycling
Company (“Premier”), appeals the dismissal of its First
Amended Complaint (“FAC”) on November 9, 2017. We
have jurisdiction under 8 U.S.C. § 1291, and we affirm.
We review de novo a dismissal of a complaint, and
we review for abuse of discretion a denial of leave to
amend a complaint. United States ex rel. Anita Silingo
v. WellPoint, Inc., 904 F.3d 667, 676 (9th Cir. 2018);
(citing United States v. Corinthian Colleges, 655 F.3d
984, 991, 995 (9th Cir. 2011)).
The City of Sunnyvale (“the City”) has an exclusive
franchise arrangement for the collection of waste and
recycling materials with Bay Counties Waste Services.
The California Supreme Court held in 1994 that cities
were authorized to grant exclusive franchises of this
sort for “solid waste.” Waste Mgmt. of the Desert, Inc.
v. Palm Springs Recycling Ctr., Inc., 869 P.2d 440, 442
(Cal. 1994) (in bank). In its FAC, Premier challenged
the City’s exclusive franchise, alleging a declaratory
relief action premised on the Takings Clause of the
United States Constitution and the Fourteenth

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

***

The Honorable Robert S. Lasnik, United States District Judge
for the Western District of Washington, sitting by designation.

App. 3
Amendment’s guarantee of substantive due process. In
its opposition to the City’s motion to dismiss, it
abandoned its Takings Clause claim, and clarified that
its due process claim was based not on any actions by
the City, but on the California Supreme Court’s
definition of “waste,” which includes within its ambit
the construction and demolition debris that Premier
collects. Waste Mgmt. of the Desert, Inc., 869 P.2d at
445. To the extent that Premier now asserts a
substantive due process violation by the City, those
claims have been waived. Solis v. Matheson, 563 F.3d
425, 437 (9th Cir. 2009).
As Premier concedes, we must apply rational basis
review to its claims. Witt v. Dep’t of Air Force, 527 F.3d
806, 817 (9th Cir. 2008). Under this standard, “only
egregious official conduct can be said to be arbitrary in
the constitutional sense: it must amount to an abuse of
power lacking any reasonable justification in the
service of a legitimate governmental objective.” Shanks
v. Dressel, 540 F.3d 1082, 1088 (9th Cir. 2008) (quoting
Cty. of Sacramento v. Lewis, 523 U.S. 833, 846 (1998))
(internal quotation marks omitted). Even assuming, as
the district court did, that Premier’s substantive due
process claim based on a state court’s interpretation of
state law is sustainable in a federal court, Premier does
not satisfy this “exceedingly high burden.” Id. (quoting
Matsuda v. City & County of Honolulu, 512 F.3d 1148,
1156 (9th Cir. 2008)). It expressed disagreement with
the California Supreme Court’s definition of “waste,”
Waste Mgmt. of the Desert, Inc., 869 P.2d at 444, but
it pleaded no facts to support its allegations that the
decision was “constitutionally arbitrary.” Shanks, 540
F.3d at 1089. The district court did not err in

App. 4
dismissing the FAC. Nor did it abuse its discretion in
denying leave to amend. See Carvalho v. Equifax Info.
Servs., LLC, 629 F.3d 876, 892-93 (9th Cir. 2010).
AFFIRMED.

App. 5

APPENDIX B
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
Case No. 17-CV-00956-LHK
[Filed November 9, 2017]
_____________________________
JONNA CORPORATION,
)
)
Plaintiff,
)
)
v.
)
)
CITY OF SUNNYVALE, CA,
)
)
Defendant.
)
_____________________________ )
ORDER GRANTING MOTION TO DISMISS
THE FIRST AMENDED COMPLAINT
Re: Dkt. No. 34
Plaintiff Jonna Corporation (“Plaintiff”), doing
business as Premier Recycling, sues Defendant City of
Sunnyvale (“the City”) because the City refused to
provide Plaintiff a license to collect construction and
demolition debris in the City. Before the Court is the
City’s Motion to Dismiss the First Amended Complaint.
ECF No. 34 (“Mot.”). Having considered the
submissions of the parties, the relevant law, and the

App. 6
record in this case, the Court GRANTS the City’s
Motion to Dismiss the First Amended Complaint.
I. BACKGROUND
A. Factual Background
In 1991, the City entered into an exclusive franchise
agreement for the collection of solid waste in the City
(“Exclusive Franchise Agreement”) with Bay Counties
Waste Services, Inc. (“Bay Counties”), formerly
Specialty Solid Waste & Recycling, Inc., for a term of
ten years. First Amended Complaint (“FAC”), ECF No.
33 at 9; ECF No. 35-1 at 16; Sunnyvale Ordinance No.
2771-04.1 The Exclusive Franchise Agreement has been
amended and extended a number of times, and now
extends through at least June 30, 2021. Sunnyvale
Ordinance No. 2949-11. Under the Exclusive Franchise
Agreement, Bay Counties is the sole collector of solid
waste, including recyclable materials and construction
debris, in the City. FAC at 9. The Sunnyvale Municipal
Code forbids any party from collecting solid waste for
a fee without a franchise or license. Sunnyvale Mun.
Code § 8.16.150 (“It is unlawful for any person to
engage in the business of collecting solid waste within
the city, or to haul the same through any street or
public right-of-way in the city, unless such person has
been granted a franchise or license to do so by the
city.”). Bay Counties is the only entity that has been
awarded such a franchise or license. FAC at 9.
1

In this section, the Court refers to documents of which the City
requests judicial notice. In Section III below, the Court discusses
and grants judicial notice of all of these documents except those to
which Plaintiff objected.

App. 7
Plaintiff is a California corporation based in Santa
Clara County that “is in the business of collecting
discarded wood, metal, asphalt, concrete, and drywall
from commercial construction and demolition sites”
(“construction and demolition debris”). FAC ¶¶ 3, 5. On
October 19, 2016, Plaintiff applied to the City for a
franchise or license to collect construction and
demolition debris under Sunnyvale Municipal Code
§ 8.16.090. Id. ¶ 17; see also Sunnyvale Mun. Code
§ 8.16.090 (“The city council shall provide for the
collection and disposal of solid waste and recyclable
materials generated from residences within the city by
the issuance of a franchise or license, or franchises and
licenses, to disposal service operators.”). On November
7, 2016, the City denied Plaintiff’s application for a
franchise or license. FAC ¶ 18. The City’s denial letter
stated that “[w]hile the Sunnyvale Municipal Code does
allow for the possibility of the City issuing multiple
license holders/franchisees, the City’s current policy is
to issue an exclusive franchise to a single disposal
service operator. This franchise extends to collection of
all solid waste, including [construction and demolition]
material, as described in more detail in Chapter 8.16 of
the Code.” Id.
B. Procedural History
On February 24, 2017, Plaintiff filed the instant
suit. See ECF No. 1. Plaintiff asserted two causes of
action: declaratory relief and mandamus. The
declaratory relief cause of action was based on the
following theories: (1) violation of the Takings Clause
of the U.S. Constitution; (2) violation of the guarantee
of substantive due process of Fifth and Fourteenth

App. 8
Amendments to the U.S. Constitution; (3) violation of
the Equal Protection Clause in the Fourteenth
Amendment of the U.S. Constitution and Article I,
Section 7 of the California Constitution; (4) violation of
the Commerce Clause of the U.S. Constitution; (5) the
City’s use of the wrong definition of “solid waste” under
California law; and (6) violation of California Public
Resources Code § 40059. Id. ¶¶ 26-31. Plaintiff’s
mandamus cause of action stated that the City had a
mandatory duty to issue a franchise or license to
Plaintiff under Sunnyvale Municipal Code § 8.16.090,
and thus the Court should compel the issuance of such
a license. Id. ¶¶ 32-34.
On March 4, 2017, the City filed a motion to dismiss
the complaint. ECF No. 16. On April 18, 2017, Plaintiff
filed an opposition. ECF No. 18. On April 25, 2017, the
City filed a reply. ECF No. 19. On June 16, 2017, the
Court granted the City’s motion to dismiss after finding
that Plaintiff had failed to satisfy the takings
exhaustion requirement and had failed to allege that
the City’s exclusive franchise policy was arbitrary and
capricious, as substantive due process would require.
ECF No. 29 at 12-16. The Court also dismissed
Plaintiff’s equal protection theory based on Plaintiff’s
failure to plead that it was similarly situated to any
other group that had been awarded a franchise or
license and on Plaintiff’s failure to adequately allege
that the City’s exclusive franchise policy was irrational.
Id. at 16-20. The Court dismissed Plaintiff’s dormant
Commerce Clause theory because Plaintiff failed to
adequately plead that the exclusive franchise policy
discriminated against out-of-state interests or that it
burdened interstate commerce. Id. at 25-26. Because

App. 9
the Court had dismissed all of the bases for declaratory
relief over which it had original jurisdiction, the Court
declined to exercise supplemental jurisdiction over
Plaintiff’s remaining state law theories for Plaintiff’s
declaratory relief cause of action and Plaintiff’s
mandamus cause of action, which was based on state
law. Id. at 26-29.
The Court provided Plaintiff leave to amend its
complaint within thirty days. ECF No. 29 at 29. The
Court cautioned that “[f]ailure to file an amended
complaint within 30 days or failure to cure the
deficiencies identified in this Order will result in
dismissal with prejudice of the claims dismissed in this
Order.” Id.
Plaintiff filed its First Amended Complaint on July
16, 2017. In the FAC, Plaintiff alleged a declaratory
relief cause of action premised on the Takings Clause
of the U.S. Constitution and the Fourteenth
Amendment’s guarantee of substantive due process.
Plaintiff abandoned its Equal Protection Clause and
Commerce Clause theories and also abandoned the
mandamus cause of action.
The City filed a motion to dismiss on July 28, 2017.
See Mot. The City also filed a request for judicial
notice. ECF No. 35 (“RJN”). On August 11, 2017,
Plaintiff filed an opposition and objections to the City’s
RJN. ECF No. 37 (“Opp.”). In its opposition, Plaintiff
withdrew its Takings Clause theory. Opp. at 2. The
City replied on August 18, 2017. ECF No. 38 (“Reply”).

App. 10
II. LEGAL STANDARD
A. Motion to Dismiss Pursuant to Federal Rule of
Civil Procedure 12(b)(6)
Pursuant to Federal Rule of Civil Procedure
12(b)(6), a defendant may move to dismiss an action for
failure to allege “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007). “A claim has facial
plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.
The plausibility standard is not akin to a ‘probability
requirement,’ but it asks for more than a sheer
possibility that a defendant has acted unlawfully.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (internal
citations omitted). For purposes of ruling on a Rule
12(b)(6) motion, the Court “accept[s] factual allegations
in the complaint as true and construe[s] the pleadings
in the light most favorable to the nonmoving party.”
Manzarek v. St. Paul Fire & Marine Ins. Co., 519 F.3d
1025, 1031 (9th Cir. 2008).
However, a court need not accept as true allegations
contradicted by judicially noticeable facts, Shwarz v.
United States, 234 F.3d 428, 435 (9th Cir. 2000), and
the “[C]ourt may look beyond the plaintiff’s complaint
to matters of public record” without converting the
Rule 12(b)(6) motion into one for summary judgment,
Shaw v. Hahn, 56 F.3d 1128, 1129 n.1 (9th Cir. 1995).
Nor is the Court required to assume the truth of legal
conclusions merely because they are cast in the form of
factual allegations.” Fayer v. Vaughn, 649 F.3d 1061,
1064 (9th Cir. 2011) (per curiam) (quoting W. Mining

App. 11
Council v. Watt, 643 F.2d 618, 624 (9th Cir. 1981)).
Mere “conclusory allegations of law and unwarranted
inferences are insufficient to defeat a motion to
dismiss.” Adams v. Johnson, 355 F.3d 1179, 1183 (9th
Cir. 2004); accord Iqbal, 556 U.S. at 678. Furthermore,
“‘a plaintiff may plead [him]self out of court’” if he
“plead[s] facts which establish that he cannot prevail
on his . . . claim.” Weisbuch v. County of Los Angeles,
119 F.3d 778, 783 n.1 (9th Cir. 1997) (quoting Warzon
v. Drew, 60 F.3d 1234, 1239 (7th Cir. 1995)).
B. Leave to Amend
Under Rule 15(a) of the Federal Rules of Civil
Procedure, leave to amend “shall be freely granted
when justice so requires,” bearing in mind “the
underlying purpose of Rule 15 to facilitate decision on
the merits, rather than on the pleadings or
technicalities.” Lopez v. Smith, 203 F.3d 1122, 1127
(9th Cir. 2000) (en banc) (ellipses omitted). However, a
court “may exercise its discretion to deny leave to
amend due to ‘undue delay, bad faith or dilatory motive
on part of the movant, repeated failure to cure
deficiencies by amendments previously allowed, undue
prejudice to the opposing party . . . , [and] futility of
amendment.’” Carvalho v. Equifax Info. Servs., LLC,
629 F.3d 876, 892-93 (9th Cir. 2010) (alterations in
original) (quoting Foman v. Davis, 371 U.S. 178, 182
(1962)).
III. REQUEST FOR JUDICIAL NOTICE
The City has requested judicial notice of a range of
legislative enactments including sections of the
Sunnyvale Municipal Code, public record documents,

App. 12
and correspondence. ECF No. 35. The Court may take
judicial notice of matters that are either “generally
known within the trial court’s territorial jurisdiction”
or “can be accurately and readily determined from
sources whose accuracy cannot reasonably be
questioned.” Fed. R. Evid. 201(b). Public records,
including judgments and other publicly filed
documents, are proper subjects of judicial notice. See,
e.g., United States v. Black, 482 F.3d 1035, 1041 (9th
Cir. 2007). However, to the extent any facts in
documents subject to judicial notice are subject to
reasonable dispute, the Court will not take judicial
notice of those facts. See Lee v. City of Los Angeles, 250
F.3d 668, 689 (9th Cir. 2001), overruled on other
grounds by Galbraith v. County of Santa Clara, 307
F.3d 1119 (9th Cir. 2002).
With the exception of the November 7, 2016 letter,
the City previously requested judicial notice of these
documents in connection with its first round motion to
dismiss. ECF No. 17 at 1-3. Plaintiff did not object to
the City’s request for judicial notice at that time. See
ECF No. 18. In its Order on June 16, 2017, the Court
granted the City’s request for judicial notice of these
documents. ECF No. 29 at 6-8. In its June 16, 2017
Order, the Court concluded that these “documents are
legislative enactments, ordinances, or regulations that
are subject to judicial notice,” or “are of public record,
and thus are documents for which judicial notice is
appropriate.” ECF No. 29 at 7 (citing Long Beach Area
Peace Network v. City of Long Beach, 574 F.3d 1011,
1026 (9th Cir. 2009) (taking judicial notice of a local
ordinance, a local regulation, and a local municipal
code); Abdullah v. U.S. Sec. Assocs., Inc., 731 F.3d 952,

App. 13
959 n.10 (9th Cir. 2013) (taking judicial notice of
opinion letters of California Division of Labor
Standards Enforcement); and Law v. City of Berkeley,
No. 15-cv-05343-JSC, 2016 WL 4191645, at *4 (N.D.
Cal. Aug. 9, 2016) (taking judicial notice of city council
minutes)).
The November 7, 2016 letter, in which the City
denied Plaintiff’s application for a license to collect
construction and demolition debris, was referenced on
page 9 of the FAC. See FAC at 9; RJN Exh. J. A court
may consider documents that were referenced but not
attached to the complaint for purposes of deciding a
Rule 12(b)(6) motion. Davis v. HSBC Bank Nev., NS.,
69 1 F.3d 1152, 1159-1160 (9th Cir. 2012); Branch v.
Tunnell, 14 F.3d 449,454 (9th Cir. 1994).
Plaintiff now objects to the City’s request for judicial
notice of two documents: the January 11, 2005
Extended and Second Restated Agreement (“the
Agreement”), and the February 15, 2011 Staff Report
(“the Report”). Opp. at 15. Plaintiff argues that the
Court cannot take judicial notice of the recitals in the
Agreement because the facts in the recitals are
themselves disputed. Opp. at 16. It appears to make a
similar argument as to the Report. Accordingly, the
Court has not considered the Agreement or the Report
in ruling on the instant motion. The City’s request for
judicial notice of the other documents is GRANTED.
IV. DISCUSSION
In its Opposition to the instant motion, Plaintiff
stated, “In light of PVM Redwood Co. v. United States,
686 F.2d 1327 (9th Cir. 1982), which had not been cited

App. 14
previously by the City or the Court, and of which
[Plaintiff] was unaware, [Plaintiff] must withdraw its
Takings Clause claim under [Federal Rule of Civil
Procedure] 11.” Opp. at 1-2. Plaintiff further stated
that “[Plaintiff] has not renewed, and has therefore
withdrawn, its previous claims under the Equal
Protection Clause, the Commerce Clause, and its
supplemental mandamus claim.” Id. at 2. Thus,
Plaintiff stated that its Opposition “tries to clarify
[Plaintiff]’s theory of this case on its substantive due
process claim and related supplemental state law
claim.” Id. Plaintiff’s FAC consists of one declaratory
relief cause of action. The Court addresses Plaintiff’s
substantive due process theory, then Plaintiff’s state
law theories, of Plaintiff’s declaratory relief cause of
action.
A. Substantive Due Process
Because Plaintiff’s theory of its declaratory relief
cause of action has shifted between the original
complaint and the FAC and again between the FAC
and Plaintiff’s Opposition, the Court first describes
Plaintiff’s substantive due process theory of its
declaratory relief cause of action. The Court then
analyzes Plaintiff’s cause of action.
1. Plaintiff’s Theory of the Alleged
Substantive Due Process Violation
Plaintiff’s substantive due process theory hinges on
the California Supreme Court’s interpretation of the
California Integrated Waste Management Act of 1989
(“the Act”). Accordingly, the Court first explains the
statutory and legal background of Plaintiff’s argument.

App. 15
The Act permits cities to grant exclusive franchises for
solid waste handling services. CAL. PUB. RES. CODE
§ 40059(a)(2). “Solid waste handling” means “the
collection, transportation, storage, transfer, or
processing of solid wastes.” Id. § 40195. As relevant
here, the Act defines “solid waste” to include “all
putrescible and nonputrescible solid, semisolid, and
liquid wastes, including garbage, trash, refuse, paper,
rubbish, ashes, industrial wastes, [and] demolition and
construction wastes.” Id. § 40191(a). The Act does not
separately define “waste,” which is used in the broader
definition of “solid waste.”
In 1994, the California Supreme Court interpreted
the term “waste” as used in the Act in Waste
Management of the Desert, Inc. v. Palm Springs
Recycling Center, Inc., 869 P.2d 440 (Cal. 1994). In
Waste Management, the city of Rancho Mirage had
awarded the plaintiff an exclusive franchise for
collecting “waste matter, garbage, and rubbish.” Id. at
441. The plaintiff sought an order enjoining the
defendant from collecting recyclable materials from
commercial customers. Id. The question that the
California Supreme Court addressed was “whether
property with a market value to its owner—for
example, a recyclable material—is ‘waste’ within the
scope of the Act and its exclusive franchise provision.”
Id. at 442. The California Supreme Court held that
such “property is not ‘waste’ until it is discarded.” Id.
“This
construction
encompasses
two
concepts—value and discarding—that in this context
must be considered in relation to one another.” Id. With
regard to value, the California Supreme Court

App. 16
reasoned that “[t]he commonly understood meaning of
‘waste’ is something discarded ‘as worthless or
useless.’” Id. at 443 (quoting Am. Heritage Dict. (1985);
Oxford English Dict. (2d ed. 1989)). The California
Supreme Court went on:
If the owner sells his property—that is, receives
value for it—the property cannot be said to be
worthless or useless in an economic sense and is
thus not waste from the owner’s perspective.
Conversely, if the owner voluntarily disposes of
the property without receiving compensation or
other consideration in exchange—that is, throws
it away—the obvious conclusion is that the
property has no economic value to the owner.
Id. With regard to discarding, the California Supreme
Court distinguished “discarding,” which it defined as
“throw[ing] away,” from “disposing,” which it defined as
“transfer[ring] or part[ing] with, as by giving or
selling.” Id. (quoting Am. Heritage Dict. (2d college ed.
1982)). The California Supreme Court then illustrated
its interpretation of “waste” by way of example:
Assume that, as in this case, there is an
exclusive franchise. A property owner throws his
recyclables into the receptacle provided by the
franchisee and does so without receiving
compensation. He has plainly discarded his
property, and it is thus waste under the Act.
Could he instead throw the property into the bin
of a competing waste hauler without receiving
compensation? No, because by disposing of the
property without receiving compensation, he has
discarded the property and thereby rendered it

App. 17
waste that is subject to the exclusive franchise.
If, however, he is paid for the material by the
franchisee’s competitor, the owner has sold the
property and thus has not discarded it, so it has
not become waste.
Id. at 444.
In the instant case, Plaintiff “charges a service fee
for the collection of mixed [construction and demolition
debris] in debris boxes and roll-offs, to offset its costs of
the labor and transportation to bring the [construction
and demolition debris] from a construction site” to
Plaintiff’s materials recovery facility in San Jose. FAC
¶ 8. Thus, under the California Supreme Court’s
opinion in Waste Management, the construction and
demolition debris that Plaintiff seeks a license to
collect is solid waste, notwithstanding the fact that the
debris is recyclable, because Plaintiff does not buy the
debris from its owners. Accordingly, Plaintiff’s business
falls within the scope of Bay Counties’ exclusive
franchise, and so Sunnyvale denied Plaintiff’s license
application. In Plaintiff’s view, this is the wrong result,
both as a matter of policy and as a matter of statutory
interpretation. See Opp. at 3, 13; FAC ¶¶ 5-16, 19-24.
Plaintiff tries to frame this dispute as a constitutional
issue.
As Plaintiff clearly states in its Opposition, its
substantive due process theory focuses on the action of
the California Supreme Court in deciding Waste
Management. Plaintiff does not “dispute that a
California city may grant an exclusive franchise for the
collection of solid waste. [Plaintiff] does not assert that
Sunnyvale acted unconstitutionally in enacting its solid

App. 18
waste ordinance.” Opp. at 2 (emphasis removed).
Plaintiff “does not contest that Sunnyvale correctly
interprets how the California Supreme Court
interpreted the statutory definition of ‘solid waste’ to
include discarded material that one pays another to
dispose.” Id. at 2-3 (emphasis removed). Rather,
Plaintiff contends that “the California Supreme Court
acted unconstitutionally when it adopted th[e]
interpretation of solid waste [in Waste Management] as
applied to Sunnyvale’s denial of a permit.” Opp. at 3.
Indeed, Plaintiff plainly states that it was the “judicial
branch [that] made the egregious decision”
underpinning its substantive due process theory. Id. at
4; see also id. at 17 (“The [Waste Management] decision
is an irrational misinterpretation of the state statutory
definition of ‘solid waste’ as well as the intent of the
Integrated Waste Management Act.”). The heart of
Plaintiff’s argument appears to be that there is no
rational basis for the California Supreme Court to
adopt a test that turned, at least in part, on whether
the owner of the material pays or is paid for disposal of
the material. See id. at 13.
2. Analysis
a. Bringing a Substantive Due Process
Claim Based on a State Court Decision
Outside the context of habeas corpus proceedings,
there appears to be little precedent for the type of claim
that Plaintiff brings here: a substantive due process
claim brought in the lower federal courts based on a
state supreme court interpretation of state law. The
only case that Plaintiff cites for the viability of such a
claim is Stop the Beach Renourishment, Inc. v. Florida

App. 19
Department of Environmental Protection, 560 U.S. 702
(2010).2 See Opp. at 7-12. In Stop the Beach, a plurality
of the U.S. Supreme Court endorsed the existence of a
judicial takings cause of action. 560 U.S. at 707, 71315. In a partial concurrence, Justice Kennedy, joined by
Justice Sotomayor, declined to endorse a judicial
takings cause of action. Id. at 735-37 (Kennedy, J.,
concurring in part and concurring in the judgment). In
Justice Kennedy’s view, “[i]f a judicial decision, as
opposed to an act of the executive or the legislature,
eliminates an established property right, the judgment
could be set aside as a deprivation of property without
due process of law.” Id. at 735. Justice Kennedy
concluded that “[t]he Court would be on strong footing
in ruling that a judicial decision that eliminates or
substantially changes established property rights . . .
is ‘arbitrary or irrational’ under the Due Process
Clause.” Id. at 737. The plurality disagreed with
Justice Kennedy’s substantive due process approach,
see id. at 721 (Scalia, J.) (plurality opinion), and other
federal courts have declined to rely on Justice
Kennedy’s concurrence, see, e.g., Weigel v. Maryland,
950 F. Supp. 2d 811, 836 n.61 (D. Md. 2013) (“Justice
Kennedy’s concurrence in Stop the Beach is insufficient
to render the Plaintiffs’ claim cognizable.”); Watson v.
Lake County, No. 5:09-cv-399, 2011 WL 13175635, at *6
n.2 (M.D. Fla. Feb. 23, 2011) (“Notwithstanding the

2

The other cases that Plaintiff cites concern the viability of a
judicial takings cause of action—not a substantive due process
cause of action. Because Plaintiff explicitly abandoned its judicial
takings theory, see Opp. at 2 (“[Plaintiff] must withdraw its
Takings Clause claim under FRCP 11”), these cases do not help
Plaintiff.

App. 20
fact that [Justice Kennedy’s] opinion has no
precedential value, it was also roundly criticized by a
plurality of the other justices. This Court refused to
apply such an unsettled rule to this case.”). Plaintiff
cites no case from the Ninth Circuit endorsing the
availability of a substantive due process claim based on
a state court interpretation of state law, and the Court
is aware of none outside the habeas corpus context.
Indeed, such a cause of action would appear to raise
“difficult procedural concerns” such as “abstention and
Rooker-Feldman, notice and immunity” that would be
inherent in asking a federal court to review a state
court decision. Frederic Bloom, et al., Suing Courts, 79
U. CHI. L. REV. 553, 595 (2012); see also Stacey L.
Dogan et al., Judicial Takings and Collateral Attack on
State Court Property Decisions, 6 DUKE J. CONST. L. &
PUB. POL’Y 107, 119-23 (opining that federal courts
should engage in review of state court decisions on
state law “as infrequently as possible”). “[O]nly state
courts may authoritatively construe state statutes.”
BMW of N. Am., Inc. v. Gore, 517 U.S. 559, 577 (1996).
Normally, “[f]ederal courts will not review a state
supreme court’s interpretation of its own statute unless
that interpretation is clearly untenable and amounts to
a subterfuge to avoid federal review of a deprivation by
the state of rights guaranteed by the Constitution.”
Knapp v. Cardwell, 667 F.2d 1253, 1260 (9th Cir. 1982)
(citing, e.g. Mullaney v. Wilbur, 421 U.S. 684, 691 &
n.11 (1975)); see also Demorest v. City Bank Farmers
Tr. Co., 321 U.S. 36, 42 (1944) (“[I]f there is no evasion
of the constitutional issue, . . . and the nonfederal
ground of decision has fair support, . . . this Court will
not inquire whether the rule applied by the state court

App. 21
is right or wrong, or substitute its own view of what
should be deemed the better rule for that of the state
court.” (quoting Broad River Power Co. v. South
Carolina, 281 U.S. 537, 540 (1930)); Vandevere v.
Lloyd, 644 F.3d 957, 963 n.4 (9th Cir. 2011) (“We also
note that a federal court remains free to conclude that
a state supreme court’s purported definition of a
property right really amounts to a subterfuge for
removing a pre-existing, state-recognized property
right.”). “Something more than a mistaken construction
on a close question is thus required in order to support
federal intervention.” Dogan, supra, at 123.
The Court need not decide whether such a cause of
action is available, however, because even if it were
available, Plaintiff has failed to plead “enough facts to
state a claim to relief that is plausible on its face.”
Twombly, 550 U.S. at 570.
b. Even if Such a Claim is Cognizable,
Plaintiff’s Claim Fails
“Substantive due process protects individuals from
arbitrary deprivation of their liberty by government.”
Brittain v. Hansen, 451 F.3d 982, 991 (9th Cir. 2006).
“Substantive due process cases typically apply strict
scrutiny in the case of a fundamental right and rational
basis review in all other cases.” Witt v. Dep’t of Air
Force, 527 F.3d 806, 817 (9th Cir. 2008). “When a
fundamental right is recognized, substantive due
process forbids the infringement of that right ‘at all, no
matter what process is provided, unless the
infringement is narrowly tailored to serve a compelling
state interest.’” Id. (quoting Reno v. Flores, 507 U.S.
292, 301-02 (1993) (emphasis omitted)). Fundamental

App. 22
interests that warrant strict scrutiny include the right
to marry and the right to vote, among others. See, e.g.,
Kramer v. Union Free Sch. Dist. No. 15, 395 U.S. 621,
627–28 (1969) (recognizing right to vote as
fundamental right); Loving v. Virginia, 388 U.S. 1, 12
(1967) (“Marriage is one of the ‘basic civil rights of
man,’ fundamental to our very existence and
survival.”).
In cases not involving fundamental rights, where
rational basis review applies, “the Court determines
whether governmental action is so arbitrary that a
rational basis for the action cannot even be conceived
post hoc.” Witt, 527 F.3d at 817. Rational basis review
is a “highly deferential” standard. Flynn v. Holder, 684
F.3d 852, 858 (9th Cir. 2012). Indeed, “[w]hen executive
action like a discrete permitting decision is at issue,
only ‘egregious official conduct can be said to be
arbitrary in the constitutional sense’: it must amount
to an ‘abuse of power’ lacking any ‘reasonable
justification in the service of a legitimate governmental
objective.’” Shanks v. Dressel, 540 F.3d 1082, 1088 (9th
Cir. 2008) (quoting County of Sacramento v. Lewis, 523
U.S. 833, 846 (1998)). In other words, substantive due
process is violated by “executive abuse of power . . .
which shocks the conscience.” Brittain, 451 F.3d at 846;
accord Costanich v. Dep’t of Soc. & Health Servs., 627
F.3d 1101, 1111 (9th Cir. 2010). Even “[o]fficial
decisions that rest on an erroneous legal interpretation
are not necessarily constitutionally arbitrary.” Shanks,
540 F.3d at 1089. Plaintiff concedes that rational basis
review applies here because no fundamental right is at
stake. Opp. at 3; see also Samson v. City of Bainbridge
Island, 683 F.3d 1051, 1058 (9th Cir. 2012)

App. 23
(“[G]overnment action that affects only economic
interests does not implicate fundamental rights.”
(internal quotation marks omitted)).
“To state a substantive due process claim,” a
plaintiff must typically “show as a threshold matter
that a state actor deprived it of a constitutionally
protected life, liberty or property interest.” Shanks, 540
F.3d at 1087. However, when the government action
clearly falls short of constitutional arbitrariness, the
Court need not reach whether Plaintiff possessed a
property or liberty interest. See City of Cuyahoga Falls,
Ohio v. Buckeye Comty. Hope Found., 538 U.S. 188, 198
(2003) (“We need not decide whether respondents
possessed a property interest in the building permits,
because the city engineer’s refusal to issue the permits
. . . in no sense constituted egregious or arbitrary
government conduct.”). Such is the case here.
Assuming the availability of a substantive due
process cause of action based on a state court
interpretation of state law, Plaintiff has not alleged
that the California Supreme Court’s action in deciding
Waste Management was sufficiently arbitrary and
egregious to meet Plaintiff’s “exceedingly high burden”
of stating a viable substantive due process claim that
would survive rational basis review. Matsuda v. City &
Cty. of Honolulu, 512 F.3d 1148, 1156 (9th Cir. 2008)
(internal quotation marks omitted); see Weigel, 950 F.
Supp. 2d at 835-36 (“Therefore, to the extent that any
standard of review applies to substantive due process
challenges to judicial decisions, it would be the rational
basis standard.”).

App. 24
The Ninth Circuit’s decision in Shanks, 540 F.3d
1082, is instructive. In Shanks, property owners
contended that the city of Spokane erroneously issued
building permits that decreased the value of their
property. Id. at 1088. Specifically, the property owners
alleged that Spokane violated several municipal
ordinances when it issued defendants a permit to build
a “box-like dormitory building” in a historic
neighborhood. Id. at 1084-85. The district court ruled
that the property owners had not stated a substantive
due process claim, and the Ninth Circuit affirmed. Id.
at 1086, 1089.
The Ninth Circuit in Shanks explained that “[t]he
conduct [the plaintiffs] allege[d]—a routine, even if
perhaps unwise or legally erroneous, executive decision
to grant a third-party a building permit—falls short of
being constitutionally arbitrary. There is no suggestion,
for instance, of a sudden change in course, malice, bias,
pretext or, indeed, anything more than a lack of due
care on Spokane’s part.” Id. at 1089. The Ninth Circuit
determined that it was “at least fairly debatable” that
Spokane’s action furthered a legitimate interest in
facilitating residential housing in a residential
neighborhood. Id. The Ninth Circuit then concluded,
“When reviewing a substantive due process challenge,
this suffices; our task is not to balance the public
interest supporting the government action against the
severity of the private deprivation.” Id. (internal
quotation marks omitted).
The reasoning in Shanks makes clear that
Plaintiff’s substantive due process theory here fails.
Even assuming that Plaintiff’s statutory interpretation

App. 25
arguments have some merit as a matter of California
law, “[i]t is clearly established that not every state law
violation gives rise to a substantive due process
violation.” Schmidt v. Hoover, No. C 08-5809 PJH, 2009
WL 1011715, at *5 (N.D. Cal. Apr. 15, 2009) (citing
Lewis, 523 U.S. at 847-48; Shanks, 540 F.3d at 1089).
“[O]nly the most egregious official conduct can be said
to be arbitrary in the constitutional sense.” Lewis, 523
U.S. at 846. Here, Plaintiff has alleged nothing more
than “a routine, even if perhaps unwise or legally
erroneous” statutory interpretation by the California
Supreme Court. Plaintiff calls the California Supreme
Court’s decision “egregious,” “arbitrary,” and
“irrational,” FAC ¶ 36, Opp. at 4, 17, but Plaintiff
pleads no facts to support these labels. Such
“conclusory allegations of law . . . are insufficient to
defeat a motion to dismiss.” Adams, 355 F.3d at 1183.
Moreover, like in Shanks, here there is no suggestion
of “a sudden change in course, malice, bias, [or]
pretext” on the part of the California Supreme Court.
Id.
To the contrary, the California Supreme Court’s
decision appears to be nothing more than a reasoned
decision interpreting a state statute using standard
methods of statutory interpretation. In interpreting the
term “waste,” the majority decision in Waste
Management relied on dictionary definitions of words
not expressly defined by the Act—a standard, widely
used method of statutory interpretation. See, e.g.,
Kasten v. Saint-Gobain Performance Plastics Corp., 563
U.S. 1, 7-8 (2011) (Breyer, J.) (comparing dictionary
definitions of the word “file”); MCI Telecomm. Corp. v.
Am. Tel. & Tel. Co., 512 U.S. 218, 225 (1994) (Scalia,

App. 26
J.) (canvassing dictionary definitions of the word
“modify”).
The California Supreme Court also considered
whether various constructions of the term “waste”
would be consistent with the California legislature’s
intent—another common method of statutory
interpretation. Specifically, the California Supreme
Court concluded that a construction of “waste” that did
not address the value of the material discarded would
be inconsistent with the Act’s intent. The California
Supreme Court explained that an interpretation solely
based on the “discarding” element “might be read to
mean that a property owner could decide unilaterally
with whom he will discard his waste. If three
competing waste handlers (the exclusive franchisee and
two others) placed their respective receptacles at the
owner’s curbside, he could put his waste into whichever
container he chooses.” Waste Management, 869 P.2d at
4443. As the plaintiffs in Waste Management argued,
such an approach relying solely on the “discarding”
element “would eviscerate the Act because owners
could discard all their property—recyclable and
otherwise—as they see fit and thereby render an
exclusive solid waste handling franchise a nullity as a
practical matter.” Id.
As this Court and other courts have explained,
granting an exclusive franchise for solid waste
handling is rationally related to legitimate government
interests. See ECF No. 29 at 14-16 (noting that Bay
Counties is more efficient at recycling construction and
demolition debris than Plaintiff); Waste Mgmt. of
Alameda Cty., Inc. v. Biagini Waste Reduction Sys.,

App. 27
Inc., 74 Cal. Rptr. 2d 676, 683 (Ct. App. 1998)
(exclusive franchise allows municipality to “protect[]
against the hazards of indiscriminate or unsafe waste
disposal”); Waste Res. Techs. v. Dep’t of Pub. Health, 28
Cal. Rptr. 2d 422, 429 (Ct. App. 1994) (exclusive
franchise results in lower costs for residents and
increased efficiency in programs); G. Fruge Junk Co. v.
City of Oakland, 637 F. Supp. 422, 425 (N.D. Cal. 1986)
(exclusive franchise “rationally related to public health
and environmental concerns because it facilitates
efficient regulation of potentially hazardous activities”);
see also Phillip O’Connell & Terri Esparza, The Golden
Dustman in the Golden State: Exclusive Contracts for
Solid Waste Collection and Disposal in California, 32
URB. LAW. 281, 287 (2000) (noting that multiple waste
collectors means more large trucks in a city, which
impacts traffic and residents’ safety). As a result, the
California Supreme Court’s interpretation of the Act to
preserve cities’ ability to grant exclusive franchises was
also rationally related to legitimate government
interests.
Finally, the California Supreme Court’s
interpretation of the term “waste” is consistent with
the decisions of other courts and commissions that have
considered similar questions, which suggests the
California Supreme Court’s decision was not arbitrary,
egregious, or clearly untenable. First, like in Waste
Management, 869 P.2d at 442-44, other courts and
commissions have looked to whether the actor
discarding material paid or was paid to discard it. In
1965, the now-disbanded Interstate Commerce
Commission considered whether the producers of
demolition debris sold the debris or paid to have it

App. 28
removed as part of an inquiry into whether the debris
constituted “property.” Pleasant Hill Bayshore
Disposal, Inc. v. Chip-It Recycling, Inc., 110 Cal. Rptr.
2d 708, 718 (Ct. App. 2001) (citing Joray Trucking
Corp. Common Carrier Application, 99 M.C.C. 109, 110
(1965)).
In 1991, the Virginia Supreme Court held that
whether something is “waste” turned in part on
whether it was “discarded material,” which the
Virginia Supreme Court said should be evaluated from
the perspective of the actor discarding the material, not
the actor collecting it. Ticonderoga Farms, Inc. v.
County of Loudoun, 409 S.E.2d 446, 449 (Va. 1991).
Applying reasoning similar to that of the California
Supreme Court in Waste Management, the Virginia
Supreme Court explained, “The materials are brought
to [Ticonderoga Farms] by developers, builders, and
others who have so strong an incentive to discard them
that they are willing to pay [Ticonderoga Farms] a fee
to receive them. From that perspective, it is difficult to
conceive a clearer example of ‘discarded material.’” Id.
Moreover, other federal courts have interpreted the
federal Resources Conservation and Recovery Act’s
definition of “solid waste” to include some recyclable
materials. See, e.g., Owen Elec. Steel Co. v. Browner, 37
F.3d 146 (4th Cir. 1994) (holding that metal slag was a
solid waste even though it was later recycled); United
States v. Ilco, 996 F.2d 1126 (11th Cir. 1993) (same for
batteries); U.S. Brewers’ Ass’n v. EPA, 600 F.2d 974
(D.C. Cir. 1979) (upholding EPA regulation of beverage
container recycling despite claims that the bottles,
until discarded, were not solid waste). Even though

App. 29
different statutory definitions of “solid waste” were at
play in these cases and Waste Management, these cases
undercut Plaintiff’s argument that the California
Supreme Court’s interpretation of “waste” is plainly
irrational because it includes some recyclable material.
Thus, Plaintiff has failed to plead a plausible
substantive due process claim because Plaintiff has not
put forward any facts that the California Supreme
Court acted irrationally, arbitrarily, or egregiously in
deciding Waste Management. Rather, the most the
Court can conclude from Plaintiff’s FAC is that Waste
Management may be a “mistaken construction on a
close question.” Dogan, supra, at 123. But more than
that is required for a federal court to intervene in a
state court’s construction of a state statute, and more
than that is required to state a substantive due process
claim. See id.; Shanks, 540 F.3d at 1088 (“[O]nly
‘egregious official conduct can be said to be arbitrary in
the constitutional sense’: it must amount to an ‘abuse
of power’ lacking any ‘reasonable justification in the
service of a legitimate governmental objective.’”
(quoting Lewis, 523 U.S. at 846)). The fact that
Plaintiff anticipates resistance to its argument in the
state courts and in the state legislature does not
transform a dispute about the correct interpretation of
a state statute regulating solid waste handling into a
constitutional issue. See FAC ¶ 35; Opp. at 17 (arguing
that national waste haulers have too much influence in
the state legislature and comparing Plaintiff to
“plaintiffs in the 1940s civil rights cases where the
Supreme Court had interpreted the 14th Amendment
to mean ‘separate but equal’ and Congressional

App. 30
democrats from the South blocked all legislation to cure
that evil”).
Accordingly, the Court GRANTS the City’s motion
to dismiss the FAC’s declaratory relief cause of action
to the extent it relies on a substantive due process
theory of relief.
c. Leave to Amend
Plaintiff has abandoned its Equal Protection Clause,
Commerce Clause, and Takings Clause theories of
declaratory relief, Opp. at 2, likely reflecting Plaintiff’s
own recognition that it is unable to state a plausible
claim under these theories.
In addition, Plaintiff has now been afforded two
opportunities to state a viable declaratory relief cause
of action based on substantive due process, but it has
been unable to do so. Plaintiff first alleged in the
original complaint that the City’s permitting decisions
violated its substantive due process rights. See ECF
No. 29 at 14-15; ECF No. 1 at ¶¶ 16, 24, 27. The Court
ruled that Plaintiff had failed to allege that the City’s
permitting decisions were arbitrary and capricious
because the City’s permitting decisions were rationally
related to legitimate government interests. Id. at 15-16.
Plaintiff did not attempt to remedy this deficiency in
the FAC. Plaintiff did not allege additional facts
showing that the City’s permitting decisions were “a
sudden change in course, malice, bias, pretext,” or
otherwise arbitrary or egregious. In fact, Plaintiff
conceded in its Opposition that it did not dispute the
City’s authority to grant an exclusive franchise for the
collection of solid waste, nor did it contest the City’s

App. 31
interpretation of the Waste Management decision. Opp.
at 2.
Instead of pleading facts to show egregious action by
the City, Plaintiff shifted its substantive due process
theory to focus on the California Supreme Court as the
relevant government actor. See FAC ¶ 36; Opp. at 2-3.
Despite the instant Court’s previous ruling that
Plaintiff must allege egregious government action to
state a substantive due process claim, ECF No. 29 at
13-16, Plaintiff pleaded only conclusory allegations that
the California Supreme Court’s decision was arbitrary.
See FAC ¶ 36. Plaintiff’s Opposition similarly contains
no specific allegations of egregious government action
beyond labeling the Waste Management decision
“egregious” and “irrational.” Opp. at 2-4, 13-14, 17.
By failing to set forth any facts in the FAC to show
egregious government action, Plaintiff has “fail[ed] to
cure deficiencies by amendments previously allowed.”
Carvalho, 629 F.3d 876, 892-93. As a result, it is within
the Court’s discretion to find that further amendments
would be futile and to decline to allow further
amendments. Moreover, Plaintiff failed in its
Opposition to identify any facts that it could add if
given leave to amend yet another time. This failure
reinforces the Court’s conclusion that allowing further
amendments would be futile.
Plaintiff may have a viable state law argument, but
its constitutional arguments clearly fail. Accordingly,
the FAC is dismissed with prejudice as to the
constitutional theories of declaratory relief. See
Yagman v. Garcetti, 852 F.3d 859, 867 (9th Cir. 2017)
(affirming dismissal with prejudice of substantive due

App. 32
process claim on futility grounds); Kay v. Placer
County, 219 F. App’x 679, 682 (9th Cir. 2007)
(unpublished) (affirming dismissal of constitutional
causes of action with prejudice because amendment
would be futile and commenting that plaintiffs had
“sought to recast what are, at best, state-law claims
into federal causes of action. Amendment will not cure
this fundamental flaw.”).
B. State Law Theories
Plaintiff’s remaining theories of relief are based on
state law. Plaintiff argues two state law theories of
relief, namely: (1) that the City uses the wrong
definition of solid waste under California law, and
(2) that the City violated California Public Resources
Code § 40059. FAC ¶¶ 28-29, 31.
“[T]he Declaratory Judgment Act does not by itself
confer federal subject-matter jurisdiction.” Nationwide
Mut. Ins. Co. v. Liberatore, 408 F.3d 1158, 1161 (9th
Cir. 2005). Before declaratory relief may be granted,
federal subject matter jurisdiction requirements must
be satisfied. Skelly Oil Co. v. Phillips Petroleum Co.,
339 U.S. 667, 671 (1950) (requiring independent
subject matter jurisdiction on a declaratory relief cause
of action).
A federal court may exercise supplemental
jurisdiction over state law claims “that are so related to
claims in the action within [the court’s] original
jurisdiction that they form part of the same case or
controversy under Article III of the United States
Constitution.” 28 U.S.C. § 1367(a). Conversely, a court
may decline to exercise supplemental jurisdiction

App. 33
where it “has dismissed all claims over which it has
original jurisdiction.” 28 U.S.C. § 1367(c)(3); see also
Albingia Versicherungs A.G. v. Schenker Int’l, Inc., 344
F.3d 931, 937-38 (9th Cir. 2003) (as amended) (holding
that Section 1367(c) grants federal courts the discretion
to dismiss state law claims when all federal claims
have been dismissed). In considering whether to retain
supplemental jurisdiction, a court should consider
factors such as “economy, convenience, fairness, and
comity.” Acri v. Varian Assocs., 114 F.3d 999, 1001 (9th
Cir. 1997) (en banc) (citations and internal quotation
marks omitted). However, “in the usual case in which
all federal-law claims are eliminated before trial, the
balance of factors . . . will point toward declining to
exercise jurisdiction over the remaining state law
claims.” Exec. Software N. Am., Inc. v. U.S. Dist. Court,
24 F.3d 1545, 1553 n.4 (9th Cir. 1994) (emphasis
omitted), overruled on other grounds by Cal. Dep’t of
Water Res. v. Powerex Corp., 533 F.3d 1087 (9th Cir.
2008).
Here, the factors of economy, convenience, fairness,
and comity support dismissal of Plaintiff’s remaining
state law theories of relief. This case is still at the
pleading stage, and no discovery has taken place.
Federal judicial resources are conserved by dismissing
the state law theories of relief at this stage. The Court
finds that dismissal promotes comity as it enables
California courts to interpret questions of state law.
The fact that this case is brought under the federal
declaratory judgment act does not affect this result. See
Anbar v. Deutsche Bank Nat’l Tr. Co., No. 13cv1318WQH-RBB, 2013 WL 5937274, at *3 (S.D. Cal. Nov. 4,

App. 34
2013) (declining supplemental jurisdiction
declaratory judgment cause of action).

on

Under similar circumstances, in Houlton Citizens’
Coalition v. Town of Houlton, 175 F.3d 178 (1st Cir.
1999), after the First Circuit found that the defendant’s
exclusive franchise agreement was not prohibited
under the Takings Clause or the dormant Commerce
Clause, the First Circuit discussed a claim that the
exclusive franchise agreement was invalid under the
town charter. Id. at 192. The First Circuit noted that
the district court “should not have ventured to
adjudicate the town charter claim,” and that declining
supplemental jurisdiction was the “option of choice.” Id.
The Court finds that similar logic applies to Plaintiff’s
state law theories of relief here. For these reasons, the
Court declines to exercise supplemental jurisdiction
over Plaintiffs’ state law theories of relief. Moreover,
with the dismissal with prejudice of the constitutional
basis for Plaintiff’s declaratory relief cause of action,
this Court no longer has federal question jurisdiction
over this case. See Nationwide Mut. Ins. Co., 408 F.3d
at 1161 (“[T]he Declaratory Judgment Act does not by
itself confer federal subject-matter jurisdiction.”). The
Court also lacks diversity jurisdiction because both
parties are citizens of California. Thus, the Court
doubts whether it even has jurisdiction to continue to
preside over this case.
Accordingly, the Court GRANTS without prejudice
the City’s motion to dismiss the FAC’s declaratory
relief cause of action to the extent it is based on
Plaintiff’s state law theories of relief. Plaintiff may
refile in state court.

App. 35
V. CONCLUSION
For the foregoing reasons, the Court GRANTS the
City’s Motion to Dismiss the First Amended Complaint,
which consists of one declaratory relief cause of action.
This dismissal is with prejudice as to the constitutional
theories, and without prejudice as to the state law
theories, of Plaintiff’s declaratory relief cause of action.
IT IS SO ORDERED.
Dated: November 9, 2017
/s/Lucy H. Koh
LUCY H. KOH
United States District Judge

App. 36

APPENDIX C
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
Case No. 17-CV-00956-LHK
[Filed June 16, 2017]
_____________________________
JONNA CORPORATION,
)
)
Plaintiff,
)
)
v.
)
)
CITY OF SUNNYVALE, CA,
)
)
Defendant.
)
_____________________________ )
ORDER GRANTING CITY OF SUNNYVALE’S
MOTION TO DISMISS
Re: Dkt. No. 16
Plaintiff Jonna Corporation (“Plaintiff”) sues
Defendant City of Sunnyvale (“Defendant” or “the
City”) because the City refused to provide Plaintiff a
license to collect construction and demolition debris in
the City. Before the Court is the City’s Motion to
Dismiss. ECF No. 16 (“Mot.”). Having considered the
parties’ briefing, the relevant law, and the record in

App. 37
this case, the Court GRANTS the City’s Motion to
Dismiss.
I. BACKGROUND
A. Factual Background
In 1990, the City entered into an exclusive franchise
agreement for the collection of solid waste in the City
(“Exclusive Franchise Agreement”) with Bay Counties
Waste Services, Inc. (“Bay Counties”), formerly
Specialty Solid Waste & Recycling, Inc., for a term of
ten years. ECF No. 1 (“Compl.”) ¶ 21; see also ECF No.
17-1 at 39, Sunnyvale Ordinance No. 2771-04.1 That
Exclusive Franchise Agreement has been amended and
extended a number of times, and now extends through
at least June 30, 2018. ECF No. 17-3 at 13, Sunnyvale
Ordinance No. 2949-11. Under the Exclusive Franchise
Agreement, Bay Counties is the sole collector of solid
waste, including recyclable materials and construction
debris, in the City. ECF No. 17-2 (“Franchise Agmt.”)
at 18 (“City hereby extends its previous grant to
Contractor of the exclusive franchise, right and
privilege to engage in the business of collecting and
transporting Solid Waste generated within the City”),
16 (“‘[S]olid waste’ means . . . Garbage, Rubbish,
Construction Debris, Yardwaste, and Recyclable
Materials.”). The Sunnyvale Municipal Code forbids
any party to collect solid waste for a fee without a
franchise or license. Sunnyvale Mun. Code § 8.16.150
1

The Court refers to documents in this section, such as Sunnyvale
Ordinance No. 2771-04, of which Defendant requests judicial
notice. The Court discusses and grants judicial notice as to all of
these documents below in Section III.A.

App. 38
(“It is unlawful for any person to engage in the
business of collecting solid waste within the city, or to
haul the same through any street or public right-of-way
in the city, unless such person has been granted a
franchise or license to do so by the city.”).2 Bay
Counties is the only entity that has been awarded such
a franchise or license. Franchise Agmt. at 18.
Plaintiff is a California corporation based in Santa
Clara County that “is in the business of collecting
discarded wood, metal, asphalt, concrete, and drywall
from commercial construction and demolition sites”
(“construction and demolition debris”). Compl. ¶ 5. On
October 19, 2016, Plaintiff applied to the City for a
franchise or license to collect construction and
demolition debris under Sunnyvale Municipal Code
§ 8.16.090. Id. ¶ 17; see also Sunnyvale Mun. Code
§ 8.16.090 (“The city council shall provide for the
collection and disposal of solid waste and recyclable
materials generated from residences within the city by
the issuance of a franchise or license, or franchises and
licenses, to disposal service operators.”). On November
7, 2016, the City denied Plaintiff’s application for a

2

The Sunnyvale Municipal Code has exceptions to this solid waste
franchise or license requirement that do not apply here. See
Sunnyvale Mun. Code § 8.16.160. Those exceptions include:
(1) self-hauling by residential househoulders, (2) gardeners
removing materials incidental to their work, (3) hauling of
recyclable materials by recyclers, junk dealers, or businesses that
buy and market recyclable materials, (4) hauling of worn, spent, or
defective equipment by a commercial business, (5) hauling by a
contractor who was hired for construction or demolition work, or
(6) businesses that dispose of secret, confidential or sensitive
documents. Id.

App. 39
franchise or license. Compl. ¶ 18. The City’s denial
letter stated that “[w]hile the Sunnyvale Municipal
Code does allow for the possibility of the City issuing
multiple license holders/franchisees, the City’s current
policy is to issue an exclusive franchise to a single
disposal service operator. This franchise extends to
collection of all solid waste, including [construction and
demolition] material, as described in more detail in
Chapter 8.16 of the Code.” Id.
B. Procedural History
On February 24, 2017, Plaintiff filed the instant
suit. See Compl. Plaintiff asserts two causes of action:
declaratory relief and mandamus. However, the
declaratory relief cause of action is based on the
following theories of relief: (1) violation of the Takings
Clause of the United States Constitution, (2) violation
of the Substantive Due Process clause in the Fifth and
Fourteenth Amendments to the United States
Constitution, (3) violation of the Equal Protection
clause in the Fourteenth Amendment of the United
States Constitution and Article I, Section 7 of the
California Constitution, (4) violation of the Commerce
Clause of the United States Constitution, (5) the City’s
use of the wrong definition of “solid waste” under
California law, and (6) violation of California Public
Resources Code § 40059. Id. ¶¶ 26–31. Plaintiff’s
mandamus cause of action merely states that the City
had a mandatory duty to issue a franchise or license to
Plaintiff under Sunnyvale Municipal Code § 8.16.090,
and thus the Court should compel the issuance of such
a license. Id. ¶¶ 32–34.

App. 40
This case was assigned to Magistrate Judge Howard
Lloyd on February 27, 2017. ECF No. 4. On March 8,
2017, Plaintiff declined Magistrate Judge jurisdiction,
ECF No. 7, and on March 9, 2017, the instant case was
reassigned to the undersigned judge, ECF No. 9. On
March 20, 2017, the City filed a motion to dismiss the
instant suit that was noticed for hearing before
Magistrate Judge Howard Lloyd. ECF No. 13.
On April 4, 2017, the City filed an amended motion
to dismiss that was identical to the original motion to
dismiss except that it was noticed for hearing before
the undersigned judge. ECF No. 16 (“Mot.”).3 On April
18, 2017, Plaintiff filed an opposition to the City’s
amended motion, ECF No. 18 (“Opp’n”), and an
“Appendix” of defined terms, ECF No. 18-1. On April
25, 2017, the City filed a reply, ECF No. 19 (“Reply”),
and an objection to Plaintiff’s Appendix of defined
terms, ECF No. 20.4

3

Accordingly, the City’s first motion to dismiss, ECF No. 13, is
DENIED as moot.
4

Under Civil Local Rule 7-3(c), “[a]ny evidentiary and procedural
objections to the opposition must be contained within the reply
brief or memorandum.” Accordingly, because the City filed its
objections to the Appendix in a separate document, the Court
DENIES the City’s objections. However, the Court notes that
Plaintiff’s Appendix of defined terms contains a number of
references to case law, and is akin to legal argument. Plaintiff’s
opposition to the City’s motion is 25 pages long, the full length
allowed by Civil Local Rule 7-3(a). Accordingly, the Court
STRIKES Plaintiff’s Appendix as argument in excess of the page
limit set forth by the Civil Local Rules.

App. 41
II. LEGAL STANDARD
A. Motion to Dismiss Under Rule 12(b)(6)
Rule 8(a)(2) of the Federal Rules of Civil Procedure
requires a complaint to include “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” A complaint that fails to meet this
standard may be dismissed pursuant to Federal Rule
of Civil Procedure 12(b)(6). The U.S. Supreme Court
has held that Rule 8(a) requires a plaintiff to plead
“enough facts to state a claim to relief that is plausible
on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544,
570 (2007). “A claim has facial plausibility when the
plaintiff pleads factual content that allows the court to
draw the reasonable inference that the defendant is
liable for the misconduct alleged.” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009). “The plausibility standard is not
akin to a probability requirement, but it asks for more
than a sheer possibility that a defendant has acted
unlawfully.” Id. (internal quotation marks omitted).
For purposes of ruling on a Rule 12(b)(6) motion, a
court “accept[s] factual allegations in the complaint as
true and construe[s] the pleadings in the light most
favorable to the nonmoving party.” Manzarek v. St.
Paul Fire & Marine Ins. Co., 519 F.3d 1025, 1031 (9th
Cir. 2008).
However, a court need not accept as true allegations
contradicted by judicially noticeable facts, Shwarz v.
United States, 234 F.3d 428, 435 (9th Cir. 2000), and
the “[C]ourt may look beyond the plaintiff’s complaint
to matters of public record” without converting the
Rule 12(b)(6) motion into one for summary judgment,
Shaw v. Hahn, 56 F.3d 1128, 1129 n.1 (9th Cir. 1995).

App. 42
Nor is the court required to “‘assume the truth of legal
conclusions merely because they are cast in the form of
factual allegations.’” Fayer v. Vaughn, 649 F.3d 1061,
1064 (9th Cir. 2011) (per curiam) (quoting W. Mining
Council v. Watt, 643 F.2d 618, 624 (9th Cir. 1981)).
Mere “conclusory allegations of law and unwarranted
inferences are insufficient to defeat a motion to
dismiss.” Adams v. Johnson, 355 F.3d 1179, 1183 (9th
Cir. 2004); accord Iqbal, 556 U.S. at 678. Furthermore,
“a plaintiff may plead herself out of court” if she
“plead[s] facts which establish that [s]he cannot prevail
on h[er] . . . claim.” Weisbuch v. Cty. of L.A., 119 F.3d
778, 783 n.1 (9th Cir. 1997).
B. Leave to Amend
If the Court determines that the complaint should
be dismissed, it must then decide whether to grant
leave to amend. Under Rule 15(a) of the Federal Rules
of Civil Procedure, leave to amend “should be freely
granted when justice so requires,” bearing in mind that
“the underlying purpose of Rule 15 . . . [is] to facilitate
decision on the merits, rather than on the pleadings or
technicalities.” Lopez v. Smith, 203 F.3d 1122, 1127
(9th Cir. 2000) (en banc). When dismissing a complaint
for failure to state a claim, “a district court should
grant leave to amend even if no request to amend the
pleading was made, unless it determines that the
pleading could not possibly be cured by the allegation
of other facts.” Id. at 1130 (quoting Doe v. United
States, 58 F.3d 494, 497 (9th Cir. 1995)). Nonetheless,
a court “may exercise its discretion to deny leave to
amend due to ‘undue delay, bad faith or dilatory motive
on part of the movant, repeated failure to cure

App. 43
deficiencies by amendments previously allowed, undue
prejudice to the opposing party. . . , [and] futility of
amendment.’” Carvalho v. Equifax Info. Servs., LLC,
629 F.3d 876, 892–93 (9th Cir. 2010) (alterations in
original) (quoting Foman v. Davis, 371 U.S. 178, 182
(1962)).
III. DISCUSSION
The City argues that Plaintiff has failed to
adequately plead its declaratory relief and mandamus
causes of action. The City also requests judicial notice
of a number of documents. The Court first addresses
the City’s request for judicial notice. The Court then
addresses Plaintiff’s declaratory relief and mandamus
causes of action in turn.
A. Request for Judicial Notice
The Court first addresses the City’s request for
judicial notice. ECF No. 17. The Court may take
judicial notice of matters that are either “generally
known within the trial court’s territorial jurisdiction”
or “can be accurately and readily determined from
sources whose accuracy cannot reasonably be
questioned.” Fed. R. Evid. 201(b). Public records,
including judgments and other publicly filed
documents, are proper subjects of judicial notice. See,
e.g., United States v. Black, 482 F.3d 1035, 1041 (9th
Cir. 2007) (“[Courts] may take notice of proceedings in
other courts, both within and without the federal
judicial system, if those proceedings have a direct
relation to matters at issue.”); Rothman v. Gregor, 220
F.3d 81, 92 (2d Cir. 2000) (taking judicial notice of a
filed complaint as a public record).

App. 44
However, to the extent any facts in documents
subject to judicial notice are subject to reasonable
dispute, the Court will not take judicial notice of those
facts. See Lee v. City of L.A., 250 F.3d 668, 689 (9th Cir.
2001) (“A court may take judicial notice of matters of
public record . . . But a court may not take judicial
notice of a fact that is subject to reasonable dispute.”)
(internal quotation marks omitted), overruled on other
grounds by Galbraith v. Cty. of Santa Clara, 307 F.3d
1119 (9th Cir. 2002).
The City requests judicial notice of the following
legislative enactments:
• Sections 400, 1600, 1601, and 1602 of the City of
Sunnyvale’s Charter;
• Chapter 8.16 of the Sunnyvale Municipal Code;
• City of Sunnyvale Ordinance No. 2771-04, which
is titled “An Ordinance of the City Council of the
City of Sunnyvale Extending the Term of the
Franchise with Bay Counties Waste Services,
Inc. for the Collection of Solid Waste,” as
Adopted and Restated by Ordinance 2572-97;
• The January 11, 2005 Extended and Second
Restated Agreement Between City of Sunnyvale
and Bay Counties Waste Services, Inc. for Solid
Waste Collection and Recycling, which is an
attachment to City of Sunnyvale Ordinance No.
2771-04;
• City of Sunnyvale Ordinance No. 2949-11, which
is titled “An Ordinance of the City Council of the
City of Sunnyvale Adopting the First

App. 45
Amendment to Extended and Second Restated
Agreement Between the City of Sunnyvale and
with Bay Counties Waste Services, Inc. for the
Collection of Solid Waste and Recycling”;
• The September 30, 2010 First Amendment to
Extended and Second Restated Agreement
Between City of Sunnyvale and Bay Counties
Waste Services, Inc. for Solid Waste Collection
and Recycling, which is an attachment to City of
Sunnyvale Ordinance No. 2949-11.
The above documents are legislative enactments,
ordinances, or regulations that are subject to judicial
notice. See Long Beach Area Peace Network v. City of
Long Beach, 574 F.3d 1011, 1026 (9th Cir. 2009)
(taking judicial notice of a local ordinance, a local
regulation, and a local municipal code). Accordingly,
the Court GRANTS the City’s request for judicial notice
of these documents.
The Court also requests judicial notice of the
following public record documents:
• A December 14, 2004 City of Sunnyvale Staff
Report to the City’s Mayor and City Council
about the extension of the Exclusive Franchise
Agreement with Bay Counties;
• Minutes from the December 14, 2004 Sunnyvale
City Council Public Hearings;
• February 15, 2011 City of Sunnyvale Staff
Report to the City’s Mayor and City Council
about the modification of the Exclusive
Franchise Agreement with Bay Counties;

App. 46
• April 13, 2011 Correction to Approved Minutes
of the February 15, 2011 City Council Meeting;
The above documents are documents that are of
public record, and thus are documents for which
judicial notice is appropriate. See Abdullah v. U.S. Sec.
Assocs., Inc., 731 F.3d 952, 959 n.10 (9th Cir. 2013)
(taking judicial notice of opinion letters of California
Division of Labor Standards Enforcement); Law v. City
of Berkeley, 2016 WL 4191645, at *4 (N.D. Cal. Aug. 9,
2016) (taking judicial notice of city council minutes).
Accordingly, the Court GRANTS the City’s request for
judicial notice of these documents.
B. Declaratory Relief
Plaintiff asserts two causes of action: declaratory
relief and mandamus. However, the declaratory relief
cause of action is based on the following six theories of
relief: (1) violation of the Takings Clause of the United
States Constitution, (2) violation of the Substantive
Due Process clause in the Fifth and Fourteenth
Amendments to the United States Constitution,
(3) violation of the Equal Protection clause in the
Fourteenth Amendment of the United States
Constitution and Article I, Section 7 of the California
Constitution, (4) violation of the Commerce Clause of
the United States Constitution, (5) the City’s use of the
wrong definition of “solid waste” under California law,
and (6) violation of California Public Resources Code
§ 40059. Compl. ¶¶ 26–31.
The Court first addresses Plaintiff’s declaratory
relief cause of action, which is brought under the
Declaratory Judgment Act, 28 U.S.C. § 2201. The

App. 47
Declaratory Judgment Act provides that “[i]n a case of
actual controversy within its jurisdiction . . . any court
of the United States . . . may declare the rights and
other legal relations of any interested party seeking
such declaration, whether or not further relief is or
could be sought.” 28 U.S.C. § 2201(a). To fall within the
Act’s ambit, the “case of actual controversy” must be
“‘definite and concrete, touching the legal relations of
parties having adverse legal interests,’. . . ‘real and
substantial’ and ‘admi[t] of specific relief through a
decree of a conclusive character, as distinguished from
an opinion advising what the law would be upon a
hypothetical state of facts.’” MedImmune, Inc. v.
Genentech, Inc., 549 U.S. 118, 127 (2007) (alteration in
original) (quoting Aetna Life Ins. Co. of Hartford, Conn.
v. Haworth, 300 U.S. 227, 240–41 (1937)).
Defendant argues that Plaintiff’s declaratory relief
cause of action fails because the complaint fails to
allege “any cognizable legal theory for declaratory
relief.” Mot. at 2. As noted above, Plaintiff’s complaint
asserts six legal theories in support of its declaratory
relief cause of action. The Court addresses Plaintiff’s
constitutional legal theories first, in the following
order: (1) violation of the Takings Clause of the United
States Constitution, (2) violation of the Substantive
Due Process Clause in the Fifth and Fourteenth
Amendments to the United States Constitution,
(3) violation of the Equal Protection Clause in the
Fourteenth Amendment of the United States
Constitution and Article I, Section 7 of the California
Constitution, and (4) violation of the Commerce Clause
of the United States Constitution. The Court then
addresses together Plaintiff’s state law theories of

App. 48
relief: (1) the City’s use of the wrong definition of “solid
waste” under California law, and (2) violation of Public
Resources Code § 40059.
1. Takings Clause
The Takings Clause of the Fifth Amendment states
that “private property [shall not] be taken for public
use, without just compensation.” U.S. Const. amend. V.
This clause applies to the states and their political
subdivisions through the Fourteenth Amendment. See
Palazzolo v. Rhode Island, 533 U.S. 606, 617 (2001)
(“The Takings Clause of the Fifth Amendment [is]
applicable to the States through the Fourteenth
Amendment.” (citing Chicago, B. & Q. R. Co. v.
Chicago, 166 U.S. 226, 239 (1897))). Although the
prototypical case involves “physical invasions,
occupations, or removals of property,” in some cases,
“overly assiduous government regulation can create an
unconstitutional taking” of property. Houlton Citizens’
Coal. v. Town of Houlton, 175 F.3d 178, 189–90 (1st
Cir. 1999).
The first step in . . . [a] taking analys[i]s is to
determine whether there is a property right that is
protected by the Constitution.” Peterson v. U.S. Dep’t of
Interior, 899 F.2d 799, 807 (9th Cir. 1990) (citation
omitted). The Peterson court cites to Bowen v. Public
Agencies Opposed to Soc. Sec. Entrapment, 477 U.S. 41
(1986), in which the United States Supreme Court held
that the contractual right at issue in that case “did not
rise to the level of ‘property’” within the meaning of the
Takings Clause because it “[could] not be viewed as
conferring any sort of ‘vested right.’” Id. at 54–5.
“Without a proerty right, there could be no ‘taking

App. 49
within the meaning of the Fifth Amendment.’” Id. at
55–56.
The Court notes that there is a question whether
Plaintiff has adequately alleged that Plaintiff
possessed property that is protected by the Takings
Clause. See Hagan v. United States, 2002 WL 338882,
at *8 n.10 (E.D. Pa. Mar. 2, 2002) (dismissing takings
claim because “right to practice his profession as a
Certified Public Accountant” was not cognizable
property under the Takings Clause). The Court need
not reach this issue here because, as the Court finds
below, Plaintiff has failed to adequately plead
exhaustion of state court remedies. However, if
Plaintiff chooses to file an amended complaint, Plaintiff
must adequately allege that Plaintiff possessed a
property interest protected by the Takings Clause.
Assuming Plaintiff has established that a cognizable
property interest is at issue, the determination
whether a taking has occurred within the meaning of
the Takings Clause depends on the particular
circumstances of a case. See Tahoe-Sierra Pres.
Council, Inc. v. Tahoe Reg’l Planning Agency, 535 U.S.
302, 326 (2002) (“[W]e have ‘generally eschewed’ any
set formula for determining how far is too far, choosing
instead to engage in ‘essentially ad hoc, factual
inquiries.’” (internal quotation marks omitted)). The
United States Supreme Court has identified a number
of factors courts may consider when determining
whether a state action constitutes a taking of property:
(1) “the character of the governmental action,” i.e.,
whether it “can be characterized as a physical invasion
by government,” rather than arising from “some public

App. 50
program adjusting the benefits and burdens of
economic life to promote the common good”; (2) “the
economic impact of the regulation on the claimant”;
and (3) “the extent to which the regulation has
interfered with distinct investment-backed
expectations.” Penn Cent. Transp. Co. v. N.Y. City, 438
U.S. 104, 124 (1978).
The Court notes that there is a question whether
Plaintiff has adequately alleged that any alleged taking
was not merely incidental to the City’s exercise of its
police powers. See Houlton, 175 F.3d at 190 (“[C]ourts
steadfastly have rejected the proposition that the grant
of an exclusive contract for refuse collection constitutes
a taking vis-à-vis other (competing) trash haulers”).
The Court need not reach this issue here because, as
the Court finds below, Plaintiff has failed to adequately
plead exhaustion of state court remedies. However, if
Plaintiff chooses to file an amended complaint, Plaintiff
must adequately allege that any taking that occurred
was not merely incidental to the City’s exercise of its
police powers.
Plaintiff argues that it has been subject to an
unconstitutional taking because the City does not allow
Plaintiff to collect construction and demolition debris
for a service fee. Plaintiff asserts that this alleged
taking was perpetrated by two state actions. First,
Plaintiff argues that the City’s denial of Plaintiff’s
application for a franchise or license was a taking.
Second, Plaintiff argues that the California Supreme
Court’s decision in Waste Management of the Desert v.
Palm Springs Recycling Center, 7 Cal. 4th 478 (1994),
was a “judicial taking.”

App. 51
A cause of action for a “judicial taking” was
recognized by the plurality in Stop the Beach
Renourishment, Inc. v. Florida Department of
Environmental Protection, 560 U.S. 702 (2010).
However, a majority of the United States Supreme
Court did not hold that such a cause of action was
available. Id. at 733–45. As a district court in this
district has stated: “The contours and viability of the
theory of so-called ‘judicial takings’—where a court
decision may be deemed to have effectively taken
property rights from an individual—are unclear even
in the courts of this country.” Eliahu v. Israel, 2015 WL
981517, at *5 n.5 (N.D. Cal. Mar. 3, 2015), aff’d sub
nom. Eliahu v. State of Israel, 659 F. App’x 451 (9th
Cir. 2016).
In this case, the Court need not reach whether the
Takings Clause protects against “judicial takings”
because Plaintiff has failed to satisfy the prerequisites
for a takings claim regardless of whether that taking
was caused by the City or the California Supreme
Court. To bring a claim based on the Takings Clause in
federal court, “a plaintiff must establish two things:
(1) the governmental entity has reached a final decision
on the applicability of the regulation to the plaintiff’s
property; and (2) the plaintiff is unable to receive just
compensation from the government.” San Remo Hotel
v. City & Cty. of S.F., 145 F.3d 1095, 1102 (9th Cir.
1998).
The Court need not reach the first San Remo
requirement because Plaintiff fails to satisfy the second
San Remo requirement. Under the second San Remo
requirement, if administrative procedures or a state

App. 52
court cause of action is available to obtain just
compensation, a plaintiff must first pursue that avenue
of relief. See San Remo, 145 F.3d at 1102 (requiring the
plaintiff to first pursue state law inverse condemnation
before bringing a federal cause of action). To avoid this
requirement, the plaintiff must show that any state
law avenues of relief are “inadequate.” Id.
Here, the complaint contains no allegation that
Plaintiff pursued compensation through state law
avenues or that such avenues are inadequate. There
may be administrative procedures to appeal the license
denial or a cause of action that can be brought in state
court to obtain just compensation. However, Plaintiff
has failed to adequately allege that such avenues of
relief have been exhausted or are inadequate. Thus,
Plaintiff has failed to satisfy the exhaustion
requirement for a takings claim. See Smith v. Cty. of
Santa Cruz, 2014 WL 1118014, at *5 (N.D. Cal. Mar.
19, 2014) (dismissing takings claim where the plaintiff
failed to adequately allege that it had exhausted state
law remedies).
Accordingly, the Court GRANTS the City’s Motion
to Dismiss Plaintiff’s declaratory relief cause of action
to the extent it relies on a Takings Clause theory of
relief. The Court grants leave to amend because
Plaintiff may be able to allege facts that demonstrate
that state remedies have been exhausted or are
inadequate.

App. 53
2. Substantive Due Process
Plaintiff alleges that the City’s denial of a license to
collect construction and demolition debris was
“arbitrary and capricious,” and thus violates the
requirements of substantive due process. Plaintiff
asserts violations of substantive due process under
both the Fifth Amendment and Fourteenth
Amendment. See Compl. ¶¶ 26–27. However, the Fifth
Amendment’s Due Process Clause only applies to the
federal government. Bingue v. Prunchak, 512 F.3d
1169, 1174 (9th Cir. 2008). Because Defendant is not a
federal actor, the Court GRANTS the City’s Motion to
Dismiss Plaintiff’s Fifth Amendment due process
theory of relief with prejudice. However, the
Fourteenth Amendment has its own guarantee of due
process against state action equivalent to the Fifth
Amendment’s provisions against the federal
government. See Betts v. Brady, 316 U.S. 455, 462
(1942), overruled on other grounds by Gideon v.
Wainwright, 372 U.S. 335 (1963). Thus, the Court
analyzes Fourteenth Amendment substantive due
process theory of relief.
“Substantive due process protects individuals from
arbitrary deprivation of their liberty by government.”
Brittain v. Hansen, 451 F.3d 982, 991 (9th Cir. 2006).
Substantive due process is violated by “executive abuse
of power . . . which shocks the conscience.” Id. at 846;
accord Costanich v. Dep’t of Soc. & Health Servs., 627
F.3d 1101, 1111 (9th Cir. 2010). “Substantive due
process cases typically apply strict scrutiny in the case
of a fundamental right and rational basis review in all
other cases.” Witt v. Dep’t of Air Force, 527 F.3d 806,

App. 54
817 (9th Cir. 2008). “When a fundamental right is
recognized, substantive due process forbids the
infringement of that right ‘at all, no matter what
process is provided, unless the infringement is
narrowly tailored to serve a compelling state interest.’”
Id. (quoting Reno v. Flores, 507 U.S. 292, 301–02 (1993)
(emphasis omitted)). Fundamental interests that
warrant strict scrutiny include the right to marry and
the right to vote, among others. See, e.g., Kramer v.
Union Free Sch. Dist. No. 15, 395 U.S. 621, 627–28
(1969) (recognizing right to vote as fundamental right);
Loving v. Virginia, 388 U.S. 1, 12 (1967) (“Marriage is
one of the ‘basic civil rights of man,’ fundamental to our
very existence and survival”).
In other cases not involving fundamental rights
where rational basis review applies, “the Court
determines whether governmental action is so
arbitrary that a rational basis for the action cannot
even be conceived post hoc.” Witt, 527 F.3d at 817.
Indeed, “[w]hen executive action like a discrete
permitting decision is at issue, only ‘gregious official
conduct can be said to be arbitrary in the constitutional
sense’: it must amount to an ‘abuse of power’ lacking
any ‘reasonable justification in the service of a
legitimate governmental objective.’” Shanks v. Dressel,
540 F.3d 1082, 1088 (9th Cir. 2008) (quoting Cty. of
Sacramento v. Lewis, 523 U.S. 833, 846 (1998)). Indeed,
even “[o]fficial decisions that rest on an erroneous legal
interpretation are not necessarily constitutionally
arbitrary.” Id.
Plaintiff asserts that its “right to labor” has been
violated here. Opp’n at 15. The United States Supreme

App. 55
Court has held that the “liberty component of the
Fourteenth Amendment’s Due Process Clause includes
some generalized due process right to choose one’s field
of private employment, but a right which is
nevertheless subject to reasonable government
regulation.” Conn v. Gabbert, 526 U.S. 286, 292 (1999).
Cases identifying a violation of such a right “all deal
with a complete prohibition of the right to engage in a
calling[.]” Id. However, even where the “right to labor”
has been violated, the right to choose one’s chosen
profession is not a “fundamental right” within the
meaning of the Due Process Clause, and thus is not
subject to strict scrutiny. Therefore, this Court will
apply rational basis review. See Dittman v. California,
191 F.3d 1020, 1030 (9th Cir. 1999) (applying rational
basis review to claim based on “right to choose one’s
field of private employment”).
Here, Plaintiff was denied a license to transport
construction and demolition debris in the City.
However, Plaintiff was not denied the right to be a
hauler of construction and demolition debris in all
instances. The complaint alleges that Plaintiff is based
in Santa Clara County, not in Sunnyvale in particular.
Indeed, Plaintiff fails to allege what portion of its
business, if any, has been eliminated by the City’s
decision. Moreover, Plaintiff does not allege that it is
precluded from hauling construction and demolition
debris in other locations in Santa Clara County or
elsewhere. See Novin v. Fong, 2014 WL 6956923, at *8
(N.D. Cal. Dec. 8, 2014) (denying substantive due
process claim because the plaintiff “was not denied the
right to be a car dealer in all instances, he was only
denied a permit applicable to Novin’s Property”).

App. 56
Accordingly, Plaintiff has failed to adequately allege
that Plaintiff’s right to engage in the construction and
demolition waste collection profession was entirely
eliminated, or to what extent it was even abridged, by
the Exclusive Franchise Agreement. See Conn, 526
U.S. at 292 (holding that the right to labor only violates
due process where there was a “complete prohibition of
the right to engage in a calling”).
Even if Plaintiff’s “right to labor” was violated to
some extent, under rational basis review, Plaintiff has
failed to allege facts that show that the City’s Exclusive
Franchise Agreement and denial of Plaintiff’s permit
application are “so arbitrary that a rational basis for
the action cannot even be conceived post hoc.” Witt, 527
F.3d at 817. Indeed, as discussed below, the
constitutional and statutory scheme and relevant case
law show that the Exclusive Franchise Agreement and
the permit denial have a rational basis.
The California Constitution provides that “[a]
county or city may make and enforce within its limits
all local, police, sanitary, and other ordinances and
regulations not in conflict with general laws.” Cal.
Const. art. XI, § 7 (emphasis added). The Waste
Management Act provides that the City has discretion
to grant exclusive franchises as “public health, safety,
and well-being so require.” Cal. Pub. Res. Code
§ 40059(a)(2). The City has passed a municipal code
with the purpose of “promot[ing] the public health,
welfare and safety of the community by establishing
reasonable regulations relating to the . . . collection and
disposal of garbage, trash, rubbish, debris and other
discarded matter, goods and material, and recyclable

App. 57
materials.” Sunnyvale Mun. Code § 8.16.010. Pursuant
to that purpose, the Sunnyvale Municipal Code
requires the Sunnyvale City Council to “provide for the
collection and disposal of solid waste and recyclable
materials generated from residences within the city by
the issuance of a franchise or license, or franchises and
licenses, to disposal service operators.” Id. § 8.16.090.
Under these provisions, the Sunnyvale City Council
has entered an Exclusive Franchise Agreement with
Bay Counties for the collection of solid waste, as
codified in multiple ordinances. See, e.g., ECF No. 17-1
at 39, Sunnyvale Ordinance No. 2771-04 (extending
exclusive franchise agreement). The Sunnyvale City
Council has expressly found that the adequate
collection of solid waste is essential for “public health,
safety and well-being” and that the Exclusive
Franchise Agreement with Bay Counties is “in the best
interest of City and its residents.” Franchise Agmt. at
9.
Courts have explicitly described why a
municipality’s use of an exclusive franchise for waste
collection is a rational choice that is neither arbitrary
nor capricious. Exclusive franchise agreements for
waste collection provide “economic advantages accruing
from exclusivity [that] result in lower charges (for
residential as opposed to commercial users) and
increased efficiency in a number of programs (e.g., a
curbside recycling program) that benefit refuse
producers.” Waste Res. Techs. v. Dep’t of Pub. Health,
23 Cal. App. 4th 299, 310 (1994). Moreover, exclusive
franchises are “rationally related to public health and
environmental concerns, as it facilitates efficient

App. 58
regulation of potentially hazardous activities.” G. Fruge
Junk Co. v. City of Oakland, 637 F. Supp. 422, 425
(N.D. Cal. 1986) (denying substantive due process and
equal protection challenges to exclusive franchise
agreement). Indeed, the use of a single waste collector
allows a municipality to “protect[] against the hazards
of indiscriminate or unsafe waste disposal.” Waste
Mgmt. of Alameda Cty., Inc. v. Biagini Waste Reduction
Sys., Inc., 74 Cal. Rptr. 2d 676, 683 (1998). Without an
exclusive franchise, a competitive “race to the bottom”
with respect to waste collection may occur, in which
competing waste collectors cut corners to the detriment
of public health. Id.
Additionally, more than one waste collector would
mean more large trucks in the City, and “routine
operation of large trucks in residential areas and in a
municipality’s central traffic arteries creates
substantial safety and traffic concerns.” Phillip
O’Connell & Terri Esparza, The Golden Dustman in the
Golden State: Exclusive Contracts for Solid Waste
Collection and Disposal in California, 32 URB. LAW.
281, 287 (2000). These concerns are sufficiently
important that at least one court has noted that “most
local governments in California have opted for
exclusive garbage collection arrangements.” Waste Res.
Techs., 23 Cal. App. 4th at 309 (noting “that the
practice is indeed widespread”).
Given these strong local concerns and the discretion
provided to the City, Plaintiff has failed to allege that
the City’s decision to provide an exclusive franchise to
Bay Counties, and thus to deny Plaintiff’s license
application, is arbitrary and capricious. In fact, an

App. 59
exclusive franchise in waste collection is rationally
related to “legitimate governmental objective[s]” such
as efficient garbage collection, public health, and safety
of residents.
Moreover, the City’s letter denying Plaintiff’s
license application provides another rational reason
why the license was denied. In its permit application,
Plaintiff asserted that over “70% of all [construction
and demolition] discards collected by [Plaintiff] are put
back into the stream of commerce.” Compl. at 21. In
response, the City noted that 78% of its construction
and demolition materials are put back into the stream
of commerce. Id. at 24. Thus, the fact that Plaintiff is
not as efficient as the City’s current waste collector is
another rational basis for not allowing Plaintiff to
collect construction and demolition debris within the
City.
Accordingly, the Court GRANTS the City’s Motion
to Dismiss Plaintiff’s declaratory relief cause of action
to the extent it is based on substantive due process.
The Court provides leave to amend because Plaintiff
may be able to plead facts that show arbitrary and
capricious state action.
3. Equal Protection
Plaintiff alleges a violation of equal protection
under the United States Constitution and the
California Constitution. “The Equal Protection Clause
of the Fourteenth Amendment commands that no State
shall ‘deny to any person within its jurisdiction the
equal protection of the laws,’ which is essentially a
direction that all persons similarly situated should be

App. 60
treated alike.” City of Cleburne v. Cleburne Living Ctr.,
Inc., 473 U.S. 432, 439 (1985) (quoting Plyler v. Doe,
457 U.S. 202, 216 (1982)).5 Consequently, “[t]he equal
protection clause forbids the establishment of laws
which arbitrarily and unreasonably create dissimilar
classifications of individuals when, looking to the
purpose of those laws, such individuals are similarly
situated. It also forbids unequal enforcement of valid
laws, where such unequal enforcement is the product
of improper motive.” Williams v. Field, 416 F.2d 483,
486 (9th Cir. 1969) (citing Yick Wo v. Hopkins, 118 U.S.
356 (1886), and People v. Harris, 5 Cal. Rptr. 852 (Cal.
App. Dep’t Super. Ct. 1960)). However, “government
actions that do not affect fundamental rights or liberty
interests and do not involve suspect classifications will
be upheld if they are rationally related to a legitimate
state interest.” Fields v. Palmdale Sch. Dist., 427 F.3d
1197, 1209 (9th Cir. 2005) (as amended).
Even if a plaintiff does not allege that he or she is
part of a class or group of persons that is suffering
discrimination, the United States Supreme Court has
“recognized successful equal protection claims brought

5

The California Constitution states that “[a] person may not be
deprived of life, liberty, or property without due process of law or
denied equal protection of the laws.” Cal. Const. art. I, §7. The
Court considers Plaintiff’s equal protection theory of relief under
the United States Constitution and the California Constitution
together because “equal protection under the California
Constitution is ‘substantially the equivalent of the equal protection
clause of the Fourteenth Amendment to the United States
Constitution.’” Kimco Staffing Servs., Inc. v. California, 236 Cal.
App. 4th 875, 884 (2015) (quoting Manduley v. Superior Court, 27
Cal. 4th 537, 571 (2002)) (internal quotation marks omitted).

App. 61
by a ‘class of one,’ where the plaintiff alleges that she
has been intentionally treated differently from others
similarly situated and that there is no rational basis for
the difference in treatment.” Vill. of Willowbrook v.
Olech, 528 U.S. 562, 564 (2000) (per curiam). However,
such claims are “constrained” to avoid “provid[ing] a
federal cause of action or review of almost every
executive or administrative government decision.”
Engquist v. Or. Dep’t of Agric., 478 F.3d 985, 993 (9th
Cir. 2007). Thus, if a “class of one” equal protection
claim is brought, the Plaintiff must plead with
specificity the “similarly situated group” that is treated
differently. Andy’s BP, Inc. v. City of San Jose, 2013
WL 485657, at *5 (N.D. Cal. Feb. 6, 2013), aff’d, 605 F.
App’x 617 (9th Cir. 2015) (citation omitted).
Whether Plaintiff asserts a traditional
classification-based equal protection claim or a “class of
one” equal protection claim, rational basis review
applies here. Plaintiff only asserts a “right to labor,”
which is not a fundamental right or liberty interest, see
Conn, 526 U.S. at 291–92 (holding that the “Due
Process Clause includes some generalized due process
right to choose one’s field of private employment, but a
right which is nevertheless subject to reasonable
government regulation”), and fails to allege the
existence of any suspect classification. Accordingly,
rational basis review applies. Plaintiff does not
challenge the application of rational basis review.
Plaintiff’s complaint “contends that it has been
discriminated against in [the] City’s grants of disposal
service operator franchises and licenses in violation of
the [E]qual [P]rotection [C]lause in the 14th

App. 62
Amendment of the United States Constitution and
Article I, Section 7 of the California Constitution.”
Compl. ¶31. Plaintiff’s complaint and opposition are
not clear as to whether Plaintiff is pursuing a “class of
one” claim or whether Plaintiff is pursuing a
traditional classification-based equal protection claim.
However, under either type of equal protection claim,
Plaintiff has failed to adequately allege that
(1) Plaintiff is similarly situated to a group that is
treated differently, or (2) that the City’s actions are not
“rationally related to a legitimate state interest,”
Palmdale, 427 F.3d at 1209.
First, Plaintiff fails to allege that Plaintiff is
similarly situated to any other group that has been
awarded a franchise or license. See Williams, 416 F.2d
at 485–86 (requiring the plaintiff to be similarly
situated with others seeking the same benefit). The
only party that has been awarded a franchise or license
by the City is Bay Counties, the exclusive franchisee.
However, Plaintiff’s complaint does not allege that
Plaintiff and Bay Counties are similarly situated.
Indeed, they are in quite different positions because
Bay Counties collects all of the solid waste in the City,
while Plaintiff solely wants to collect some construction
and demolition debris. Moreover, Plaintiff and Bay
Counties are also not similarly situated because, as
discussed above, Plaintiff asserted that it returns over
70% of all construction and demolition debris to
interstate commerce while the City through Bay
Counties returns 78% of construction and demolition
debris to interstate commerce. Compl. at 21. Therefore,
Plaintiff has failed to adequately allege that he was
treated differently from a similarly situated applicant.

App. 63
Second, Plaintiff has not adequately alleged that the
government’s denial of its franchise or license
application is not “rationally related to a legitimate
state interest.” Palmdale, 427 F.3d at 1209. Under
rational basis review, Plaintiff’s allegations are
insufficient. As discussed in depth in the substantive
due process section above, the grant of an exclusive
franchise and the denial of Plaintiff’s license
application are rationally related to the City’s interest
in maintaining the safe and efficient provision of solid
waste collection services. See Waste Res. Techs., 23 Cal.
App. 4th at 310 (holding that exclusive franchises
provide “economic advantages accruing from exclusivity
[that] result in lower charges . . . and increased
efficiency”); G. Fruge Junk Co., 637 F. Supp. at 425
(denying equal protection claim because exclusive
franchises are “rationally related to public health and
environmental concerns, as it facilitates efficient
regulation of potentially hazardous activities.”).
Plaintiff’s complaint does not allege any facts that show
that these benefits of an exclusive franchise agreement
are not rationally related to maintaining an exclusive
franchise in waste collection. Accordingly, Plaintiff has
failed to allege that the City had no rational basis to
deny Plaintiff’s franchise or license application. See
Palmdale, 427 F.3d at 1208–11 (granting motion to
dismiss on equal protection claim after considering
rational bases to uphold the law).
In Plaintiff’s opposition, Plaintiff argues that an
equal protection violation occurred based on Ex parte
Lyons, 27 Cal. App. 2d 182 (1938). In Lyons, the
California Court of Appeal held that there was no
rational basis for an Orange County ordinance that

App. 64
precluded the transportation of garbage generated in
other counties into Orange County. Id. at 188. The
Lyons court stated that, “ton for ton,” there was no
“more risk to public health in the handling or
transporting on public roads of garbage originating in
one locality than that originating in another.” Id. at
189. Moreover, even though 29 tons of waste were
generated within Orange County and 200 tons of waste
were transported into Orange County at the time of the
ordinance’s enactment, the limitation on the amount of
waste being transported into the County did not
provide a rational basis because it did not place any
limits on the amount of waste within Orange County
itself.6 Id.
Lyons is inapposite. Lyons involves the question of
whether it is discriminatory to entirely preclude the
transportation of waste from outside a county into that
county because the waste from either location is
indistinguishable. Here, the question is whether there
was a rational basis to establish an exclusive franchise
in the collection of solid waste, and thus deny Plaintiff’s
application for a franchise or license to collect
construction and demolition debris. These cases are
only similar in that they involve waste and an equal
protection analysis. Lyons does not show that Plaintiff
was similarly situated with any other group or
individuals or that the City lacks a rational basis.
Based on Lyons, Plaintiff argues that “[j]ust as
Lyons found no justifiable distinction between the

6

The Court need not reach whether the Lyons decision was
correctly decided.

App. 65
garbage of two counties, there is likewise no
justification in this case of treating the mixed
[construction and demolition debris] collected by
Plaintiff and the garbage collected by the City’s
franchisee in the same way.” Opp’n at 22. However, the
Equal Protection Clause does not protect against things
that are different being treated the same. As noted
above, equal protection only provides a means for relief
if individuals are similarly situated, but are
irrationally treated differently. See Williams, 416 F.2d
at 485–86 (requiring the plaintiff to be similarly
situated with others seeking the same benefit).
Therefore, the Court GRANTS the City’s Motion to
Dismiss Plaintiff’s declaratory relief cause of action to
the extent it is based on the Equal Protection Clauses
of the federal and California constitutions. The Court
provides leave to amend because Plaintiff may be able
to plead facts that state an equal protection claim.
4. Dormant Commerce Clause
Plaintiff also argues that the Exclusive Franchise
Agreement violates the dormant Commerce Clause.
The Commerce Clause of the United States
Constitution provides: “The Congress shall have Power
. . . [t]o regulate Commerce . . . among the several
States.” U.S. Const. Art. I, § 8, cl. 3. The United States
Supreme Court has interpreted the Commerce Clause
“to have a ‘negative’ aspect that denies the States the
power unjustifiably to discriminate against or burden
the interstate flow of articles of commerce.” Or. Waste
Sys., Inc. v. Dep’t of Envtl. Quality, 511 U.S. 93, 98
(1994). “Courts have sometimes referred to this
doctrine as the ‘dormant Commerce Clause.’” Black

App. 66
Star Farms LLC v. Oliver, 600 F.3d 1225, 1230 (9th
Cir. 2010) (quoting United Haulers Ass’n v.
Oneida–Herkimer Solid Waste Mgmt. Auth., 550 U.S.
330, 338 (2007)). Under the dormant Commerce
Clause, a state may not impede the flow of goods
between the states and engage in “economic
protectionism,” which includes enacting regulations
“designed to benefit in-state economic interests by
burdening out-of-state competitors.” New Energy Co. v.
Limbach, 486 U.S. 269, 273 (1988). However, the
dormant Commerce Clause does not protect the
particular structure or methods of operation in a retail
market, nor does it protect any particular interstate
business. Exxon Corp. v. Governor of Md., 437 U.S. 117,
127–28 (1978) (“[T]he [Commerce] Clause protects the
interstate market, not particular interstate firms, from
prohibitive or burdensome regulations.”).
Two levels of scrutiny exist for analyzing statutes
challenged under the dormant Commerce Clause.
Maine v. Taylor, 477 U.S. 131, 138 (1986) (“[T]his
Court has distinguished between state statutes that
burden interstate transactions only incidentally, and
those that affirmatively discriminate against such
transactions.”). The higher level of scrutiny applies to
a statute that “discriminate[s] against interstate
commerce ‘either on its face or in practical effect.’” Id.
(quoting Hughes v. Oklahoma, 441 U.S. 322, 336
(1979)). For the purposes of the dormant Commerce
Clause analysis, “discrimination” means “differential
treatment of instate and out-of-state economic interests
that benefits the former and burdens the latter.” Or.
Waste, 511 U.S. at 99. The “differential treatment”
must be as between persons or entities who are

App. 67
“similarly situated.” Gen. Motors Corp. v. Tracy, 519
U.S. 278, 298–99 (1997). A court must analyze such a
statute under the “strictest scrutiny.” Hughes, 441 U.S.
at 337. That is, such a statute is unconstitutional
unless it “‘serves a legitimate local purpose,’ and . . .
this purpose could not be served as well by available
nondiscriminatory means.” Maine, 477 U.S. at 138
(quoting Hughes, 441 U.S. at 336). The party
challenging the statute bears the burden of showing
discrimination. Hughes, 441 U.S. at 336 (“The burden
to show discrimination rests on the party challenging
the validity of the statute.”).
A state law which does not discriminate against
interstate commerce, but still “burden[s] interstate
transactions [] incidentally” may still violate the
dormant Commerce Clause if the law fails the Pike
balancing test. Maine, 477 U.S. at 138; Pike v. Bruce
Church, 397 U.S. 137, 142 (1970) (setting forth the Pike
balancing test). Under the Pike balancing test, a law
that applies evenhandedly to in-state and out-of-state
entities and only incidentally burdens interstate
commerce is valid unless it burdens commerce in a way
that is “clearly excessive in relation to the putative
local benefits” to be derived therefrom. Pike, 397 U.S.
at 142. The party challenging the constitutionality of
the statute has the burden of showing that the statute
fails the Pike balancing test. See Kleenwell Biohazard
Waste & Gen. Ecology Consultants v. Nelson, 48 F.3d
391, 399 (9th Cir. 1995) (placing the burden on the
“party challenging the regulation”).
The Court first addresses whether Plaintiff has
adequately alleged discrimination against interstate

App. 68
commerce, and then discusses whether Plaintiff has
adequately alleged a burden on interstate commerce
that survives the Pike balancing test.
a. Discrimination Against Interstate
Commerce
Plaintiff alleges that the “City’s policy of granting
an exclusive franchise that includes recyclable
materials that have a market value and are sold within
interstate commerce, interferes with interstate
commerce excessively in relation to the putative local
benefits to [the] City.” Compl. ¶ 25. Plaintiff’s
allegation does not identify what market in interstate
commerce has been burdened or how it has been
burdened.
Regardless, in Plaintiff’s opposition, Plaintiff argues
that the Exclusive Franchise Agreement is a “flow
control ordinance” proscribed under C & A Carbone v.
Town of Clarkstown, 511 U.S. 383 (1994). In Carbone,
the United States Supreme Court addressed whether
the dormant Commerce Clause precluded a municipal
“flow control ordinance” that required all recyclables,
whether those recyclables were to remain in-state or
sent out-of-state, to be processed at a single designated
local transfer station operated by a local company. Id.
at 389–90. The transfer station charged a “tipping fee”
that caused the use of the station to be more expensive
than other in-state and out-of-state transfer stations.
Id. Moreover, the processing of the recyclables at the
transfer station could only be done by a favored local
operator. Id.

App. 69
The Carbone court compared this flow control
ordinance to South-Central Timber Development, Inc.
v. Wunnicke, 467 U.S. 82 (1984), in which the United
States Supreme Court struck down “an Alaska
regulation that required all Alaska timber to be
processed within the State prior to export.” Id. at 84.
The Carbone court noted that “[t]he essential vice in
laws of this sort is that they bar the import of the
processing service” and thus, “hoard a local
resource—be it meat, shrimp, or milk—for the benefit
of local businesses that treat it.” Carbone, 511 U.S. at
392. The Carbone court held that “[t]he flow control
ordinance has the same design and effect. It hoards
solid waste, and the demand to get rid of it, for the
benefit of the preferred processing facility.” Id.
After Carbone, there have been multiple challenges
to exclusive franchise agreements for the hauling or
collection of waste, like the Exclusive Franchise
Agreement in this case. However, courts have
consistently rejected such challenges. See Houlton, 175
F.3d 178 (upholding exclusive franchise agreement for
waste hauling); USA Recycling, Inc. v. Town of
Babylon, 66 F.3d 1272 (2d Cir. 1995) (same); S. Waste
Sys., LLC. v. City of Delray Beach, 420 F.3d 1288, 1290
(11th Cir. 2005) (same); Biagini, 63 Cal. App. 4th 1488
(same); Barker Sanitation v. City of Neb. City, Neb.,
2003 WL 24275215, at *8–12 (D. Neb. Nov. 4, 2003),
aff’d, 102 F. App’x 514 (8th Cir. 2004) (same).
These cases point out that unlike Carbone, an
exclusive franchise agreement with a single provider to
collect a municipality’s waste does not actually limit or
direct the flow of waste in interstate commerce. See

App. 70
Biagini, 63 Cal. App. 4th at 1496–97 (holding that the
franchise agreement for collecting waste was “not a
flow control ordinance of the nature condemned in
Carbone”). Here, although Plaintiff argues that an
exclusive agreement to haul waste is a “flow control
ordinance” like in Carbone, the Exclusive Franchise
Agreement here does not actually direct how the waste
or recyclable materials will move in interstate
commerce. Plaintiff’s complaint contains no allegation
that out-of-state processors of waste or companies that
wish to purchase recyclables are prevented from
offering their services or face higher costs or burdens as
a result of the Exclusive Franchise Agreement with
Plaintiff. Indeed, once waste is collected by Bay
Counties, Plaintiff does not allege that here is any
limitation on Bay Counties’ ability to sell or process the
waste through out-of-state businesses. Thus, Plaintiff
has not adequately alleged that the arrangement here
is a “flow control ordinance” of the type discussed in
Carbone.
Although the Exclusive Franchise Agreement does
not limit the flow of waste or recyclable materials in
interstate commerce, the Exclusive Franchise
Agreement does prevent out-of-state (as well as other
in-state) waste collectors from collecting solid waste in
the City. However, such a contractual arrangement
does not necessarily implicate the dormant Commerce
Clause. In Houlton, the First Circuit held that “if local
legislation leaves all comers with equal access to the
local market, it does not offend the dormant Commerce
Clause.” Houlton, 175 F.3d at 188 (citing CTS Corp. v.
Dynamics Corp. of Am., 481 U.S. 69, 94 (1987)). The
Houlton court concluded that if in-state and out-of-

App. 71
state waste collectors “are allowed to compete freely on
a level playing field [for the exclusive franchise], there
is no cause for constitutional concern.” Id.; Delray
Beach, 420 F.3d at 1291 (“The Commerce Clause
forbids only the promotion of local economic interests
over out-of-state interests. It does not forbid exclusive
franchise agreements whereby a city selects one waste
hauler to provide basic waste collection services to its
citizens, so long as the bidding process is open to all,
and there is no requirement that local interests be
favored in the performance of the contract.”); see also
Biagini, 63 Cal. App. 4th at 1497 (“The ordinance also
treats identically local and out-of-state garbage haulers
. . . both may compete to obtain the exclusive franchise
presently awarded to respondent.”).
Here, Plaintiff’s complaint contains no allegation
that out-of-state providers were barred or
disadvantaged in the City’s process of selecting the
exclusive solid waste collection provider for the City.
Indeed, the Exclusive Franchise Agreement itself
states that “[t]he City Council has evaluated all
proposals submitted and has determined that
Contractor has proposed to provide such services in a
manner and on the terms which are in the best interest
of City and its residents, taking into account the
qualifications and experience of Contractor in the
collection of solid waste and the cost of providing such
services.” Franchise Agmt. at 9. Moreover, to the extent
that parties such as Plaintiff are precluded from
collecting solid waste in addition to the exclusive
franchisee for the City, that limitation is placed on instate and out-of-state parties equally, and thus does
not discriminate against out-of-state businesses. Thus,

App. 72
Plaintiff’s complaint does not adequately allege that
the process of awarding the franchise was
discriminatory against out-of-state interests or that it
burdens interstate commerce.
Thus, because Plaintiff has not alleged that the
Exclusive Franchise Agreement discriminates—or even
burdens—interstate commerce, heightened scrutiny
under the dormant Commerce Clause does not apply.
b. The Pike Balancing Test
The Court next addresses whether Plaintiff has
stated a claim for violation of the dormant Commerce
Clause under the balancing test set forth in Pike.
Under Pike, a law that applies evenhandedly to in-state
and out-of-state entities and only incidentally burdens
interstate commerce is valid unless it burdens
commerce in a way that is “clearly excessive in relation
to the putative local benefits” to be derived therefrom.
Pike, 397 U.S. at 142. Plaintiff has the burden of
showing that the burdens on commerce are “clearly
excessive.” Id.
Plaintiff has failed to satisfy its burden, even at the
motion to dismiss stage. As noted above, Plaintiff’s
complaint alleges that the “City’s policy of granting an
exclusive franchise that includes recyclable materials
that have a market value and are sold within interstate
commerce, interferes with interstate commerce
excessively in relation to the putative local benefits to
[the] City.” Compl. ¶ 25. This conclusory allegation
does not indicate what incidental burdens are placed on
interstate commerce. As discussed in the
discrimination section above, Plaintiff’s complaint fails

App. 73
to allege a burden on out-of-state waste processors or
purchasers of recyclables. Further, Plaintiff’s complaint
fails to allege any burden on out-of-state waste
collectors because the complaint contains no allegation
that out-of-state interests cannot compete on an equal
playing field with in-state waste collectors for the
exclusive franchise. See Green Sols. Recycling, LLC v.
Refuse, Inc., 2017 WL 1136664, at *3 (D. Nev. Mar. 27,
2017) (dismissing dormant Commerce Clause claim
where the plaintiff failed to allege “how the Agreement
burdens interstate commerce”).
In Plaintiff’s opposition, Plaintiff does not identify
a burden to interstate commerce, but solely argues that
an exclusive franchise “has no putative local benefit
except possibly lower garbage collection rates,” which
Plaintiff asserts is “simple economic protectionism.”
Opp’n at 24. As a result, Plaintiff argues that there is
“almost a per se invalidity of the ordinance.” Id.
However, as discussed in the substantive due process
and equal protection sections above, the exclusive
franchise is granted not only for inexpensive garbage
collection services for local residents, but for the
purpose of guaranteeing public health and safety as
well as the efficient collection of solid waste. See
Biagini, 63 Cal. App. 4th at 1499 (“The regulation of
solid waste collection by granting an exclusive
franchise right is a proper exercise of the municipality’s
police power, and serves an important public interest
by protecting against the hazards of indiscriminate or
unsafe waste disposal.”). Thus, because Plaintiff has
failed to allege a burden to interstate commerce, and
public health and safety rationales support the
exclusive franchise, Plaintiff has failed to allege a

App. 74
violation of the dormant Commerce Clause. See
Houlton, 175 F.3d at 189 (“In light of the strong local
interest in efficient and effective waste management
and the virtually invisible burden that the Town’s
scheme places on interstate commerce, Houlton passes
[the Pike] test with flying colors.”).
Accordingly, the Court GRANTS Defendant’s
motion to dismiss Plaintiff’s declaratory relief cause of
action to the extent it is based on the dormant
Commerce Clause. The Court provides leave to amend
because Plaintiff may be able to plead facts that show
a burden to interstate commerce.
5. Remaining State Law Theories
Plaintiff’s remaining theories of relief are based on
state law. Plaintiff argues two state law theories of
relief, namely: (1) that the City uses the wrong
definition of solid waste under California law, and
(2) that the City violated California Public Resources
Code § 40059.
“[T]he Declaratory Judgment Act does not by itself
confer federal subject-matter jurisdiction.” Nationwide
Mut. Ins. Co. v. Liberatore, 408 F.3d 1158, 1161 (9th
Cir. 2005). Before declaratory relief may be granted,
federal subject matter jurisdiction requirements must
be satisfied. Skelly Oil Co. v. Phillips Petroleum Co.,
339 U.S. 667, 671 (1950) (requiring independent
subject matter jurisdiction on a declaratory relief cause
of action).
A federal court may exercise supplemental
jurisdiction over state law claims “that are so related to
claims in the action within [the court’s] original

App. 75
jurisdiction that they form part of the same case or
controversy under Article III of the United States
Constitution.” 28 U.S.C. § 1367(a). Conversely, a court
may decline to exercise supplemental jurisdiction
where it “has dismissed all claims over which it has
original jurisdiction.” 28 U.S.C. § 1367(c)(3); see also
Albingia Versicherungs A.G. v. Schenker Int’l, Inc., 344
F.3d 931, 937–38 (9th Cir. 2003) (as amended) (holding
that Section 1367(c) grants federal courts the discretion
to dismiss state law claims when all federal claims
have been dismissed). In considering whether to retain
supplemental jurisdiction, a court should consider
factors such as “economy, convenience, fairness, and
comity.” Acri v. Varian Assocs., 114 F.3d 999, 1001 (9th
Cir. 1997) (en banc) (citations and internal quotation
marks omitted). However, “in the usual case in which
all federal-law claims are eliminated before trial, the
balance of factors . . . will point toward declining to
exercise jurisdiction over the remaining state law
claims.” Exec. Software N. Am., Inc. v. U.S. Dist. Court,
24 F.3d 1545, 1553 n.4 (9th Cir. 1994) (emphasis
omitted), overruled on other grounds by Cal. Dep’t of
Water Res. v. Powerex Corp., 533 F.3d 1087 (9th Cir.
2008).
Here, the factors of economy, convenience, fairness,
and comity support dismissal of Plaintiff’s remaining
state law theories of relief. This case is still at the
pleading stage, and no discovery has taken place.
Federal judicial resources are conserved by dismissing
the state law theories of relief at this stage. The Court
finds that dismissal promotes comity as it enables
California courts to interpret questions of state law.
Moreover, the fact that this case is brought under the

App. 76
federal declaratory judgment act does not affect this
result. See Anbar v. Deutsche Bank Nat. Trust Co.,
2013 WL 5937274, at *3 (S.D. Cal. Nov. 4, 2013)
(declining supplemental jurisdiction on declaratory
judgment cause of action).
Under similar circumstances, in Houlton, after the
First Circuit found that the defendant’s exclusive
franchise agreement was not prohibited under the
Takings Clause or the dormant Commerce Clause, the
First Circuit discussed a claim that the exclusive
franchise agreement was invalid under the town
charter. Houlton, 175 F.3d at 192. The First Circuit
noted that the district court “should not have ventured
to adjudicate the town charter claim,” and that
declining supplemental jurisdiction was the “option of
choice.” Id. The Court finds that similar logic applies to
Plaintiff’s state law theories of relief here. For these
reasons, the Court declines to exercise supplemental
jurisdiction over Plaintiffs’ state law theories of relief.
Accordingly, the Court GRANTS the City’s Motion
to Dismiss Plaintiff’s declaratory relief cause of action
to the extent it is based on Plaintiff’s state law theories
of relief. The Court provides leave to amend because
Plaintiff may be able to plead a federal theory of relief
that warrants the Court’s exercise of supplemental
jurisdiction.
B. Mandamus
Plaintiff asserts a claim for mandamus based on
state law. Plaintiff asserts that the City had a
mandatory duty to issue Plaintiff a license under
Sunnyvale Municipal Code § 8.16.090. The Court need

App. 77
not reach this issue because the Court declines
supplemental jurisdiction over this state law claim for
the same reason the Court declines supplemental
jurisdiction over Plaintiff’s declaratory relief cause of
action’s state law theories of relief. The factors of
economy, convenience, fairness, and comity support
dismissal of Plaintiff’s mandamus cause of action. See
Exec. Software, 24 F.3d at 1553 n.4 (“[I]n the usual case
in which all federal-law claims are eliminated before
trial, the balance of factors . . . will point toward
declining to exercise jurisdiction over the remaining
state law claims.”).
Accordingly, the Court GRANTS the City’s Motion
to Dismiss Plaintiff’s mandamus cause of action. The
Court provides leave to amend because Plaintiff may be
able to plead a federal theory of relief that warrants
the Court’s exercise of supplemental jurisdiction.
IV. CONCLUSION
For the foregoing reasons, the Court GRANTS the
City’s Motion to Dismiss. Should Plaintiffs elect to file
an amended complaint curing the deficiencies
identified herein, Plaintiffs shall do so within 30 days.
Failure to file an amended complaint within 30 days or
failure to cure the deficiencies identified in this Order
will result in dismissal with prejudice of the claims
dismissed in this Order. Plaintiffs may not add new
causes of actions, new theories of relief under its
declaratory relief cause of action, or new parties
without leave of the Court or stipulation of the parties
pursuant to Federal Rule of Civil Procedure 15.
IT IS SO ORDERED.

App. 78
Dated: June 16, 2017
/s/Lucy H. Koh
LUCY H. KOH
United States District Judge

App. 79

APPENDIX D
PUBLIC RESOURCES CODE - PRC
DIVISION 30. WASTE MANAGEMENT [40000 49620] (Division 30 added by Stats. 1989,
Ch. 1096, Sec. 2.)
PART 1. INTEGRATED WASTE MANAGEMENT
[40000 - 40511] (Part 1 added by Stats. 1989,
Ch. 1096, Sec. 2.)
CHAPTER 1. General Provisions [40000 - 40063]
(Chapter 1 added by Stats. 1989,
Ch. 1095, Sec. 22.)
ARTICLE 1. Findings and Declarations [40000 40004] (Article 1 added by Stats. 1989,
Ch. 1095, Sec. 22.)
40000. The Legislature hereby finds and declares all
of the following:
(a) In 1988, Californians disposed of over 38 million
tons of solid waste, an amount that is expected to grow
if existing solid waste policies are continued. This
amounts to more than 1,500 pounds of waste per
person living in the state, more than any other state in
the country and over twice the per-capita rate of most
other industrialized countries.
(b) Over 90 percent of California’s solid waste currently
is disposed of in landfills, some of which pose a threat
to groundwater, air quality, and public health.

App. 80
(c) While California will exhaust most of its remaining
landfill space by the mid-1990s, there presently is no
coherent state policy to ensure that the state’s solid
waste is managed in an effective and environmentally
sound manner for the remainder of the 20th century
and beyond.
(d) The amount of solid waste generated in the state
coupled with diminishing landfill space and potential
adverse environmental impacts from landfilling
constitutes an urgent need for state and local agencies
to enact and implement an aggressive new integrated
waste management program.
(e) The reduction, recycling, or reuse of solid waste
generated in the state will, in addition to preserving
landfill capacity in California, serve to conserve water,
energy, and other natural resources within this state,
and to protect the state’s environment.
(Amended by Stats. 2004, Ch. 183, Sec. 300. Effective
January 1, 2005.)
40001.
(a) The Legislature declares that the
responsibility for solid waste management is a shared
responsibility between the state and local governments.
The state shall exercise its legal authority in a manner
that ensures an effective and coordinated approach to
the safe management of all solid waste generated
within the state and shall oversee the design and
implementation of local integrated waste management
plans.
(b) The Legislature further declares that it is the policy
of the state to assist local governments in minimizing

App. 81
duplication of effort, and in minimizing the costs
incurred, in implementing this division through the
development of regional cooperative efforts and other
mechanisms which comply with this division.
(c) The Legislature further declares that market
development is the key to successful and cost-effective
implementation of the 25-percent and 50-percent
diversion requirements required pursuant to Section
41780, and that the state must take a leadership role,
pursuant to Chapter 1 (commencing with Section
42000) of Part 3, in encouraging the expansion of
markets for recycled products by working cooperatively
with the public, private, and nonprofit sectors.
(Amended by Stats. 1997, Ch. 672, Sec. 1. Effective
January 1, 1998.)
40002. (a) As an essential part of the state’s
comprehensive program for solid waste management,
and for the preservation of health and safety, and the
well-being of the public, the Legislature declares that
it is in the public interest for the state, as sovereign, to
authorize and require local agencies, as subdivisions of
the state, to make adequate provision for solid waste
handling, both within their respective jurisdictions and
in response to regional needs consistent with the
policies, standards, and requirements of this division
and all regulations adopted pursuant to this division.
This division, which authorizes and requires local
agencies to provide adequate solid waste handling and
services, and the actions of local agencies taken
pursuant to this division, are intended to implement
this state policy.

App. 82
(b) The Legislature further declares that restrictions on
the disposal of solid waste that discriminate on the
basis of the place of origin of the waste are an obstacle
to, and conflict with, statewide and regional policies to
ensure adequate and appropriate capacity for solid
waste disposal.
(Amended by Stats. 2012, Ch. 526, Sec. 1. (AB 845)
Effective January 1, 2013.)
40003. Nothing in this division abrogates, limits, or
otherwise affects the duties of the Department of
Conservation under the California Beverage Container
Recycling and Litter Reduction Act, Division 12.1
(commencing with Section 14500).
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40004. (a) The Legislature finds and declares all of the
following:
(1) Solid waste diversion and disposal reduction require
the availability of adequate solid waste processing and
composting capacity.
(2) The existing network of public and private solid
waste processing and composting facilities provides a
net environmental benefit to the communities served,
and represents a valuable asset and resource of this
state, one that must be sustained and expanded to
provide the additional solid waste processing capacity
that will be required to achieve the additional solid
waste diversion targets expressed in Section 41780.01

App. 83
and the commercial solid waste recycling requirement
expressed in Section 42649.
(3) The provisions in existing law that confer broad
discretion on local agencies to determine aspects of
solid waste handling that are of local concern have
significantly contributed to the statewide diversion rate
exceeding 50 percent, and further progress toward
decreasing solid waste disposal requires that this
essential element of local control be preserved.
(b) It is the intent of the Legislature to encourage the
development of the additional solid waste processing
and composting capacity that is needed to meet state
objectives for decreasing solid waste disposal by
identifying incentives for local governments to locate
and approve new or expanded facilities that meet and
exceed their capacity needs, and to recognize local
agencies that make significant contributions to the
state’s overall solid waste reduction and recycling
objectives through the siting of facilities for the
processing and composting of materials diverted from
the solid waste stream.
(c) By setting new commercial solid waste recycling
requirements in Section 42649, the Legislature does
not intend to limit a right afforded to local governments
pursuant to Section 40059, or to modify or abrogate in
any manner the rights of a local government or solid
waste enterprise with regard to a solid waste handling
franchise or contract.
(Added by Stats. 2011, Ch. 476, Sec. 2. (AB 341)
Effective January 1, 2012.)

App. 84
ARTICLE 2. General Provisions [40050 - 40063]
(Article 2 added by Stats. 1989,
Ch. 1095, Sec. 22.)
40050. This division shall be known and may be cited
as the California Integrated Waste Management Act of
1989.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40051. In implementing this division, the board and
local agencies shall do both of the following:
(a) Promote the following waste management practices
in order of priority:
(1) Source reduction.
(2) Recycling and composting.
(3) Environmentally safe transformation and environmentally safe land disposal, at the discretion of the city
or county.
(b) Maximize the use of all feasible source reduction,
recycling, and composting options in order to reduce
the amount of solid waste that must be disposed of by
transformation and land disposal. For wastes that
cannot feasibly be reduced at their source, recycled, or
composted, the local agency may use environmentally
safe transformation or environmentally safe land
disposal, or both of those practices.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)

App. 85
40052. The purpose of this division is to reduce,
recycle, and reuse solid waste generated in the state to
the maximum extent feasible in an efficient and
cost-effective manner to conserve water, energy and
other natural resources, to protect the environment, to
improve regulation of existing solid waste landfills, to
ensure that new solid waste landfills are
environmentally sound, to improve permitting
procedures for solid waste management facilities, and
to specify the responsibilities of local governments to
develop and implement integrated waste management
programs.
(Amended by Stats. 1993, Ch. 656, Sec. 1. Effective
October 1, 1993.)
40053. This division, or any rules or regulations
adopted pursuant thereto, is not a limitation on the
power of a city, county, or district to impose and
enforce reasonable land use conditions or restrictions
on solid waste management facilities in order to
prevent or mitigate potential nuisances, if the
conditions or restrictions do not conflict with or impose
lesser requirements than the policies, standards, and
requirements of this division and all regulations
adopted pursuant to this division.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40054. This division, or any rules or regulations
adopted pursuant thereto, is not a limitation on the
power of the Attorney General, on the request of the
board, the state water board, a regional water board, or
upon his or her own motion, to bring an action in the

App. 86
name of the people of the State of California to enjoin
any health hazard, pollution, or nuisance.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40055. (a) This division, or any rules or regulations
adopted pursuant thereto, is not a limitation on the
power of any state agency in the enforcement or
administration of any provision of law which it is
specifically authorized or required to enforce or
administer, including, but not limited to, the exercise
by the state water board or the regional water boards
of any of their powers and duties pursuant to Division
7 (commencing with Section 13000) of the Water Code,
the exercise by the Department of Toxic Substances
Control of any of its powers and duties pursuant to
Chapter 6.5 (commencing with Section 25100) of
Division 20 of the Health and Safety Code, and the
exercise by the State Air Resources Board or any air
pollution control district or air quality management
district of any of its powers and duties pursuant to
Division 26 (commencing with Section 39000) of the
Health and Safety Code.
(b) The exercise of authority under this division,
including, but not limited to, the adoption of
regulations, plans, permits, or standards or the taking
of any enforcement actions shall not duplicate or be in
conflict with any determination relating to water
quality control made by the state water board or
regional water boards, including requirements in
regulations adopted by or under the authority of the
state water board.

App. 87
(c) Any plans, permits, standards, or corrective action
taken under this division shall be consistent with all
applicable water quality control plans adopted
pursuant to Section 13170, and Article 3 (commencing
with Section 13240) of Chapter 4 of Division 7, of the
Water Code and the state policies for water quality
control adopted pursuant to Article 3 (commencing
with Section 13140) of Chapter 3 of Division 7 of the
Water Code existing at the time of the action or
proposed action.
(Amended by Stats. 1996, Ch. 1041, Sec. 4. Effective
January 1, 1997.)
40056. This division, or any rules or regulations
adopted pursuant thereto, is not a limitation on the
right of any person to commence and maintain at any
time any appropriate action for relief against a
nuisance as defined in the Civil Code.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40057. Each county, city, district, or other local
governmental agency which provides solid waste
handling services shall provide for those services,
including, but not limited to, source reduction,
recycling, composting activities, and the collection,
transfer, and disposal of solid waste within or without
the territory subject to its solid waste handling
jurisdiction.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)

App. 88
40058. The solid waste handling services shall be
provided for by one or any combination of the following:
(a) The furnishing of the services by the local agency
itself.
(b) The furnishing of the services by another local
agency.
(c) The furnishing of the services by a solid waste
enterprise.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40059. (a) Notwithstanding any other provision of law,
each county, city, district, or other local governmental
agency may determine all of the following:
(1) Aspects of solid waste handling which are of local
concern, including, but not limited to, frequency of
collection, means of collection and transportation, level
of services, charges and fees, and nature, location, and
extent of providing solid waste handling services.
(2) Whether the services are to be provided by means of
nonexclusive franchise, contract, license, permit, or
otherwise, either with or without competitive bidding,
or if, in the opinion of its governing body, the public
health, safety, and well-being so require, by partially
exclusive or wholly exclusive franchise, contract,
license, permit, or otherwise, either with or without
competitive bidding. The authority to provide solid
waste handling services may be granted under terms
and conditions prescribed by the governing body of the
local governmental agency by resolution or ordinance.

App. 89
(b) Nothing in this division modifies or abrogates in
any manner either of the following:
(1) Any franchise previously granted or extended by
any county or other local governmental agency.
(2) Any contract, license, or any permit to collect solid
waste previously granted or extended by a city, county,
or a city and county.
(Amended by Stats. 1990, Ch. 1355, Sec. 1. Effective
September 27, 1990.)
40059.1. (a) The Legislature hereby finds and declares
both of the following:
(1) In 1989, the Legislature enacted this division as the
California Integrated Waste Management Act of 1989.
One of the key provisions of this division is that each
local agency has the responsibility for diverting 50
percent of all solid waste generated within the local
agency by January 1, 2000.
(2) The public policy objective of the Legislature in
enacting this section is to ensure that those local
agencies that require an indemnity obligation retain
their responsibility for implementing the diversion
requirements of this division.
(b) For the purposes of this section, the following terms
have the following meanings:
(1) “Indemnity obligation” means any indemnity
obligation directly or indirectly related to the failure of
a local agency to meet the solid waste diversion
requirements imposed by Chapter 6 (commencing with

App. 90
Section 41780) of Part 2, that is expressly assumed by,
or imposed upon, the solid waste enterprise, whether
pursuant to ordinance, contract, franchise, license,
permit, or other entitlement or right, for the benefit of
the local agency.
(2) “Local agency” means any county, city, city and
county, district, regional agency as defined in Section
40181, or other local government agency.
(c) Any provision, term, condition, or requirement
contained in any ordinance, contract, franchise, license,
permit, or other entitlement or right adopted, entered
into, issued, or granted, as the case may be, by a local
agency for solid waste collection and handling,
including the recycling, processing, or composting of
solid waste, or in any request for bids or proposals in
connection with any such contract or franchise, that
authorizes or requires the imposition of an indemnity
obligation, shall, notwithstanding any such provision,
term, condition, or requirement, be subject to all of the
following restrictions:
(1) An indemnity obligation shall not be enforceable if
the board imposed penalty is based solely upon the
failure of the local agency to establish and maintain a
source reduction and recycling element pursuant to
Chapter 2 (commencing with Section 41000) of Part 2,
Chapter 3 (commencing with Section 41300) of Part 2,
or Section 41750.1, as the case may be.
(2) Any board imposed penalty based upon a local
agency’s failure to meet the solid waste diversion
requirements imposed by Chapter 6 (commencing with
Section 41780) of Part 2, resulting in whole or in part

App. 91
from the solid waste enterprise’s breach of contract or
noncompliance with any other authorization, shall be
apportioned in accordance with the percentage of fault
of the local agency and the solid waste enterprise.
(3) For purposes of this section, a solid waste enterprise
is not liable for the indemnity obligation to the extent
that the solid waste enterprise’s breach or
noncompliance resulted from the action or failure to act
of the local agency.
(4) No payment required or imposed pursuant to an
indemnity obligation, whether required or imposed by
ordinance, contract, franchise, license, permit, or other
entitlement or right, may exceed that portion of any
penalty assessed by the board against the local agency
that was caused by the solid waste enterprise’s breach
or noncompliance of an express obligation or
requirement.
(5) No indemnity obligation shall be enforceable
against a solid waste enterprise until the local agency
has affirmatively sought, in good faith, all
administrative relief available pursuant to Chapter 6
(commencing with Section 41780) and Chapter 7
(commencing with Section 41800) of Part 2, unless the
local agency demonstrates good cause, based on
substantial evidence in the record, for not pursuing
that administrative relief. The solid waste enterprise
shall cooperate, in good faith, with the local agency
seeking that administrative relief and shall provide in
writing to the local agency all known defenses to the
imposition of penalties.

App. 92
(d) Nothing in this section shall be construed to
preclude either party from seeking any other remedy
under law or equity.
(e) The provisions of this section are not subject to
waiver, and any attempted waiver shall be null and
void as against public policy.
(f) This section is not intended to do any of the
following:
(1) Add to or expand the authority of local agencies to
determine aspects of solid waste collection and
handling pursuant to Section 40059.
(2) Alter the authority of business entities to collect or
process materials that are not solid waste.
(3) Affect any contract right existing on the effective
date of this section.
(Added by Stats. 1998, Ch. 987, Sec. 1. Effective
January 1, 1999.)
40059.2. (a) The Legislature hereby finds and declares
all of the following:
(1) In 1996, the voters of California adopted Proposition
218, which among other things, limits the ability of
local agencies to impose certain property-related fees
and assessments without prior property owner consent.
In 2010, California voters passed Proposition 26, a
further initiative that limits the ability of local
agencies to impose fees, levies, charges, assessments,
or other exactions without prior voter approval. These

App. 93
initiatives, among other things, amended Article XIII
C and Article XIII D of the California Constitution.
(2) The public policy objective of the Legislature in
enacting this section is to ensure that those local
agencies that require an indemnity obligation from
solid waste enterprises, as a condition of providing
solid waste handling services within the local agency’s
jurisdiction, retain their responsibility for complying
with Article XIII C and Article XIII D of the California
Constitution.
(3) This section is not intended to address or to
determine whether fees for solid waste handling
services are fees imposed as an incident of property
ownership or fees imposed for a property-related
service, within the meaning of Section 2 of Article XIII
D of the California Constitution.
(b) For the purposes of this section, the following terms
have the following meanings:
(1) “Indemnity obligation” means an indemnity
obligation related to the failure of a local agency to
obtain voter or property owner approval of a fee, levy,
charge, assessment, or other exaction, that may be
required by Article XIII C or Article XIII D of the
California Constitution, if that indemnity obligation is
expressly assumed by, or imposed upon, the solid waste
enterprise, including pursuant to ordinance, contract,
franchise, license, permit, or other entitlement or right,
for the benefit of the local agency.
(2) “Local agency” means a county, city, city and
county, district, regional agency as defined in Section
40181, or other local government agency.

App. 94
(c) An indemnity obligation that meets either of the
following conditions is subject to subdivision (d):
(1) The indemnity obligation is imposed or required by
a provision, term, condition, or requirement contained
in an ordinance, contract, franchise, license, permit, or
other entitlement or right adopted, entered into,
issued, or granted, as the case may be, by a local
agency for solid waste handling services, including the
recycling, processing, or composting of solid waste.
(2) The indemnity obligation is authorized or required
in a request for bids or proposals in connection with a
contract or franchise specified in paragraph (1).
(d) Notwithstanding any provision, term, condition, or
requirement, an indemnity obligation, including the
duty and the cost of defense, shall be subject to the
following restrictions:
(1) An indemnity obligation or other provision, clause,
covenant, or agreement that purports to obligate a solid
waste enterprise to indemnify a local agency against
liability for claims by a third party for failure to obtain
voter or property owner approval of a fee, levy, charge,
assessment, or other exaction in violation of Article
XIII C or Article XIII D of the California Constitution
is not enforceable to the extent the claims arise out of,
pertain to, or relate to the liability of the local agency.
(2) An indemnity obligation is not enforceable if it
requires a solid waste enterprise to refund fees to its
customers, if the fees are collected and retained by the
local agency, or are collected on behalf of the local
agency by the solid waste enterprise and have been
remitted by the solid waste enterprise to the local

App. 95
agency, and in either case have been found by a final
judgment of a court to have been imposed in violation
of Article XIII C or Article XIII D of the California
Constitution.
(e) The provisions of this section are not subject to
waiver, and any attempted waiver shall be null and
void as against public policy.
(f) This section is not intended to do any of the
following:
(1) Add to or expand the authority of local agencies to
determine aspects of solid waste collection and
handling specified in Section 40059.
(2) Alter the authority of business entities to collect or
process materials that are not solid waste.
(3) Determine whether or not a fee, levy, assessment,
or exaction requires voter or property owner approval
by Article XIII C or Article XIII D of the California
Constitution.
(g) This section shall only apply to a provision, term,
condition, or requirement contained in an ordinance,
contract, franchise, license, permit, or other
entitlement or right adopted, entered into, issued, or
granted on or after July 1, 2012.
(h) This section shall become operative on July 1, 2012.
(Added by Stats. 2011, Ch. 713, Sec. 1. (SB 841)
Effective January 1, 2012. Section operative July 1,
2012, by its own provisions.)

App. 96
40059.3. (a) An ordinance adopted by a city or county
or an ordinance enacted by initiative by the voters of a
city or county shall not restrict or limit the importation
of solid waste into a privately owned facility in that city
or county based on the place of origin.
(b) This section does not do any of the following:
(1) Require a privately owned solid waste facility or
privately operated solid waste facility to accept solid
waste from outside the city or county where the facility
is located.
(2) Allow a privately owned solid waste facility to
abrogate a written agreement guaranteeing permitted
capacity to a host jurisdiction, including a regional
agency.
(3) Prohibit a city, county, or regional agency from
requiring a privately owned solid waste facility to
guarantee permitted capacity to a host jurisdiction,
including a regional agency.
(4) Supersede or otherwise affect the land use authority
of a city or county, including, but not limited to,
planning, zoning, and permitting, or an ordinance
lawfully adopted pursuant to that land use authority.
(Added by Stats. 2012, Ch. 526, Sec. 2. (AB 845)
Effective January 1, 2013.)
40059.4. (a) For purposes of this section, “industrial
source” means any of the following:
(1) An entity required to be registered pursuant to
Section 110460 of the Health and Safety Code.

App. 97
(2) An entity exempted from registration pursuant to
Section 110480 of the Health and Safety Code.
(3) A beer manufacturer, as defined in Section 23012 of
the Business and Professions Code.
(4) A distilled spirits manufacturer, as defined in
Section 23015 of the Business and Professions Code.
(b) A county, city, district, or local governmental agency
shall not subject the hauling of byproducts from the
processing of food or beverages to an exclusive
franchise, contract, license, or permit, if those
byproducts meet all of the following conditions:
(1) The byproducts originate from agricultural or
industrial sources.
(2) The byproducts do not include animal, including
fish, processing byproducts.
(3) The byproducts are source separated by the
generator of the byproducts.
(4) The byproducts are not discarded.
(5) The byproducts are used as animal feed.
(Added by Stats. 2018, Ch. 832, Sec. 1. (AB 3036)
Effective January 1, 2019.)
40060. (a) Notwithstanding any other provision of law,
a regional water board shall not issue a waste
discharge permit for a new landfill, or a lateral
expansion of an existing landfill, which is used for the
disposal of nonhazardous solid waste if the land has

App. 98
been primarily used at any time for the mining or
excavation of gravel or sand.
(b) A regional water board, in a public meeting, may
grant a variance from subdivision (a) if the applicant
demonstrates and the regional water quality control
board determines that the discharges to a new facility
or expansion of an existing facility during its operation
and postclosure period will not pollute or threaten to
pollute the waters of the state. In deciding whether to
grant a variance, the regional water board shall
consider, among other factors, site characteristics,
including permeability and transmissivity of the
underlying soils and depth to groundwater. For the
purpose of this section, “groundwater” means the
uppermost aquifer usable for beneficial purposes.
(c) Nothing in this section precludes any local
jurisdiction from exercising any power which it has
pursuant to any other provision of law.
(d) The following definitions govern the construction of
this section:
(1) “Landfill used for the disposal of nonhazardous solid
waste” means a disposal site regulated by a regional
water board as a Class III landfill pursuant to Sections
2533 and 2541 of Title 23 of the California Code of
Regulations.
(2) “Lateral expansion” means a new or expanded
waste management unit which is not authorized on
January 1, 1989, under existing waste discharge
requirements issued pursuant to Division 7
(commencing with Section 13000) of the Water Code
and an existing solid waste facility permit issued

App. 99
pursuant to this title. For purposes of subdivision (f),
“lateral expansion” does not include a new or expanded
waste management unit for which waste discharge
requirements were issued by a regional water board
before January 1, 1989, but were subject to review after
that date pursuant to Section 13320 of the Water Code.
(e) The regional water board may hold a single hearing
for purposes of granting a variance pursuant to
subdivision (b) and establishing waste discharge
requirements.
(f) Notwithstanding subdivision (b), a regional water
board shall not grant a variance from subdivision (a) if
the variance is for a new landfill, or a lateral expansion
of an existing landfill, located within the boundaries of
the Main San Gabriel Groundwater Basin. For
purposes of this subdivision, the boundaries of the
Main San Gabriel Groundwater Basin are the
boundaries described in Exhibit A of the judgment in
Upper San Gabriel Valley Municipal Water District v.
City of Alhambra, et al., Case Number 924128 of the
Superior Court for the County of Los Angeles.
(Added by Stats. 1990, Ch. 35, Sec. 17. Effective March
30, 1990.)
40061. (a) Notwithstanding Section 40059, every local
agency which does not directly charge residential
households a fee for the collection, transportation, and
disposal of solid waste and every local agency which
directly charges residential customers a fee which
represents less than 90 percent of the average cost of
collecting, transporting, and disposing of residential

App. 100
solid waste shall, at least once every three months,
arrange to inform all residential households of all of
the following:
(1) The average monthly volume of solid waste
produced by each residential household.
(2) The total estimated monthly cost to the local agency
to collect, transport, and dispose of all solid waste
produced by residential households.
(3) The average monthly cost to the local agency to
collect, transport, and dispose of solid waste produced
by each residential household.
(b) For the purposes of this section, “residential
household” means those single and multifamily
residential units which are not charged a periodic fee
for the collection, transportation, and disposal of solid
waste or which are assessed a periodic fee which
represents less than 90 percent of the local agency’s
total cost of providing these services.
(c) The notification provided under subdivision (a)
may, not more than twice in any calendar year, be
made by publication in a newspaper of general
circulation in the county in which the local agency is
located.
(d) Unless notification is made by publication, when
possible, the notification provided under subdivision (a)
shall be distributed by each local agency to residential
households in a manner that results in no distribution

App. 101
costs to the local agency in excess of distribution costs
otherwise incurred for other purposes.
(Amended by Stats. 1991, Ch. 1085, Sec. 1.)
40062. (a) Upon the request of any person furnishing
any report, notice, application, plan, or other document
required by this division, including any research or
survey information requested by the board for the
purpose of implementing its programs, neither the
board nor an enforcement agency, in accordance with
subdivisions (c) and (d), shall make available for
inspection by the public any portion of the report,
notice, application, plan, or other document that
contains a trade secret, as defined in subdivision (d) of
Section 3426.1 of the Civil Code, that has been
identified pursuant to subdivision (b).
(b) Any person furnishing information, as described in
subdivision (a), to the board or an enforcement agency
pursuant to this division shall, at the time of
submission, identify all information which the person
believes is a trade secret. Any information not
identified by the person as a trade secret shall be made
available to the public, unless exempted from
disclosure by another provision of law.
(c) (1) With regard to information that has been
identified as a trade secret pursuant to subdivision (b),
the board, upon its own initiative, or upon receipt of a
request for public information pursuant to Chapter 3.5
(commencing with Section 6250) of Division 7 of Title
1 of the Government Code, shall determine whether
any or all of the information has been properly

App. 102
identified as a trade secret. If the board determines
that the information is not a trade secret, the board
shall notify the person who furnished the information
by certified mail.
(2) The person who furnished the information shall
have 30 days from the date of receipt of the notice
required by paragraph (1) to provide the board with a
complete justification and statement of the grounds on
which the trade secret privilege is claimed. The
justification and statement shall be submitted to the
board by certified mail.
(3) The board shall determine whether the information
is protected as a trade secret within 15 days from the
date of receipt of the justification and statement or, if
no justification and statement is filed, within 45 days
from the date of the notice required by paragraph (1).
The board shall notify the person who furnished the
information and any party who has requested the
information pursuant to Chapter 3.5 (commencing with
Section 6250) of Division 7 of Title 1 of the Government
Code of that determination by certified mail. If the
board has determined that the information is not
protected as a trade secret, this final notice shall also
specify a date, not sooner than 15 days from the date of
the date of mailing of the final notice, when the
information shall be available to the public.
(d) Except as provided in subdivision (c), the board or
an enforcement agency may release information
submitted and designated as a trade secret only to the
following public agencies under the following
conditions:

App. 103
(1) To other public agencies in connection with the
responsibilities of the board or an enforcement agency
under this division or for use in making reports.
(2) To the state or any state agency in judicial review
for enforcement proceedings involving the person
furnishing the information.
(e) For the purpose of implementing this section, the
disclosure of information shall be consistent with
Chapter 3.5 (commencing with Section 6250) of
Division 7 of Title 1 of the Government Code.
(Amended by Stats. 1996, Ch. 1041, Sec. 5. Effective
January 1, 1997.)
40063. At the request of a county with a population of
less than 250,000, the board and the state water board
may meet with the county to prioritize, through
development and joint adoption of a five-year plan,
state environmental concerns with regard to solid
waste management in relation to the fiscal and staffing
constraints on the county.
(Added by Stats. 1996, Ch. 1038, Sec. 3. Effective
September 29, 1996.)

App. 104
PUBLIC RESOURCES CODE - PRC
DIVISION 30. WASTE MANAGEMENT [40000 49620] (Division 30 added by Stats. 1989,
Ch. 1096, Sec. 2.)
PART 1. INTEGRATED WASTE MANAGEMENT
[40000 - 40511] (Part 1 added by Stats. 1989,
Ch. 1096, Sec. 2.)
CHAPTER 2. Definitions [40100 - 40201]
(Chapter 2 added by Stats. 1989,
Ch. 1096, Sec. 2.)
40100. Unless the context otherwise requires, the
definitions in this article govern the construction of this
division.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40105. “Authorized recycling agent” means a person
that a local governing body or private commercial
entity authorizes or contracts with to collect its
recyclable waste material. An authorized recycling
agency may be a municipal collection service, private
refuse hauler, private recycling enterprise, or private
nonprofit corporation or association.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40106. (a) “Biomass conversion” means the production
of heat, fuels, or electricity by the controlled
combustion of, or the use of other noncombustion
thermal conversion technologies on, the following
materials, when separated from other solid waste:

App. 105
(1) Agricultural crop residues.
(2) Bark, lawn, yard, and garden clippings.
(3) Leaves, silvicultural residue, and tree and brush
pruning.
(4) Wood, wood chips, and wood waste.
(5) Nonrecyclable
materials.

pulp

or

nonrecyclable

paper

(b) “Biomass conversion” does not include the controlled
combustion of recyclable pulp or recyclable paper
materials, or materials that contain sewage sludge,
industrial sludge, medical waste, hazardous waste, or
either high-level or low-level radioactive waste.
(c) For purposes of this section, “nonrecyclable pulp or
nonrecyclable paper materials” means either of the
following, as determined by the department:
(1) Paper products or fibrous materials that cannot be
technically, feasibly, or legally recycled because of the
manner in which the product or material has been
manufactured, treated, coated, or constructed.
(2) Paper products or fibrous materials that have
become soiled or contaminated and as a result cannot
be technically, feasibly, or legally recycled.
(Amended by Stats. 2014, Ch. 746, Sec. 1. (SB 498)
Effective January 1, 2015.)

App. 106
40110. “Board” means the Department of Resources
Recycling and Recovery, or the Director of Resources
Recycling and Recovery, as appropriate.
(Amended by Stats. 2009, Ch. 21, Sec. 5. (SB 63)
Effective January 1, 2010.)
40115. “City” or “county” includes city and county.
(Added by Stats. 1989, Ch. 1096, Sec. 2.)
40115.5. “Closed disposal site” means a disposal site
that ceases to accept solid waste and is closed in
accordance with applicable statutes, regulations, and
local ordinances in effect at the time of the closure.
(Added by Stats. 2008, Ch. 500, Sec. 1. Effective
January 1, 2009.)
40116. “Compost” means the product resulting from
the controlled biological decomposition of organic
wastes that are source separated from the municipal
solid waste stream, or which are separated at a
centralized facility. “Compost” includes vegetable, yard,
and wood wastes which are not hazardous waste.
(Amended by Stats. 1990, Ch. 145, Sec. 3. Effective
June 19, 1990.)
40116.1. “Composting” means the controlled or
uncontrolled biological decomposition of organic
wastes.

App. 107
(Added by Stats. 2008, Ch. 500, Sec. 2. Effective
January 1, 2009.)
40117. “Gasification” means a technology that uses a
noncombustion thermal process to convert solid waste
to a clean burning fuel for the purpose of generating
electricity, and that, at minimum, meets all of the
following criteria:
(a) The technology does not use air or oxygen in the
conversion process, except ambient air to maintain
temperature control.
(b) The technology produces no discharges of air
contaminants or emissions, including greenhouse
gases, as defined in subdivision (g) of Section 38505 of
the Health and Safety Code.
(c) The technology produces no discharges to surface or
groundwaters of the state.
(d) The technology produces no hazardous waste.
(e) To the maximum extent feasible, the technology
removes all recyclable materials and marketable green
waste compostable materials from the solid waste
stream prior to the conversion process and the owner or
operator of the facility certifies that those materials
will be recycled or composted.
(f) The facility where the technology is used is in
compliance with all applicable laws, regulations, and
ordinances.
(g) The facility certifies to the board that any local
agency sending solid waste to the facility is in

App. 108
compliance with this division and has reduced,
recycled, or composted solid waste to the maximum
extent feasible, and the board makes a finding that the
local agency has diverted at least 30 percent of all solid
waste through source reduction, recycling, and
composting.
(Amended by Stats. 2008, Ch. 179, Sec. 192. Effective
January 1, 2009.)
40118. “Department” means the Department of
Resources Recycling and Recovery.
(Added by Stats. 2010, Ch. 275, Sec. 1. (SB 390)
Effective January 1, 2011.)
40120. “Designated recycling collection location”
means the place where an authorized recycling agent
has contracted with either the local governing body or
a private entity to pick up recyclable material
segregated from other waste material. “Designated
recycling collection location” includes, but is not limited
to, the curbside of a residential neighborhood or the
service alley of a commercial enterprise.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40120.05. “Director” means the Director of Resources
Recycling and Recovery.
(Added by Stats. 2009, Ch. 21, Sec. 6. (SB 63) Effective
January 1, 2010.)

App. 109
40120.1. “Disposal” or “dispose” has the same meaning
as “solid waste disposal” as defined in Section 40192.
(Amended by Stats. 2008, Ch. 500, Sec. 3. Effective
January 1, 2009.)
40121. “Disposal facility” or “facility” means a facility
or location where disposal of solid waste occurs or an
EMSW conversion facility.
(Amended by Stats. 2013, Ch. 411, Sec. 1. (AB 1126)
Effective January 1, 2014.)
40122. “Disposal site” or “site” means the place,
location, tract of land, area, or premises in use,
intended to be used, or which has been used, for the
disposal of solid wastes.
(Amended by Stats. 2008, Ch. 500, Sec. 4. Effective
January 1, 2009.)
40124. “Diversion” means activities which reduce or
eliminate the amount of solid waste from solid waste
disposal for purposes of this division, including Article
1 (commencing with Section 41780) of Chapter 6.
(Added by Stats. 1996, Ch. 978, Sec. 2. Effective
January 1, 1997.)
40127. “Diversion program” means a program in the
source reduction and recycling element of a
jurisdiction’s integrated waste management plan,
specified in Chapter 2 (commencing with Section
41000) of, or Chapter 3 (commencing with Section

App. 110
41300) of, Part 2 and that has the purpose of diverting
solid waste from landfill disposal or transformation
through source reduction, recycling, and composting
activities. “Diversion program” additionally includes
any amendments, revisions, or updates to the element,
and any programs set forth in a time extension,
alternative requirement, or compliance order approved
by the board pursuant to Part 2 (commencing with
Section 40900).
(Added by Stats. 2008, Ch. 343, Sec. 2. Effective
January 1, 2009.)
40130. “Enforcement agency” means the local agency
designated pursuant to Article 1 (commencing with
Section 43200) of Chapter 2 of Part 4 for the purpose of
carrying out this division, or the board if no designation
of a local agency has been approved by the board.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40131. “Enforcement program” means the regulations
and procedures adopted by the board pursuant to
Chapter 2 (commencing with Section 43200) of Part 4.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40131.2. (a) “Engineered municipal solid waste
conversion” or “EMSW conversion” means the
conversion of solid waste through a process that meets
all of the following requirements:

App. 111
(1) The waste to be converted is beneficial and effective
in that it replaces or supplements the use of fossil
fuels.
(2) The waste to be converted, the resulting ash, and
any other products of conversion do not meet the
criteria or guidelines for the identification of a
hazardous waste adopted by the Department of Toxic
Substances Control pursuant to Section 25141 of the
Health and Safety Code.
(3) The conversion is efficient and maximizes the net
calorific value and burn rate of the waste.
(4) The waste to be converted contains less than 25
percent moisture and less than 25 percent
noncombustible waste.
(5) The waste received at the facility for conversion is
handled in compliance with the requirements for the
handling of solid waste imposed pursuant to this
division, and no more than a seven-day supply of that
waste, based on the throughput capacity of the
operation or facility, is stored at the facility at any one
time.
(6) No more than 500 tons per day of waste is converted
at the facility where the operation takes place.
(7) The waste has an energy content equal to, or
greater than, 5,000 BTU per pound.
(8) The waste to be converted is mechanically processed
at a transfer or processing station to reduce the
fraction of chlorinated plastics and materials.

App. 112
(b) “Engineered municipal solid waste conversion
facility” or “EMSW facility” means a facility where
municipal solid waste conversion that meets the
requirements of subdivision (a) takes place.
(c) Notwithstanding Section 40201, a transformation
facility where solid waste conversion takes place that
meets all of the requirements of subdivision (a) may
elect to be considered an EMSW facility for purposes of
this division and Division 31 (commencing with Section
50000), except that if a portion of a transformation
facility’s operations does not meet the requirements of
subdivision (a), the facility shall be considered to be a
transformation facility.
(Added by Stats. 2013, Ch. 411, Sec. 2. (AB 1126)
Effective January 1, 2014.)
40131.5.
“Federal act” means the Resource
Conservation and Recovery Act of 1976, as amended
(42 U.S.C. Sec. 6901 et seq.).
(Added by Stats. 1993, Ch. 922, Sec. 1. Effective
January 1, 1994.)
40135.
“Fund” means the Integrated Waste
Management Fund, which is hereby created in the
State Treasury. Any reference in this division or any
other provision of law to the Solid Waste Management
Fund shall mean the Integrated Waste Management
Fund.
(Amended by Stats. 1990, Ch. 145, Sec. 4. Effective
June 19, 1990.)

App. 113
40135.1. “Account” means the Integrated Waste
Management Account created in the fund pursuant to
Section 48001.
(Added by Stats. 1993, Ch. 656, Sec. 3. Effective October
1, 1993.)
40140. “Hazard” includes any condition, practice, or
procedure which is or may be dangerous, harmful, or
perilous to employees, property, neighbors, or the
general public.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40141. (a) “Hazardous waste” means a waste, defined
as a “hazardous waste” in accordance with Section
25117 of the Health and Safety Code, or a combination
of wastes, which because of its quantity, concentration,
or physical, chemical, or infectious characteristics may
do either of the following:
(1) Cause, or significantly contribute to, an increase in
mortality or an increase in serious irreversible, or
incapacitating reversible, illness.
(2) Pose a substantial present or potential hazard to
human health or environment when improperly
treated, stored, transported, or disposed of, or
otherwise managed.

App. 114
(b) Unless expressly provided otherwise, “hazardous
waste” includes extremely hazardous waste and acutely
hazardous waste.
(Amended by Stats. 2008, Ch. 500, Sec. 6. Effective
January 1, 2009.)
40145. “Jurisdiction” means a city, county, or regional
agency that is approved by the board pursuant to
Section 40975.
(Added by Stats. 2008, Ch. 343, Sec. 3. Effective
January 1, 2009.)
40148. “Large state facility” means those campuses of
the California State University and the California
Community Colleges, prisons within the Department of
Corrections, facilities of the State Department of
Transportation, and facilities of other state agencies,
that the board determines, are primary campuses,
prisons, or facilities.
(Added by Stats. 1999, Ch. 764, Sec. 1. Effective
January 1, 2000.)
40150. “Local governing body” means the legislative
body of the city, county, or special district which has
authority to provide solid waste handling services.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40150.1. “Multicounty regional agency” means a
regional agency, as defined in Section 40181, that

App. 115
includes all of the jurisdictions that are located in at
least two or more rural counties.
(Added by Stats. 2008, Ch. 343, Sec. 4. Effective
January 1, 2009.)
40150.2. “Minor violation” means the failure of a
person to comply with a requirement or condition of an
applicable law, regulation, permit, information request,
order, variance, or other requirement, whether
procedural or substantive, that an enforcement agency
or the board is authorized to implement or enforce
pursuant to Part 5 (commencing with Section 45000)
and that does not otherwise include any of the
following:
(a) A violation that results in injury to persons or
property or that presents a significant threat to human
health or the environment.
(b) A knowing, willful, or intentional violation.
(c) A violation that is a chronic violation or that is
committed by a recalcitrant violator. In determining
whether a violation is chronic or a violator is
recalcitrant, the enforcement agency or board,
whichever issues the notice to comply, shall consider
whether there is evidence indicating that the violator
has engaged in a pattern of neglect or disregard with
respect to applicable regulatory requirements.
(d) A violation that results in an emergency response
from a public safety agency.

App. 116
(e) A violation that enables the violator to benefit
economically from the noncompliance, either by
reduced costs or competitive advantage.
(Added by Stats. 2008, Ch. 500, Sec. 7. Effective
January 1, 2009.)
40151. “Nondisposal facility” means any solid waste
facility required to obtain a permit pursuant to Article
1 (commencing with Section 44001) of Chapter 3 of
Part 4, except a disposal facility or a transformation
facility.
(Added by Stats. 1992, Ch. 1291, Sec. 1. Effective
January 1, 1993.)
40160. “Operator” means a person who operates a
solid waste facility or operates a disposal site.
(Amended by Stats. 2008, Ch. 500, Sec. 8. Effective
January 1, 2009.)
40162. “Owner” means a person who holds fee title to,
or a leasehold or other possessory interest in, real
property that is presently in use as a solid waste
facility or is a disposal site.
(Added by Stats. 2008, Ch. 500, Sec. 9. Effective
January 1, 2009.)
40170. “Person” includes an individual, firm, limited
liability company, association, partnership, political
subdivision, government agency, municipality,

App. 117
industry, public or private corporation, or any other
entity whatsoever.
(Amended by Stats. 1994, Ch. 1200, Sec. 38. Effective
September 30, 1994.)
40171. “Pollution” means the condition caused by the
presence in or on a body of water, soil, or air of any
solid waste or substance derived therefrom in such
quantity, of such nature and duration, or under such
condition that the quality, appearance, or usefulness of
the water, soil, land, or air is significantly degraded or
adversely altered.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40172. “Processing” means the reduction, separation,
recovery, conversion, or recycling of solid waste.
(Added by Stats. 1989, Ch. 1096, Sec. 2.)
40180. “Recycle” or “recycling” means the process of
collecting, sorting, cleansing, treating, and
reconstituting materials that would otherwise become
solid waste, and returning them to the economic
mainstream in the form of raw material for new,
reused, or reconstituted products which meet the
quality standards necessary to be used in the
marketplace. “Recycling” does not include
transformation, as defined in Section 40201 or EMSW
conversion.
(Amended by Stats. 2013, Ch. 411, Sec. 3. (AB 1126)
Effective January 1, 2014.)

App. 118
40181. “Regional agency” means an agency formed
pursuant to Chapter 5 (commencing with Section 6500)
of Division 7 of Title 1 of the Government Code and
Article 3 (commencing with Section 40970) of Chapter
1 of Part 2.
(Amended by Stats. 1992, Ch. 1292, Sec. 3. Effective
January 1, 1993.)
40182. “Regional water board” means a California
regional water quality control board.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40183. (a) “Rural city” or “rural regional agency”
means a city or regional agency that is located within
a rural county as defined in Section 40184.
(b) (1) Unless the board takes action pursuant to
paragraph (2), this section does not affect any reduction
granted to a rural city by the board pursuant to Section
41787 prior to January 1, 2008.
(2) The board may review and take action regarding
any reduction granted to a rural city by the board in
accordance with subdivision (b) of Section 41787.
(Amended by Stats. 2008, Ch. 343, Sec. 5. Effective
January 1, 2009.)
40184.
(a) “Rural county” means a county or
multicounty regional agency that annually disposes of
no more that 200,000 tons of solid waste.

App. 119
(b) (1) Unless the board takes action pursuant to
paragraph (2), this section does not affect any reduction
granted to a rural county by the board pursuant to
Section 41787 prior to January 1, 2008.
(2) The board may review and take action regarding
any reduction granted to a rural county in accordance
with subdivision (b) of Section 41787.
(Amended by Stats. 2008, Ch. 343, Sec. 6. Effective
January 1, 2009.)
40190. “Segregated from other waste material” means
any of the following:
(a) The placement of recyclable materials in separate
containers.
(b) The binding of recyclable material separately from
the other waste material.
(c) The physical separation of recyclable material from
other waste material.
(Added by Stats. 1989, Ch. 1096, Sec. 2.)
40190.5. “Sharps waste” means waste generated by a
household that includes a hypodermic needle, syringe,
or lancet.
(Added by Stats. 2004, Ch. 157, Sec. 3. Effective
January 1, 2005.)
40191. (a) Except as provided in subdivision (b), “solid
waste” means all putrescible and nonputrescible solid,

App. 120
semisolid, and liquid wastes, including garbage, trash,
refuse, paper, rubbish, ashes, industrial wastes,
demolition and construction wastes, abandoned
vehicles and parts thereof, discarded home and
industrial appliances, dewatered, treated, or chemically
fixed sewage sludge which is not hazardous waste,
manure, vegetable or animal solid and semisolid
wastes, and other discarded solid and semisolid wastes.
(b) “Solid waste” does not include any of the following
wastes:
(1) Hazardous waste, as defined in Section 40141.
(2) Radioactive waste regulated pursuant to the
Radiation Control Law (Chapter 8 (commencing with
Section 114960) of Part 9 of Division 104 of the Health
and Safety Code).
(3) Medical waste regulated pursuant to the Medical
Waste Management Act (Part 14 (commencing with
Section 117600) of Division 104 of the Health and
Safety Code). Untreated medical waste shall not be
disposed of in a solid waste landfill, as defined in
Section 40195.1. Medical waste that has been treated
and deemed to be solid waste shall be regulated
pursuant to this division.
(Amended by Stats. 1996, Ch. 1041, Sec. 9. Effective
January 1, 1997.)
40192. (a) Except as provided in subdivisions (b) and
(c), “solid waste disposal,” “disposal,” or “dispose”
means the final deposition of solid wastes onto land,
into the atmosphere, or into the waters of the state.

App. 121
(b) For purposes of Part 2 (commencing with Section
40900), “solid waste disposal,” “dispose,” or “disposal”
means the management of solid waste through landfill
disposal, transformation, or EMSW conversion, at a
permitted solid waste facility, unless the term is
expressly defined otherwise.
(c) For purposes of Chapter 16 (commencing with
Section 42800) and Chapter 19 (commencing with
Section 42950) of Part 3, Part 4 (commencing with
Section 43000), Part 5 (commencing with Section
45000), Part 6 (commencing with Section 45030), and
Chapter 2 (commencing with Section 47901) of Part 7,
“solid waste disposal,” “dispose,” or “disposal” means
the final deposition of solid wastes onto land.
(Amended by Stats. 2013, Ch. 411, Sec. 4. (AB 1126)
Effective January 1, 2014.)
40193. “Solid waste enterprise” means any individual,
partnership, joint venture, unincorporated private
organization, or private corporation, which is regularly
engaged in the business of providing solid waste
handling services.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40194. “Solid waste facility” includes a solid waste
transfer or processing station, a composting facility, a
gasification facility, a transformation facility, an
EMSW conversion facility, and a disposal facility. For
purposes of Part 5 (commencing with Section 45000),
“solid waste facility” additionally includes a solid waste
operation that may be carried out pursuant to an

App. 122
enforcement agency notification, as provided in
regulations adopted by the department.
(Amended by Stats. 2013, Ch. 411, Sec. 5. (AB 1126)
Effective January 1, 2014.)
40195. “Solid waste handling” or “handling” means the
collection, transportation, storage, transfer, or
processing of solid wastes.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40195.1. (a) “Solid waste landfill” means a disposal
facility that accepts solid waste for land disposal, but
does not include a facility which receives only wastes
generated by the facility owner or operator in the
extraction, beneficiation, or processing of ores and
minerals, or a cemetery which disposes onsite only the
grass clippings, floral wastes, or soil resulting from
activities on the grounds of that cemetery.
(b) For the purposes of Article 3 (commencing with
Section 43500) and Article 4 (commencing with Section
43600) of Chapter 2 of Part 4, “solid waste landfill”
does not include a facility which receives only
nonhazardous wood waste derived from timber
production or wood product manufacturing. For the
purposes of the fee imposed by Section 48000, facilities
which receive only nonhazardous wood waste derived
from timber production or wood product manufacturing
shall, notwithstanding Section 48000, pay a quarterly
fee to the state board on all solid waste disposed at
each disposal site, which does not exceed the amount of

App. 123
the fee due and payable to the state board by those
facilities during the 1992 calendar year.
(Added by Stats. 1993, Ch. 656, Sec. 4. Effective October
1, 1993.)
40196. “Source reduction” means any action which
causes a net reduction in the generation of solid waste.
“Source reduction” includes, but is not limited to,
reducing the use of nonrecyclable materials, replacing
disposable materials and products with reusable
materials and products, reducing packaging, reducing
the amount of yard wastes generated, establishing
garbage rate structures with incentives to reduce the
amount of wastes that generators produce, and
increasing the efficiency of the use of paper, cardboard,
glass, metal, plastic, and other materials. “Source
reduction” does not include steps taken after the
material becomes solid waste or actions which would
impact air or water resources in lieu of land, including,
but not limited to, transformation.
(Amended by Stats. 1990, Ch. 145, Sec. 5. Effective
June 19, 1990.)
40196.3. “State agency” means every state office,
department, division, board, commission, or other
agency of the state, including the California
Community Colleges and the California State
University. The Regents of the University of California
are encouraged to implement this division.
(Added by Stats. 1999, Ch. 764, Sec. 2. Effective
January 1, 2000.)

App. 124
40196.5. “State board” means the State Board of
Equalization.
(Added by Stats. 1990, Ch. 145, Sec. 6. Effective June
19, 1990.)
40197. “State water board” means the State Water
Resources Control Board.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
40200. (a) “Transfer or processing station” or “station”
includes those facilities utilized to receive solid wastes,
temporarily store, separate, convert, or otherwise
process the materials in the solid wastes, or to transfer
the solid wastes directly from smaller to larger vehicles
for transport, and those facilities utilized for
transformation.
(b) “Transfer or processing station” or “station” does not
include any of the following:
(1) A facility, whose principal function is to receive,
store, separate, convert, or otherwise process in
accordance with state minimum standards, manure.
(2) A facility, whose principal function is to receive,
store, convert, or otherwise process wastes that have
already been separated for reuse and are not intended
for disposal.
(3) The operations premises of a duly licensed solid
waste handling operator who receives, stores,
transfers, or otherwise processes wastes as an activity
incidental to the conduct of a refuse collection and

App. 125
disposal business in accordance with regulations
adopted pursuant to Section 43309.
(4) An EMSW conversion facility.
(Amended by Stats. 2013, Ch. 411, Sec. 6. (AB 1126)
Effective January 1, 2014.)
40201.
“Transformation” means incineration,
pyrolysis, distillation, or biological conversion other
than composting. “Transformation” does not include
composting, gasification, EMSW conversion, or biomass
conversion.
(Amended by Stats. 2013, Ch. 411, Sec. 7. (AB 1126)
Effective January 1, 2014.)

App. 126
PUBLIC RESOURCES CODE - PRC
DIVISION 30. WASTE MANAGEMENT [40000 49620] (Division 30 added by Stats. 1989,
Ch. 1096, Sec. 2.)
PART 2. INTEGRATED WASTE MANAGEMENT
PLANS [40900 - 41956] (Part 2 added by Stats.
1989, Ch. 1095, Sec. 22.)
CHAPTER 6. Planning Requirements [41780 41794] (Heading of Chapter 6 amended by Stats.
1990, Ch. 145, Sec. 42.)
ARTICLE 1. Waste Diversion [41780 - 41786]
(Article 1 added by Stats. 1989,
Ch. 1095, Sec. 22.)
41780. (a) Each jurisdiction’s source reduction and
recycling element shall include an implementation
schedule that shows both of the following:
(1) For the initial element, the jurisdiction shall divert
25 percent of all solid waste by January 1, 1995,
through source reduction, recycling, and composting
activities.
(2) Except as provided in Sections 41783 and 41784, for
the first and each subsequent revision of the element,
the jurisdiction shall divert 50 percent of all solid waste
on and after January 1, 2000, through source
reduction, recycling, and composting activities.
(b) This section does not prohibit a jurisdiction from
implementing source reduction, recycling, and

App. 127
composting activities designed
requirements of this division.

to

exceed

the

(Amended by Stats. 2009, Ch. 643, Sec. 33. (SB 832)
Effective November 2, 2009.)
41780.01. (a) The Legislature hereby declares that it
is the policy goal of the state that not less than 75
percent of solid waste generated be source reduced,
recycled, or composted by the year 2020, and annually
thereafter.
(b) Notwithstanding subdivision (a), the department
shall not establish or enforce a diversion rate on a city
or county that is greater than the 50 percent diversion
rate established pursuant to Section 41780.
(Added by Stats. 2011, Ch. 476, Sec. 9. (AB 341)
Effective January 1, 2012.)
41780.05. (a) After January 1, 2009, pursuant to the
review authorized by Section 41825, the department
shall determine each jurisdiction’s compliance with
Section 41780 for the years commencing with January
1, 2007, by comparing each jurisdiction’s change in its
per capita disposal rate in subsequent years with the
equivalent per capita disposal rate that would have
been necessary for the jurisdiction to meet the
requirements of Section 41780 on January 1, 2007, as
calculated pursuant to subdivisions (c) and (d).
(b) (1) For purposes of paragraph (5) of subdivision (e)
of Section 41825, in making a determination whether
a jurisdiction has made a good faith effort to implement

App. 128
its source reduction and recycling element or its
household hazardous waste element, the department
shall consider, but is not limited to the consideration of,
the jurisdiction’s per capita disposal rate and whether
the jurisdiction adequately implemented its diversion
programs.
(2) When determining whether a jurisdiction has made
a good faith effort pursuant to Section 41825 to
implement its source reduction and recycling element
or its household hazardous waste element, the
department shall consider that an increase in the per
capita disposal rate is the result of the amount of the
jurisdiction’s disposal increasing faster than the
jurisdiction’s growth. The department shall use this
increase in the per capita disposal rate that is in excess
of the equivalent per capita disposal rate as a factor in
determining whether the department is required,
pursuant to Section 41825, to more closely examine a
jurisdiction’s program implementation efforts. This
examination may indicate that a jurisdiction is
required to expand existing programs or implement
new programs, in accordance with the procedures
specified in Article 4 (commencing with Section 41825)
and in Article 5 (commencing with Section 41850).
(3) When reviewing the level of program
implementation pursuant to Sections 41825 and 41850,
the department shall use, as a factor in determining
compliance with Section 41780, the amount determined
pursuant to subdivision (d) when comparing a
jurisdiction’s per capita disposal rate in subsequent
years.

App. 129
(c) (1) (A) Except as otherwise provided in this
subdivision, for purposes of this section, “per capita
disposal” or “per capita disposal rate” means the total
annual disposal, in pounds, from a jurisdiction divided
by the total population in a jurisdiction, as reported by
the Department of Finance, divided by 365 days.
(B) “Per capita disposal” does not include used tires or
waste tires, as defined in Article 1 (commencing with
Section 42800) of Chapter 16 of Part 3, that are
converted at an EMSW conversion facility.
(C) “Per capita disposal” does not include biomass
material, as defined in subdivision (a) of Section 40106,
that is converted at an EMSW conversion facility.
(2) (A) If a jurisdiction is predominated by commercial
or industrial activities and by solid waste generation
from those sources, the department may alternatively
calculate per capita disposal to reflect those differing
conditions.
(B) When making a calculation for a jurisdiction
subject to this paragraph, “per capita disposal” or “per
capita disposal rate” means the total annual disposal,
in pounds, from a jurisdiction divided by total industry
employment in a jurisdiction, as reported by the
Employment Development Department, divided by 365
days.
(C) The department shall calculate the per capita
disposal rate for a jurisdiction subject to this paragraph
using the level of industry employment in a jurisdiction
instead of the level of population in a jurisdiction.

App. 130
(3) If the department determines that the method for
calculating the per capita disposal rate for a
jurisdiction provided by paragraph (1) or (2) does not
accurately reflect that jurisdiction’s disposal reduction,
the department may use an alternative per capita
factor, other than population or industry employment,
to calculate the per capita disposal rate that more
accurately reflects the jurisdiction’s efforts to divert
solid waste.
(d) The department shall calculate the equivalent per
capita disposal rate for each jurisdiction as follows:
(1) Except as otherwise provided in this subdivision,
the equivalent per capita disposal rate for a jurisdiction
shall be determined using the method specified in this
paragraph.
(A) The calculated generation tonnage for each year
from 2003 to 2006, inclusive, shall be multiplied by 0.5
to yield the 50 percent equivalent disposal total for
each year.
(B) The 50 percent equivalent disposal total for each
year shall be multiplied by 2,000, divided by the
population of the jurisdiction in that year, and then
divided by 365 to yield the 50 percent equivalent per
capita disposal for each year.
(C) The four 50 percent equivalent per capita disposal
amounts from the years 2003 to 2006, inclusive, shall
be averaged to yield the equivalent per capita disposal
rate.
(2) If a jurisdiction is predominated by commercial or
industrial activities and by solid waste generation from

App. 131
those sources, the department may alternatively
calculate the equivalent per capita disposal rate to
reflect those conditions by using the level of industry
employment in a jurisdiction instead of the level of
population in that jurisdiction.
(3) If the department determines that the method for
calculating the equivalent per capita disposal rate for
a jurisdiction pursuant to this subdivision does not
accurately reflect a jurisdiction’s per capita disposal
rate that would be equivalent to the amount required
to meet the 50 percent diversion requirements of
Section 41780, the department may use an alternative
per capita factor, other than population or industry
employment, to calculate the equivalent per capita
disposal rate that more accurately reflects the
jurisdiction’s diversion efforts.
(4) The department shall modify the percentage used
in paragraph (1) to maintain the diversion
requirements approved by the department for a rural
jurisdiction pursuant to Section 41787 or for a
reduction granted pursuant to Section 41786.
(5) The department may modify the years included in
making a calculation pursuant to this subdivision for
an individual jurisdiction to eliminate years in which
the calculated generation amount is shown not to be
representative or accurate, based upon a generation
study completed in one of the five years 2003 to 2007,
inclusive. In these cases, the department shall not
allow the use of an additional year other than 2003,
2004, 2005, 2006, or 2007.

App. 132
(6) The department may modify the method of
calculating the equivalent per capita disposal rate for
an individual jurisdiction to accommodate the
incorporation of a new city, the formation of a new
regional agency, or changes in membership of an
existing regional agency. These modifications shall
ensure that a new entity has a new equivalent per
capita disposal rate and that the existing per capita
disposal rate of an existing entity is adjusted to take
into account the disposal amounts lost by the creation
of the new entity.
(7) The department shall not incorporate generation
studies or new base year calculations for a year
commencing after 2006 into the equivalent per capita
disposal rate, unless a generation study that included
the year 2007 was commenced on or before June 30,
2008.
(8) If the department determines that the equivalent
per capita disposal rate cannot accurately be
determined for a jurisdiction, or that the rate is no
longer representative of a jurisdiction’s waste stream,
the department shall evaluate trends in the
jurisdiction’s per capita disposal to establish a revised
equivalent per capita disposal rate for that jurisdiction.
(Amended by Stats. 2013, Ch. 411, Sec. 10. (AB 1126)
Effective January 1, 2014.)
41780.1. (a) Notwithstanding any other requirement
of this part, for the purposes of determining the
amount of solid waste that a regional agency is
required to divert from disposal or transformation

App. 133
through source reduction, recycling, and composting to
meet the diversion requirements of Section 41780, the
regional agency shall use the solid waste disposal
projections in the source reduction and recycling
elements of the regional agency’s member agencies.
The method prescribed in Section 41780.2 shall be used
to determine the maximum amount of disposal
allowable to meet the diversion requirements of Section
41780.
(b) Notwithstanding any other requirement of this part,
for the purposes of determining the amount of solid
waste that a city or county is required to divert from
disposal or transformation through source reduction,
recycling, and composting to meet the diversion
requirements of Section 41780, the city or county shall
use the solid waste disposal projections in the source
reduction and recycling elements of the city or county.
The method prescribed in Section 41780.2 shall be used
to determine the maximum amount of disposal
allowable to meet the diversion requirements of Section
41780.
(c) To determine achievement of the diversion
requirements of Section 41780 in 1995 and in the year
2000, projections of disposal amounts from the source
reduction and recycling elements shall be adjusted to
reflect annual increases or decreases in population and
other factors affecting the waste stream, as determined
by the board. By January 1, 1994, the board shall study
the factors which affect the generation and disposal of
solid waste and shall develop a standard methodology
and guidelines to be used by cities, counties, and

App. 134
regional agencies in adjusting disposal projections as
required by this section.
(d) The amount of additional diversion required to be
achieved by a regional agency to meet the diversion
requirements of Section 41780 shall be equal to the
sum of the diversion requirements of its member
agencies. To determine the maximum amount of
disposal allowable for the regional agency to meet the
diversion requirements of Section 41780, the maximum
amount of disposal allowable for each member agency
shall be added together to yield the agency disposable
maximum.
(Amended by Stats. 1996, Ch. 978, Sec. 4. Effective
January 1, 1997.)
41780.2. (a) Each city, county, or member agency of a
regional agency shall determine the amount of
reduction in solid waste disposal and the amount of
additional diversion required from the base-year
amounts by using the methods set forth in this section.
(b) The city, county, or member agency of a regional
agency shall multiply the total amount of base-year
solid waste generation, as adjusted using the methods
described in subdivision (c) of Section 41780.1, by 0.75
to determine the maximum amount of total disposal
allowable in 1995 to meet the diversion requirements
of Section 41780.
(c) The city, county, or member agency of a regional
agency shall multiply the total amount of base-year
solid waste generation, as adjusted using the methods
described in subdivision (c) of Section 41780.1, by 0.50

App. 135
to determine the maximum amount of total disposal
allowable in the year 2000 to meet the diversion
requirements of Section 41780.
(d) The city, county, or member agency of a regional
agency shall multiply the total amount of base-year
solid waste generation, as adjusted using the methods
described in subdivision (c) of Section 41780.1, by 0.25
to determine the minimum amount of total diversion
needed in the year 1995 to meet the diversion
requirements of Section 41780.
(e) The city, county, or member agency of a regional
agency shall multiply the total amount of base-year
solid waste generation, as adjusted using the methods
described in subdivision (c) of Section 41780.1, by 0.50
to determine the minimum amount of total diversion
needed in the year 2000 to meet the diversion
requirements of Section 41780.
(f) The city, county, or member agency of a regional
agency shall subtract the total amount of base-year
existing diversion from the minimum total diversion
required as determined in subdivision (d) or (e) to
determine the amount of additional diversion needed to
meet the diversion requirements of Section 41780. This
amount of additional diversion shall be equal to the
minimum amount of additional reduction in disposal
amounts which is needed to comply with Section 41780.
(Amended by Stats. 1994, Ch. 146, Sec. 179. Effective
January 1, 1995.)
41781. (a) Except as provided in Sections 41781.1, and
41781.2, for the purpose of determining the base rate

App. 136
of solid waste from which diversion requirements shall
be calculated, “solid waste” includes only the following:
(1) The amount of solid waste generated within a local
agency’s jurisdiction, the types and quantities of which
were disposed of at a permitted disposal facility as of
January 1, 1990. Nothing in this section requires local
agencies to perform waste characterization in addition
to the waste characterization requirements established
under Sections 41030, 41031, 41330, 41331, and 41332.
(2) The amount of solid waste diverted from a disposal
facility, transformation facility, or EMSW facility,
through source reduction, recycling, or composting.
(b) For the purposes of this section, “solid waste” does
not include solid waste that would not normally be
disposed of at a disposal facility.
(c) For the purposes of this chapter, the amount of solid
waste from which the required reductions are
measured shall be the amount of solid waste existing
on January 1, 1990, with future adjustments for
increases or decreases in the quantity of waste caused
only by changes in population or changes in the
number or size of governmental, industrial, or
commercial operations in the jurisdiction.
(Amended by Stats. 2013, Ch. 411, Sec. 11. (AB 1126)
Effective January 1, 2014.)
41781.1. (a) Prior to determining that the diversion of
sludge may be counted toward the diversion
requirements established under Section 41780, but

App. 137
within 180 days of receiving such a request, the board
shall do both of the following:
(1) Make a finding at a public hearing, based upon
substantial evidence, that the sludge has been
adequately analyzed and will not pose a threat to
public health or the environment for the reuse which is
proposed.
(A) Except as provided in subparagraph (B), prior to
making the finding required to be made pursuant to
this paragraph, the board shall consult with each of the
following agencies, and obtain their concurrence in the
finding, to the extent of each agency’s jurisdiction over
the sludge or its intended reuse:
(i) The state water board and the regional water
boards.
(ii) The State Department of Health Services.
(iii) The State Air Resources Board and air pollution
control districts and air quality management districts.
(iv) The Department of Toxic Substances Control.
(B) If, prior to the board making the finding required to
be made pursuant to this paragraph, an agency
specified in subparagraph (A) issues a permit, waste
discharge requirements, or imposes other conditions for
the reuse of sludge, the agency shall have been deemed
to have concurred in that finding.
(2) Establish, or ensure that one or more of the
agencies specified in subparagraph (A) of paragraph (1)
establishes, ongoing monitoring requirements which

App. 138
ensure that the proposed sludge reuse does not pose a
threat to health and safety or the environment.
(b) It is not the intent of this section to require the
board, or the agencies listed in subparagraph (A) of
paragraph (1) of subdivision (a), to impose additional
requirements or approval procedures for sludge or
sludge reuse applications, apart from the requirements
and approval procedures already imposed by state and
federal law. It is the intent of this section to require
that the board determine that each sludge diversion,
for which diversion credit is sought, meets all
applicable requirements of state and federal law, and
thereby provides for maximum protection of the public
health and safety and the environment.
(Amended by Stats. 1992, Ch. 1293, Sec. 1. Effective
January 1, 1993.)
41781.2. (a) (1) It is the intent of the Legislature in
enacting this section not to require cities, counties, and
regional agencies to revise source reduction and
recycling elements prior to their submittal to the board
for review and approval, except as the elements would
otherwise be required to be revised by the board
pursuant to this part. Pursuant to Sections 41801.5
and 41811.5, compliance with this section shall be
determined by the board when source reduction and
recycling elements are submitted to the board pursuant
to Section 41791.5. However, any city or county may
choose to revise its source reduction and recycling
element or any of its components prior to board review
of the source reduction and recycling element for the
purpose of complying with this section.

App. 139
(2) It is further the intent of the Legislature in enacting
this section to ensure that compliance with the
diversion requirements of Section 41780 shall be
accurately determined based upon a correlation
between solid waste which was disposed of at
permitted disposal facilities and diversion claims which
are subsequently made for that solid waste.
(b) For the purposes of this section, the following terms
have the following meaning:
(1) “Action by a city, county, regional, or local governing
body” means franchise or contract conditions, rate or
fee schedules, zoning or land use decisions, disposal
facility permit conditions, or activities by a waste
hauler, recycler, or disposal facility operator acting on
behalf of a city, county, regional agency, or local
governing body, or other action by the local governing
body if the local government action is specifically
related to the claimed diversion.
(2) “Scrap metal” includes ferrous metals, nonferrous
metals, aluminum scrap, other metals, and auto bodies,
but does not include aluminum cans, steel cans, or
bimetal cans.
(3) “Inert solids” includes rock, concrete, brick, sand,
soil, fines, asphalt, and unsorted construction and
demolition waste.
(4) “Agricultural wastes” includes solid wastes of plant
and animal origin, which result from the production
and processing of farm or agricultural products,
including manures, orchard and vineyard prunings,
and crop residues, which are removed from the site of

App. 140
generation for solid waste management. Agriculture
refers to SIC Codes 011 to 0291, inclusive.
(c) For purposes of determining the base amount of
solid waste from which the diversion requirements of
this article shall be calculated, “solid waste” does not
include the diversion of agricultural wastes; inert
solids, including inert solids used for structural fill;
discarded, white-coated, major appliances; and scrap
metals; unless all of the following criteria are met:
(1) The city, county, or regional agency demonstrates
that the material was diverted from a permitted
disposal facility through an action by the city, county,
or regional agency which specifically resulted in the
diversion.
(2) The city, county, or regional agency demonstrates
that, prior to January 1, 1990, the solid waste which is
claimed to have been diverted was disposed of at a
permitted disposal facility in the quantity being
claimed as diversion. If historical disposal data is not
available, that demonstration may be based upon
information available to the city, county, or regional
agency which substantiates a reasonable estimate of
disposal quantities which is as accurate as is feasible in
the absence of historical disposal data.
(3) The city, county, or regional agency is
implementing, and will continue to implement, source
reduction, recycling, and composting programs, as
described in its source reduction and recycling element.
(d) If a city, county, or regional agency source reduction
and recycling element submitted pursuant to this
chapter includes the diversion of any of the wastes

App. 141
specified in subdivision (c) for years preceding the year
commencing January 1, 1990, that diversion shall not
apply to the diversion requirements of Section 41780,
unless the criteria in subdivision (c) are met.
(e) If a city, county, or regional agency source reduction
and recycling element submitted pursuant to this
chapter does not contain information sufficient for the
city, county, or regional agency to demonstrate to the
board whether the criteria in subdivision (c) have been
met, the city, county, or regional agency may provide
additional information following board review of the
source reduction and recycling element pursuant to
Section 41791.5. In providing the additional
information, Sections 41801.5 and 41811.5 shall apply.
(f) In demonstrating whether the requirements of
paragraph (1) of subdivision (c) have been met, the city,
county, or regional agency shall submit information to
the board on local government programs which are
specifically related to the claimed diversion.
(g) Notwithstanding any other provision of law, for
purposes of determining the base amount of solid waste
from which the diversion requirements of this article
shall be calculated for a city, county, or regional agency
which includes biomass conversion in its source
reduction and recycling element pursuant to Section
41783.1, the base amount shall include those materials
disposed of in the base year at biomass conversion
facilities.
(Amended by Stats. 1994, Ch. 1227, Sec. 7. Effective
January 1, 1995.)

App. 142
41781.3. (a) (1) Except as provided in paragraph (2),
the use of solid waste for beneficial reuse in the
construction and operation of a solid waste landfill,
including use of alternative daily cover, which reduces
or eliminates the amount of solid waste being disposed
pursuant to Section 40124, shall constitute diversion
through recycling and shall not be considered disposal
for purposes of this division.
(2) (A) Commencing January 1, 2020, the use of green
material as alternative daily cover does not constitute
diversion through recycling and shall be considered
disposal for purposes of this division.
(B) Commencing January 1, 2020, a local jurisdiction
that, as a result of not being able to claim diversion for
the use of green material as alternative daily cover,
does not meet the requirements of Section 41780 shall,
in the next annual report required pursuant to Section
41821, identify and address barriers to recycling green
material and, if sufficient capacity at facilities that
recycle green material is not expected to be operational
before the jurisdiction’s next review pursuant to
Section 41825, include a plan to address those barriers
that are within the control of the local jurisdiction.
(C) Commencing January 1, 2020, green material used
as alternative daily cover at a solid waste landfill is not
subject to the fee imposed on disposed solid waste
pursuant to Section 48000.
(3) Commencing August 1, 2018, a local jurisdiction
shall include in the electronic annual report required
pursuant to Section 41821 information on how the local
jurisdiction intends to address the requirements of

App. 143
subparagraph (A) of paragraph (2) and divert green
material that is being used as alternative daily cover.
(b) Before December 31, 1997, pursuant to the
department’s authority to adopt rules and regulations
pursuant to Section 40502, the department shall, by
regulation, establish conditions for the use of
alternative daily cover that are consistent with this
division. In adopting the regulations, the department
shall consider, but is not limited to consideration of, all
of the following criteria:
(1) Those conditions established in past policies
adopted by the department affecting the use of
alternative daily cover.
(2) Those conditions necessary to provide for the
continued economic development, economic viability,
and employment opportunities provided by the
composting industry in the state.
(3) Those performance standards and limitations on
maximum functional thickness necessary to ensure
protection of public health and safety consistent with
state minimum standards.
(c) Until the adoption of additional regulations, the use
of alternative daily cover shall be governed by the
conditions established by the department in its existing
regulations set forth in paragraph (3) of subdivision (b)
of, and paragraph (3) of subdivision (c) of, Section
18813 of Title 14 of the California Code of Regulations,
as those sections read on January 1, 1997, and by the
conditions established in the department’s policy
adopted on January 25, 1995.

App. 144
(d) In adopting rules and regulations pursuant to this
division, including, but not limited to, Part 2
(commencing with Section 40900), the department
shall provide guidance to local enforcement agencies on
any conditions and restrictions on the utilization of
alternative daily cover so as to ensure proper
enforcement of those rules and regulations.
(e) Nothing in this section modifies, limits, or abrogates
the authority of a local jurisdiction with respect to land
use, zoning, or facility siting decisions within that local
jurisdiction.
(f) For purposes of this section, “green material” has
the same meaning as “processed green material,” as
defined in subdivision (b) of Section 20690 of Title 27 of
the California Code of Regulations. The term does not
include materials left over from the composting
process, materials left over after the material recovery
process, commonly referred to as “fines,” or processed
construction and demolition waste materials.
(g) For purposes of this section, “processed construction
and demolition waste material” has the same meaning
as defined in subdivision (b) of Section 20690 of Title 27
of the California Code of Regulations.
(Amended by Stats. 2014, Ch. 719, Sec. 2. (AB 1594)
Effective January 1, 2015.)
41782. (a) The board may make adjustments to the
amounts reported pursuant to subdivisions (a) and (c)
of Section 41821.5, if the city, county, or regional
agency demonstrates, and the board concurs, based on
substantial evidence in the record, that achievement of

App. 145
the diversion requirements of Section 41780 is not
feasible due to either of the following circumstances:
(1) A medical waste treatment facility, as defined in
subdivision (a) of Section 25025 of the Health and
Safety Code, accepts untreated medical waste, which
was generated outside of the jurisdiction, for purposes
of treatment, and the medical waste, when treated,
becomes solid waste.
(2) (A) A regional diversion facility within the
jurisdiction accepts material generated outside the
jurisdiction and the conversion or processing of that
material results in the production of residual solid
waste that cannot feasibly be diverted. Any adjustment
provided pursuant to this paragraph shall apply only to
that portion of the residual solid waste produced as a
consequence of processing material that is not subject
to the reporting requirements of subdivisions (a) and (c)
of Section 41821.5 and that cannot feasibly be allocated
to the originating jurisdiction.
(B) For purposes of granting the reduction specified in
subparagraph (A) and for the purpose of calculating
compliance with the diversion requirements of Section
41780, “regional diversion facility” means a facility
which meets all of the following criteria:
(1) The facility accepts material for recycling from both
within and without the jurisdiction of the city or county
within which it is located.
(2) All material accepted by the facility has been
source-separated for the purpose of being processed
prior to its arrival at the facility.

App. 146
(3) The residual solid waste generated by the facility is
a byproduct of the recycling that takes place at the
facility.
(4) The facility is not a solid waste facility or solid
waste handling operation pursuant to Section 43020.
(5) The facility contributes to regional efforts to divert
solid waste from disposal.
(b) If the board makes an adjustment pursuant to
subdivision (a), the annual report required pursuant to
Section 41821 by the jurisdiction, within which a
medical waste treatment facility or regional diversion
facility described in subdivision (a) is located, shall
include all of the following information:
(1) The total amount of residual solid waste produced
at the facility.
(2) The waste types and amounts in the residual solid
waste that cannot feasibly be diverted.
(3) The factors that continue to prevent the waste types
from being feasibly diverted.
(4) Any changes since the petition for adjustment was
granted or since the last annual report.
(5) The additional efforts undertaken by the
jurisdiction to divert the waste produced at the facility.
(c) Based upon the information submitted pursuant to
subdivision (b), if the board finds, as part of the
biennial review pursuant to Section 41825, that the
residual solid waste that previously could not be
diverted can now be diverted, the board shall rescind

App. 147
the adjustment commensurate with the amount of
diversion of the residual tonnages.
(d) It is not the intent of the Legislature to exempt any
solid waste facility or handling operation from periodic
tracking and the reporting of disposal tonnages in
accordance with the regulations adopted by the board
pursuant to subdivisions (a) and (c) of Section 41821.5,
or from the permitting requirements pursuant to
Section 43020.
(Amended by Stats. 1995, Ch. 665, Sec. 1. Effective
January 1, 1996.)
41783. (a) For a jurisdiction’s source reduction and
recycling element submitted to the board after January
1, 1995, and on or before January 1, 2009, the 50
percent diversion requirement specified in paragraph
(2) of subdivision (a) of Section 41780 may include not
more than 10 percent through transformation, as
defined in Section 40201, if all of the following
conditions are met:
(1) The transformation project is in compliance with
Sections 21151.1 and 44150 of this code and Section
42315 of the Health and Safety Code.
(2) The transformation project uses front-end methods
or programs to remove all recyclable materials from the
waste stream prior to transformation to the maximum
extent feasible.
(3) The ash or other residue generated from the
transformation project is routinely tested at least once
quarterly, or on a more frequent basis as determined by

App. 148
the agency responsible for regulating the testing and
disposal of the ash or residue, and, notwithstanding
Section 25143.5 of the Health and Safety Code, if
hazardous wastes are present, the ash or residue is
sent to a class 1 hazardous waste disposal facility.
(4) The board holds a public hearing in the city, county,
or regional agency jurisdiction within which the
transformation project is proposed, and, after the
public hearing, the board makes both of the following
findings, based upon substantial evidence on the
record:
(A) The city, county, or regional agency is, and will
continue to be, effectively implementing all feasible
source reduction, recycling, and composting measures.
(B) The transformation project will not adversely affect
public health and safety or the environment.
(5) The transformation facility is permitted and
operational on or before January 1, 1995.
(6) The city, county, or regional agency does not include
biomass conversion, as authorized pursuant to Section
41783, in its source reduction and recycling element.
(b) On and after January 1, 2009, for purposes of the
review authorized by Section 41825, with regard to a
jurisdiction’s compliance with Section 41780 for each
year commencing January 1, 2007, the board may
reduce the per capita disposal rate for a jurisdiction, as
calculated pursuant to subdivision (d) of Section
41780.05, by no more than 10 percent of the average of
the calculated per capita generation tonnage amount,
if the jurisdiction otherwise meets the substantive

App. 149
requirements specified in paragraphs (1) to (6),
inclusive, of subdivision (a), for solid waste to be
included as diversion for purposes of that subdivision.
(Amended by Stats. 2008, Ch. 343, Sec. 8. Effective
January 1, 2009.)
41783.1. (a) For any city, county, or regional agency
source reduction and recycling element submitted to
the board after January 1, 1995, the 50 percent
diversion requirement specified in paragraph (2) of
subdivision (a) of Section 41780 may include not more
than 10 percent through biomass conversion if all of the
following conditions are met:
(1) The biomass conversion project exclusively
processes biomass.
(2) The biomass conversion project is in compliance
with all applicable air quality laws, rules, and
regulations.
(3) The ash or other residue from the biomass
conversion project is regularly tested to determine if it
is hazardous waste and, if it is determined to be
hazardous waste, the ash or other residue is sent to a
class 1 hazardous waste disposal facility.
(4) The board determines, at a public hearing, based
upon substantial evidence in the record, that the city,
county, or regional agency is, and will continue to be,
effectively implementing all feasible source reduction,
recycling, and composting measures.

App. 150
(5) The city, county, or regional agency does not include
transformation, as authorized pursuant to Section
41783, in its source reduction and recycling element.
(Added by Stats. 1994, Ch. 1227, Sec. 11. Effective
January 1, 1995.)
41784. If the board determines that a city or county
source reduction and recycling element submitted after
January 1, 1995, will not achieve the 50 percent
requirement established under Section 41780, and the
city or county chooses not to use a transformation
project to achieve the 50 percent requirement, the
board shall not require the city or county to achieve the
50 percent diversion requirement through
transformation, or impose any penalty on the city or
county to compel the city or county to achieve the 50
percent requirement through transformation.
(Added by Stats. 1989, Ch. 1095, Sec. 22.)
41786. (a) Notwithstanding Section 41780, the board
may reduce the diversion requirements specified in
Section 41780 for any city or county which, on or before
January 1, 1990, disposed of 75 percent or more of its
solid waste, collected by the jurisdiction or its
authorized agents or contractors, by transformation if
either of the following conditions exist:
(1) The attainment of the 25 percent or 50 percent
diversion requirement specified in Section 41780 will
result in substantial impairment of the obligations of
one or more contracts in existence on January 1, 1990,
for the city or county to furnish solid waste for fuel. A

App. 151
substantial impairment of obligations includes, but is
not limited to, instances where a city has entered into
a contract or franchise for 20 or more years with a joint
powers authority for the operation of a transformation
facility, and meeting the diversion requirements of
Section 41780 may increase the city’s costs by 15
percent or more.
(2) The attainment of the 25 percent or 50 percent
diversion requirement specified in Section 41780 will
substantially interfere with the repayment of debt
incurred to finance or refinance the transformation
project, if the refinancing is done for the purpose of
reducing debt service and not for the expansion of the
transformation project.
(b) If the board reduces the diversion requirements for
a city or county pursuant to subdivision (a), the board
shall establish new diversion requirements which
require the maximum feasible amount of source
reduction, recycling, and composting but which will not
result in the conditions described in paragraphs (1) and
(2) of subdivision (a).
(Amended by Stats. 1992, Ch. 736, Sec. 1. Effective
January 1, 1993.)

App. 152

APPENDIX E
JOHN DOUGLAS MOORE (SBN 095655)
LAW OFFICE OF JOHN DOUGLAS MOORE
1970 BROADWAY SUITE 950
OAKLAND, CALIFORNIA 94612
TELEPHONE: (510) 893-6300
FACSIMILE: (510) 433-1298
EMAIL: jmoore@recyclelaw.com
Attorneys for Plaintiff Jonna Corporation dba
Premier Recycling
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
Case No: l 7-cv-00956-LHK-HRL
[Filed July 16, 2017]
________________________________
JONNA CORPORATION.,
)
a California corporation, dba
)
Premier Recycling Corporation
)
)
Plaintiff,
)
)
v.
)
)
CITY OF SUNNYVALE,
)
California
)
)
Defendant.
)
________________________________ )

App. 153
FIRST AMENDED COMPLAINT FOR
DECLARATORY JUDGMENT AND
INJUNCTIVE RELIEF
(28 U.S.C. Section 2201)
JURISDICTION AND VENUE
1. This action is brought under the Declaratory
Judgment Act, 28 U.S.C. Sec. 2201. The question
presented is whether Defendant has violated the civil
rights of Plaintiff under 42 U.S.C. Sec. 1983 and
specifically violated Plaintiff’s rights under the
Commerce Clause and the Fifth and Fourteenth
Amendments of the United States Constitution, and
California Public Resources Code (Section 40059). This
Court has general jurisdiction of this action pursuant
to the provisions of 28 U.S.C. Sec. 1331 (federal
question). This Court also has supplemental
jurisdiction to consider claims arising under California
state law pursuant to 28 U.S.C. Sec. 1367.
2. Venue as to Defendant is proper in this judicial
district pursuant to 28 U.S.C. Sec.1391 in that the
actions complained of occurred within this judicial
district and Defendant resides within this judicial
district.
COMMON FACTS
3. Plaintiff Jonna Corporation (“Premier”) is, at all
times herein mentioned, a corporation organized under
the laws of the state of California. At all times relevant
Plaintiff has done business under the fictitious name of
Premier Recycling. Plaintiff has filed a fictitious
business name statement, in Santa Clara County
under the name Premier Recycling Company.

App. 154
4. Defendant City of Sunnyvale, CA (City) is, at all
times herein mentioned, apolitical subdivision of the
state of California.
5. Premier is in the business of collecting discarded
wood, metal, asphalt, concrete, and drywall from
commercial construction and demolition sites. This
material is referred to in the industry as “C&D” or
“construction and demolition debris”. Premier alleges
on information and belief that the City contends that
C&D is within the City’s definition of “solid waste” in
its Municipal Code Section 8-16.020(n).
6. Premier does not collect material traditionally
called garbage1, such as “wet garbage” or mixed
“putrescibles”, or “organics”. “Garbage” is defined in
Section 8-16.020(g) of Sunnyvale’s Municipal Code2 and
includes such items as
“the putrescible animal, fish, food, fowl, fruit or
vegetable matter, or any portion thereof, resulting
from the preparation, storage, handling, or
consumption of such substances.”
7. The C&D collected by Premier is also within the
City’s definition of “recyclable materials”. Section 816.020 of the Municipal Code defines “recyclable
materials” to be “solid domestic, commercial or
industrial by-products of some potential economic

1

Today “solid waste” is the gentrified term for what has been
called “garbage” historically.

2

All code references are to the Sunnyvale Municipal Code except
as otherwise stated.

App. 155
value, separated, handled, packaged or offered for
collection in a manner different from solid waste.”
Premier does not collect, and then sort, C&D mixed
with solid waste. The C&D collected by Premier is
separated from waste/garbage at the job site. The C&D
collected by Premier has actual economic value when it
is separated from solid waste at the job site. Almost all
the constituent parts of C&D are sold by Premier after
they are collected and sorted.
8. Premier charges a service fee for the collection of
mixed3 C&D in debris boxes and roll-offs, to offset its
costs of the labor and transportation to bring the C&D
from a construction site within Santa Clara County to
Premier’s state-permitted materials recovery facility
(MRF) in San Jose4. City maintains a materials
recovery facility within its borders. Plaintiff is informed
and believes and thereon alleges that the percentage of
material recycled at each of Premier and City’s
facilities are within 5 percentage points of each other.
After taking the C&D to its own facility, the mixed
C&D is then sorted into its components (e.g. wood,
metal) at the MRF. Premier then sells the sorted C&D
within interstate commerce.
9. After Premier sorts and separates the mixed
C&D at its MRF, the resulting products are within
Municipal Code Section 8-16.020(p)’s definition of
“Source separated recyclable materials”, which “...
3

“Mixed: in a sense that the mix includes different types of C&D.
What Premier collects is not “mixed” with garbage.

4

San Jose’s solid waste ordinance does not prohibit changing a fee
to collect C&D

App. 156
means any recyclable materials, whether or not
combined with other solid recyclable materials, source
separated for collection, not containing more than an
incidental amount of contamination by solid waste, but
in no circumstances to exceed ten percent by volume of
such solid waste.”
10.
City defines “solid waste” broadly in Section
8-16.090(n) to include “garbage” (para. 6 supra) and
“demolition and construction wastes”. “Waste”, in
turn, is defined by Section 8-16.090(q) to mean:
“the useless, unused, unwanted, or discarded
material and debris resulting from normal
community or business activities, or materials
which by their presence may injuriously affect
the health, safety and comfort of persons and
depreciate property values in the vicinity
thereof.”
11.
To recap these confusing and interlocking
definitions:
a. Solid waste includes demolition and construction
wastes.
b. Waste means useless and unwanted discarded
material.
c. Recyclable materials are materials with
economic value that are separated from waste.
d. Source-separated recyclables are recyclable
materials separated from waste at the point of
discard.

App. 157
12.
Applying this definitional “tree” under the
Municipal Code to what Premier does in Santa Clara
County:
a. Premier collects demolition and construction
discards, but not what City defines as “waste”.
Therefore the C&D it collects is not within the
City definition of “solid waste”.
b. Premier collects recyclable materials.
c. The recyclable materials collected by Premier
are separated from waste at the point of discard
(the job site)
d. Premier separates the recyclable materials at its
own facility but not at the point of discard (job
site)
13.
Section 8-16.090 requires that a business
obtain a franchise or license before it may lawfully
collect “solid waste” or “recyclable materials” within the
City. Code Section 8-16.090 provides:
“The city council shall provide for the collection and
disposal of solid waste and recyclable materials
generated from residences within the city by the
issuance of a franchise or license, or franchises and
licenses, to disposal service operators. The terms
and conditions under which the disposal service
operators are required to collect and dispose of solid
waste and residential recyclable materials shall be
specified in the applicable franchise or license and
the rates for such collection and disposal operations
shall be established by resolution of the city
council.”

App. 158
14.
Section 8-16.090 is internally inconsistent.
The first sentence requires the City Council to provide
for collection of “solid waste and recyclable materials”
by the issuance of a franchise or license. The second
sentence requires the franchise or license itself to state
the terms and conditions for collection. But the
“collection” in the second sentence is for solid waste
and “residential recyclable materials.” Premier does not
collect residential recyclable materials and has no
desire to obtain a City license or franchise to do so.
Section 8-16.090 can be interpreted to mean that no
franchise or license is required to collect “commercial
recyclable materials.”
15.
Section 8-16.150 makes it illegal to collect
solid waste or recyclable materials within the City
without a City-issued franchise or license as a “disposal
service operator”. Section 8-16.060 states certain
exclusions or exemptions from the prohibition of
Section 8-16.150. The “exclusions” relevant to this case
include:
i. Subsection (c) excludes source separated
recyclable materials, (which is what Premier has after
it sorts the mixed C&D at its MRF).
“Collection of Source Separated Recyclable
Materials. No provision of this chapter shall prevent
a recycler, junk dealer or other enterprise engaged
in the business of buying and marketing source
separated recyclable materials in the stream of
commerce and which buys such materials for
marketing and not for disposition in a landfill or
transfer station (as defined in Public Resources
Code Section 40200) from buying recyclable

App. 159
materials for a monetary or other valuable
consideration; nor shall any provision of this
chapter prevent a recycler, junk dealer or enterprise
which buys the materials from removing and
transporting the materials to a destination for
marketing in the stream of commerce.”
The materials collected by Premier are source
separated after they are collected and then are sold by
Premier. Premier does not always buy certain
recyclable materials within C&D. Markets for
recyclable materials fluctuate and some materials that
are capable of being recycled, drywall as an example,
do not have a high enough market price to justify
buying them as opposed to charging a service fee to
collect them to offset labor and transportation cost in
the collection.
ii. Subsection (e) excludes “Contractors.”
The exclusion states:
“Contractors. No provision of this chapter shall
prevent a licensed contractor having a contract
for the demolition or reconstruction of a
building, structure, pavement, or concrete
installation from marketing any saleable items
salvaged from demolition or reconstruction, or
from causing salvageable items or construction
or demolition waste to be removed and
transported from the premises on which the
waste is generated, pursuant to the provisions of
the demolition or construction contract, subject
to the following:

App. 160
(1)
Collection, removal and disposal activity
shall be only by the licensed contractor having
the contract for the construction or demolition
work that generated salvageable items or
construction or demolition waste, or by regularly
employed personnel carried on the licensed
contractor’s payroll records as an employee.
(2)
All vehicles used in carrying out
collection, removal and disposal activities shall
be owned by or under the exclusive control of the
licensed contractor and shall meet all of the
requirements of this chapter and all other laws,
statutes, rules, regulations and ordinances of the
state of California and the city.”
Plaintiff’s majority owner, Robert Wayne Hill, holds
a Type B general contractor’s license from the
California State Contractor’s License Board. In
connection with collecting C&D in Santa Clara County,
Premier provides services to other licensed contractors
on commercial job sites. The relevant exclusion permits
the licensed contractor doing the job in Sunnyvale to
haul away its own C&D, but precludes Premier and
other similarly situated licensed businesses from doing
the same thing but charging service fees to do so.
16.
Plaintiff is informed and believes and thereon
alleges that City interprets its Code to the effect that
Premier’s activities do not fall within either exception
to the franchise/license requirement because:
a. The source separated recyclable exclusion does
not apply because Premier does not buy all the
recyclable materials and;

App. 161
b. The contractor exclusion does not apply because
Premier is not the licensed contractor that generates
the C&D nor is it an employee5 of the licensed
contractor that generates the C&D.
Because Premier charges a fee for the service of
collecting recyclable materials and because it is not the
licensed contractor that generates the C&D, according
to City, Premier’s actions do not fit these exclusions to
the franchise/license requirement.
17.
Because it desires to perform its regular
business and collect C&D for a service fee within the
City, on or about October 19, 2016, Premier applied to
City, through its Environmental Services Department
for a license to collect C&D in Sunnyvale as a “disposal
service operator” under Municipal Code Section
8.16.090. A copy of this letter is attached hereto as
Exhibit 1. Nowhere in the Municipal Code does it state
the qualifications to obtain a franchise or license under
Section 8.16-090 and nowhere in the Code does it state
that there may only be one franchisee or licensee
within the City. The City’s website provides no
information about how one can obtain a franchise or
license to be a “disposal service operator”. Exhibit 1
also requests the City to provide any qualifications or
conditions for the issuance of a disposal service
operator franchise or license.
18.
On or about November 7, 2016, Premier
received a letter from the City denying its application
for a disposal service operator franchise or license. A
5

It is certainly an ‘’agent” of the licensed contractor generating the
C&D.

App. 162
copy of this letter is attached hereto as Exhibit 2.
According to the City Environmental Services
Department, there can be only one franchise in town
i.e. an exclusive franchisee. The City stated:
“While the Sunnyvale Municipal Code does allow
for the possibility of the City issuing multiple
license holders/franchisees, the City’s current
policy is to issue an exclusive franchise to a
single disposal service operator. This franchise
extends to collection of all solid waste, including
C&D material, as described in more detail in
Chapter 8.16 of the Code. The current franchisee
is Bay Counties Waste Services, also known as
Specialty Solid Waste and Recycling.”
19.
Under California Public Resources Code
Section 40059(a) (2), City may only grant an exclusive
franchise for the collection of “solid waste”, and then
only if “the public health, safety, and well-being so
require.” California state statutes do not allow for the
exclusive franchising of the right to collect “recyclable
materials.”
20.
On information and belief, Premier asserts
that City has never adopted a policy at any public
hearing duly noticed under the requirements of the
Brown Act to limit the awarding a “disposal service
operator” franchise or license to a single, “exclusive”,
franchisee as declared by City in Exhibit 2, in its denial
of Premier’s franchise/license application. While the
franchise agreement itself contains language about the
exclusivity of the franchise, none of the public notices
or agendas put out by City make any mention of
“exclusivity.” Thus, if ever there was any City-adopted

App. 163
“policy” to have an exclusive franchisee in connection
with the current 1990 franchise, consistent with the
requirement of Public Resources Code Section 40059,
such determination was made in violation of the Brown
Act, Government Code Section 54950 et seq. In
addition, the legislative body of the City has not found
that an exclusive solid waste franchise is required for
public health, safety, and well-being as required by
PRC Section 40059.
21.
California’s policy favoring recycling over
landfilling is set forth in the landmark Integrated
Waste Management Act of 1989. Public Resources Code
Section 40000 states this policy as:
“The Legislature hereby finds and declares all of
the following:
• (a) In 1988, Californians disposed of over 38
million tons of solid waste, an amount that is
expected to grow if existing solid waste
policies are continued. This amounts to more
than 1,500 pounds of waste per person living
in the state, more than any other state in the
country and over twice the per-capita rate of
most other industrialized countries.
• (b) Over 90 percent of California’s solid waste
currently is disposed of in landfills, some of
which pose a threat to groundwater, air
quality, and public health.
• (c) While California will exhaust most of its
remaining landfill space by the mid-1990s,
there presently is no coherent state policy to
ensure that the state’s solid waste is

App. 164
managed in an effective and environmentally
sound manner for the remainder of the 20th
century and beyond.
• (d) The amount of solid waste generated
in the state coupled with diminishing
landfill space and potential adverse
environmental impacts from landfilling
constitutes an urgent need for state and
local agencies to enact and implement
an aggressive new integrated waste
management program. (emphasis
added)
• (e) The reduction, recycling, or reuse of solid
waste generated in the state will, in addition
to preserving landfill capacity in California,
serve to conserve water, energy, and other
natural resources within this state, and to
protect the state’s environment.”
22.
While California statutes do not define
“recyclable materials” as distinct from “solid waste”,
City has purported to equate the two, but, in doing so,
has overstepped its police power in an arbitrary and
capricious manner. The “fee for service” litmus test to
determine if C&D is exempt from the franchise/license
requirement, has no rational relationship to any
legitimate City interest.
23.
The closest statutory definition of “recyclable
materials” is found for the verb “recycle” which is
defined by PRC Sec. 40180 as
“... the process of collecting, sorting, cleansing,
treating, and reconstituting materials that

App. 165
would otherwise become solid waste, and
returning them to the economic mainstream in
the form of raw material for new, reused, or
reconstituted products which meet the quality
standards necessary to be used in the
marketplace. “Recycling” does not include
transformation6, as defined in Section 40201 or
EMSW conversion.”
21.
If the verb “recycle” means “collecting, sorting
..., and reconstituting materials that would otherwise
become solid waste”, then the results of that process
logically are “recyclable materials.” The key phrase in
Section 40180 is “that otherwise would become solid
waste.”
22.
The Legislatively-mandated hierarchy for
handling post-consumer discards requires that each
material be processed for reuse or recycling before it
may be disposed in a landfill. Accordingly, the phrase
“otherwise become solid waste” in PRC Section 40180,
means materials that are collected, sorted, and
reconstituted, and are recovered so they never
become solid waste. Premier desires to collect and
reclaim recyclable materials that are, by statutory
construction, not solid waste.
23.
Specifically in relation to the need to develop
markets and infrastructure to enable recycling and
deter landfilling, PRC Section 40001 (c) states
legislative policy that:

6

i.e. incineration

App. 166
“The Legislature further declares that market
development is the key to successful and costeffective implementation of the 25-percent and
50-percent diversion requirements required
pursuant to Section 41780, and that the state
must take a leadership role, pursuant to
Chapter 1 (commencing with Section 42000) of
Part 3, in encouraging the expansion of markets
for recycled products by working cooperatively
with the public, private, and nonprofit sectors.”
24.
Since Premier desires to collect “recyclable
materials” as defined by City and not “solid waste” and
since City has made no finding that “the public health,
safety, and well-being so require” issuance of an
exclusive franchise, City’s grant of an exclusive
franchise encompassing “recyclable materials” and its
refusal to issue a disposal service operator or license to
Premier are acts in excess of its power.
FIRST CLAIM FOR RELIEF
(Declaratory Judgment)
26.
An actual controversy exists between Premier
and City relating to City’s denial of Premier’s
application for a disposal service operator license in
December, 2016. Premier contends that the City’s
refusal to issue a disposal service operator license and
by otherwise prohibiting Premier from collecting C&D
within the City while charging a service fee deprives
Premier of property interests without compensation
under color of law in violation of 42 U.S.C. Section 1983
in an arbitrary and capricious manner, thereby
violating the Takings clause of the Fifth and
Fourteenth Amendment of the United States

App. 167
Constitution and Premier is informed and believes, and
thereon alleges, that City contends that it lawfully may
prohibit Premier from collecting C&D if Premier
charges a service fee for such collection.
27.
An actual controversy has also arisen in that
Premier contends that the requirement in City’s
Municipal Code that C&D cannot be collected for a fee
by anyone other than its exclusive franchise has no
rational relation to any legitimate government interest
and therefore is in excess of City’s police power in
violation of the Fourteenth Amendment of the United
States Constitution.
28.
An actual controversy has also arisen in that
Premier contends that the C&D it collects is not within
the California statutory definition of “solid waste”,
which may be the subject of an exclusive franchise and
City, on information and belief, contends that the C&D
collected by Premier is within the state law definition
of solid waste.
29.
An actual controversy exists in that Premier
contends that City has failed to comply with Public
Resources Code Section 40059 in its granting of an
exclusive solid waste franchise by failing to find that
the “public health, safety, and well-being” require an
exclusive franchise.
30.
In connection with its claim under the
Takings clause, Premier asserts that it has property
interests as lost contracts and business relationships
by the acts complained of and that these types of
property interests were established in the law prior to
the decision in Waste Management of the Desert v. Palm

App. 168
Springs Recycling Center (1994) 7 Cal.4th 478.(hereafter
“Rancho Mirage”7 case) Since C&D is not solid waste,
the case of Houlton Citizens’ Coalition v. Town of
Houlton, 175 F.3d 178, 190 and the cases cited by that
Court are inapplicable.
31.
Premier is informed and believes and thereon
alleges that City’s grant of an exclusive franchise
inclusive of recycled C&D, is premised upon an
interpretation of California Public Resource Code
Section 40059 by the Court in Rancho Mirage and since
City did not discuss or debate the merits of an exclusive
franchise in any public hearing, City’s action this was
not simply incidental to its exercise of its police powers.
32.
A Court can commit a taking in violation of
the Fifth Amendment just the same as any other
branch of government, particularly where it infringes
upon an established property right. Stop the Beach
Renourishment, Inc. v. Fla. Dep’t of Envtl. Prof. (2010)
130 S. Ct. 2592 and Pruneyard Shopping Ctr. v. Robins
(1980) 447 U.S. 74, 76
33.
By interpreting Public Resources Code
Section 40059 to allow local governments to monopolize
the collection of commodities that have value once
sorted and separated, the Rancho Mirage Court
committed a taking of an established property right
when applied to City’s action to deny a disposal service
operator license to Premier.

7

The City of Rancho Mirage is also a named plaintiff and the
industry refers to it as the Rancho Mirage decision.

App. 169
34.
Premier is informed and believes and thereon
alleges that the denial of the disposal service operator
permit described in Paragraph 18 is City’s final
decision on the applicability of its Ordinance to
Premier’s permit application.
35.
Because all California trial courts and courts
of appeal must follow the Rancho Mirage decision, it
would be futile for Premier to bring this action in state
court to seek compensation under the Takings clause
based on the circumstances described in this First
Amended Complaint. Premier is unaware of any
administrative appeal process of the City that could or
possibly would overturn the decision denying a permit
to Premier and, even if there was, such avenue of relief
likewise would be futile for Premier to pursue so that
there is no adequate forum other than this Court for
Premier to seek just compensation. In any event,
Premier is not seeking compensation in this action, it
is seeking injunctive and specific relief so that it may
collect C&D prospectively within City while charging a
service fee.
36.
With respect to its 14th Amendment
substantive due process claim, Premier alleges that the
Rancho Mirage court’s action as applied by City is so
arbitrary that a rational basis for the action cannot
even be conceived post hoc.
RELIEF SOUGHT
WHEREFORE, Plaintiff, prays for judgment as
follows:
a. For a judicial decree that Premier may collect
C&D within City while charging a service fee

App. 170
for the collection without a City-issued
franchise or license.
b. For a judicial decree that City’s refusal to
issue Premier a franchise or license as a
disposal service operator is an arbitrary and
capricious exercise of police power, not
rationally related to any legitimate
government interest and therefore violates
the Fourteenth Amendment of the United
States Constitution.
c. For a judicial decree that City’s refusal to
issue Premier a franchise or license as a
disposal service operator constitutes a taking
of a property interest without just
compensation in violation of the 5th
Amendment of the United States
Constitution.
d. For a judicial decree that City’s grant of an
exclusive franchise is invalid for lack of
making a finding as required by Public
Resources Code Section 40059 that the public
health, safety, and well-being so require.
e. For a judicial decree that the C&D it collects
where allowed is not solid waste.
f. For a permanent injunction against City to
not refuse to allow Premier to collect C&D for
a service fee within the City.
g. For reasonable attorney’s fees pursuant to 42
U.S.C. Section 1988(b).

App. 171
h. For costs of suit.
i. For such other and further relief as the Court
deem just and proper.
Dated: 7/13/17

Respectfully submitted,

/s/John Douglas Moore
John Douglas Moore
Attorney for Plaintiff

App. 172
EXHIBIT 1
HENN, ETZEL & MOORE INC.
ATTORNEYS AT LAW

JOHN DOUGLAS MOORE
E-MAIL: jmoore@hennetzel.com
WEB: www.hennetzel.com
1970 BROADWAY, SUITE 950
OAKLAND, CA 94612
TELEPHONE: (510) 893-6300
FACSIMILE: (510) 433-1298
October 19, 2016
John Stufflebeam, Director
Environmental Services Department
City of Sunnyvale
456 W. Olive Avenue
Sunnyvale, CA 94086
Re: License request
Dear Mr. Stufflebeam:
I represent Premier Recycling, a resource recovery
business located in San Jose. Premier separates and
collects construction and demolition debris (C&D) for
recycling and resale. The Sunnyvale Municipal Code
defines these discards to be “solid waste” and provides
further that no one may collect solid waste in
Sunnyvale without a license from the City.
Premier requests that the City issue a license to
collect construction and demolition debris in Sunnyvale
as a “disposal service operator” under Municipal Code

App. 173
Section 8.16.090. Premier was unable to find on the
City website any further regulation about disposal
service operator licenses or any form on which to make
application for such a license. The current ordinance as
well as many earlier iterations refer to “disposal service
operators”, in the plural form, suggesting there can be
multiple disposal service operators that are licensed by
the City.
Accordingly, Premier solicits the City for the
requisites to obtain such a license, such as insurance,
specifications of containers and collection vehicles,
diversion reporting, and license fees if any, so that
Premier may submit an acceptable application.
More than 70% of all C&D discards collected by
Premier are put back into the stream of commerce
(“diversion”). This diversion rate has support in City
General Plan sub-element EM-14, which states in part:
“This increased regulation (for solid waste and
recycling) and special handling has provided
benefits to the environment by minimizing
damaging discharges to air, water and land. It
has also increased the efficiency of the economy
as a whole, by extracting value from products
previously disposed.”
The City’s Zero Waste Strategic Plan states that the
City’s diversion rate for commercial discards is 6%,
while Premier’s diversion rate is greater than 70%.
Please let me know what further information is
required of Premier to obtain a disposal service
operator license.

App. 174
Very truly yours,
/s/
John Douglas Moore

SAN FRANCISCO OFFICE:
180 MONTGOMERY STREET, SUITE 700,
SAN FRANCISCO, CA 94104
TELEPHONE: (415) 537-7700,
FACSIMILE: (415) 537-7722

